<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Craig, and Dorgan.

                          DEPARTMENT OF ENERGY

                           Office of Science

STATEMENT OF DR. RAYMOND L. ORBACH, DIRECTOR

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The Senator from Nevada will probably be 
along shortly. Senator Craig, nice to have you here.
    Today the subcommittee is going to review the Department of 
Energy's fiscal year 2004 budget request for, one, the Office 
of Energy Efficiency and Renewables, and the Office of Science 
and the Office of Nuclear Energy. In that regard, we will hear 
from Dr. David Garman, Assistant Secretary for Energy 
Efficiency and Renewable Energy. We will hear from Dr. Ray 
Orbach, Director of the Office of Science, and Mr. Bill 
Magwood, the Director of the Office of Nuclear Energy and 
Science Technology.
    All of these witnesses have appeared before the 
subcommittee before and are well known to us. We look forward 
to your testimony today.
    Let me summarize just a moment. It will not take me very 
long, Senator Craig, and then we will go right to the 
witnesses.
    The budget request for renewable energy under Mr. Garman is 
$444 million, an increase of $24 million, about 6 percent over 
the current year. However, more than all of the increases put 
toward the President's initiative, an initiative that may 
displace much of our dependence on foreign oil in years to 
come, the so-called hydrogen research for the hydrogen car.
    Under this subcommittee, we would more than double the 
amount spent for that endeavor to $88 million. Unfortunately, 
many of the traditional areas of renewable research, such as 
biomass, renewable research, geothermal and wind, are proposed 
to be cut. And that is below current levels in order to fund 
this initiative. I am not sure that will hold. But somehow or 
another, we will work it out.
    I continue to believe in the importance of the balanced 
portfolio. Our country must increase the diversity of energy 
production in order to reduce our dependence upon unstable 
sources of foreign energy. Under any scenario, renewable energy 
technologies will play a dramatic role in our energy future, 
recognizing the priorities of the administration, while 
continuing to address the priorities of many of the Senators on 
this subcommittee may prove to be a real challenge this year.
    However, in addition to what we just talked about, the 
budget request for nuclear energy has elements of both good 
news and bad news. For me, the most notable new development, 
and Larry Craig, I think you would be interested in this, is 
the administration's request for $63 million to continue the 
advanced fuel cycle initiative. I am very pleased that someone, 
somehow, has worked through the Office of Management and 
Budget, and the Executive Branch has finally recognized that 
this is a truly long-term initiative of great significance. And 
the sooner we start, the sooner we will find out if and when it 
will be available as part of the nuclear cycle.
    We have long believed that the country must move ahead to 
the next generation of fuel cells that generate less waste, 
extract full energy benefit from each gram of fuel. This is a 
long-term effort that requires a much larger investment by the 
Department.
    Senator Reid and I have worked hard in our position of 
chairman and ranking member and vice versa in this effort the 
last few years. And to see the administration embrace the 
importance is truly gratifying.
    Generally, the whole area of R&D is a mix of good news and 
some of bad news. The administration, with much help from this 
subcommittee, has begun to correct many years of neglect. The 
Department has now in place the structure of a well thought-out 
R&D program and addresses the near-term goal of bringing a new 
plant online through nuclear power in 2010 while performing the 
R&D necessary for nuclear power to support growing demand for 
worldwide electricity over the next 50 years, a Generation IV 
program and advanced fuel cycle initiatives.
    However, the request is not all good news, as the 
Department proposes the elimination of new funding for the 
Nuclear Energy Optimization Program. And perhaps you will 
address that for us a bit. I know you work for the 
administration. Nonetheless, we would appreciate your 
evaluation for us as to what that does to the program; that is 
the program of continued and maximum use of nuclear power 
plants.
    Finally, the budget request for the Office of Science, it 
is only a little better than flat for the coming year. The 
Department of Energy is the Federal Government's largest 
supporter of physical science. And as such, I remain concerned 
about the tremendous imbalance in the Government's investment 
in physical sciences versus life sciences. NIH's budget has 
doubled in 5 years, while DOE's science can probably claim and 
prove that it has been slightly higher than inflation.

                          PREPARED STATEMENTS

    Past successes in biomedicine have been built upon the 
strong foundation of the physical and computational sciences 
that are present in DOE. However, we will not be equipped to 
take advantage of these remarkable new opportunities in 
genomics, nanotechnology, and advanced materials and other 
areas unless we increase the funding for DOE science.
    The rest of my statement can be made a part of the record. 
Senator Cochran has a statement. It will be made a part of the 
record immediately following mine.
    [The statements follow:]
             Prepared Statement of Senator Pete V. Domenici
    Today, the Subcommittee will review the Department of Energy's 
fiscal year 2004 budget request for the Office of Energy Efficiency and 
Renewable Energy; the Office of Science; and the Office of Nuclear 
Energy.
    In that regard, we will hear from Mr. David K. Garman, Assistant 
Secretary for Energy Efficiency and Renewable Energy; Dr. Ray Orbach, 
Director of the Office of Science; and Mr. Bill Magwood, Director of 
the Office of Nuclear Energy, Science and Technology.
    All of the witnesses have appeared before the subcommittee before 
and are well known to us. We look forward to your testimony today.
    This is the Subcommittee's second hearing this year but our first 
opportunity to review the Administration's budget request for the 
Department of Energy. Overall, the Administration is seeking $21.7 
billion for programs and activities of the Department within the 
jurisdiction of this subcommittee. That is a $785 million increase over 
the current year enacted level of $20.89 billion (or approximately 4 
percent).
    That increase appears reasonable, but it must be viewed in its 
proper context. Almost all of the increases for the Department occur in 
the nuclear weapons and nonproliferation programs of the NNSA, in the 
Department's environmental clean-up programs, and in proposed funding 
for the Yucca Mountain project.
    The programs we are reviewing today, which make up just over $4 
billion of the Department's budget, would increase by less than 
inflation, or 2 percent over the current year enacted level.
    The budget request for renewable energy research under Mr. Garman 
is $444 million, an increase of $24 million (6 percent) over the 
current year level. However, more than all of the increase is put 
toward the President's exciting hydrogen initiative that may displace 
much of our dependence on foreign oil by 2020. Hydrogen research under 
this subcommittee would more than double to $88 million in fiscal year 
2004.
    Unfortunately, many of the traditional areas of renewable research, 
such as biomass, geothermal and wind, are proposed to be cut below 
current year levels in order to fund the President's agenda.
    I continue to believe in the importance of a balanced energy 
portfolio. Our country must increase our diversity of energy production 
in order to reduce our dependence on unstable foreign sources of 
energy. Under any scenario, renewable energy technologies will play a 
dramatic role in our energy future. Recognizing the Administration's 
priorities while continuing to address the priorities of many Senators 
on this subcommittee may prove to be a real challenge this year.
    Likewise, the budget request for Nuclear Energy has elements of 
both good news and bad news. For me, the most notable new development 
is the Administration's request for $63 million to continue the 
Advanced Fuel Cycle Initiative.
    I have long believed that the country must rapidly move ahead with 
a next-generation fuel cycle that generates far less waste and extracts 
the full energy benefit from each gram of fuel. This is a long-term 
effort that requires a much larger investment by the Department. 
Senator Reid and I have worked hard to sustain this effort for the last 
several years and I am pleased to see the Administration embrace this 
important initiative.
    I am generally encouraged with the progress in nuclear R&D. The 
Administration, with much help from this subcommittee, has begun to 
correct many years of neglect. The Department now has in place the 
structure of well-thought-out nuclear R&D program that:
  --addresses the near-term goal of bringing a new plant on line 
        through the Nuclear Power 2010 program;
  --while performing the R&D necessary for nuclear power to support the 
        growing demand for electricity world-wide over the next 50 
        years through the Generation IV Program and the Advanced Fuel 
        Cycles Initiative.
    However, the request is not all good news, as the Department 
proposes elimination of new funding for the Nuclear Energy Plant 
Optimization program and a 50 percent cut to the well regarded Nuclear 
Energy Research Initiative. We will address these concerns and others 
as best we can.
    Finally, the budget request for the Office of Science remains only 
a little better than flat for the coming year.
    The Department of Energy is the federal government's largest 
supporter of physical sciences. As such, I remain concerned about the 
tremendous imbalance in the government's investments in the physical 
sciences verses the life sciences. For example, NIH's budget has 
doubled in 5 years while DOE Science cannot even keep up with 
inflation.
    Past successes in biomedicine have been built upon the strong 
foundation of the physical and computational sciences. However, we will 
not be equipped to take advantage of remarkable new opportunities in 
genomics, nanotechnology, advanced materials, and other areas unless we 
increase funding in DOE Science.
    Each of the program areas before us today will present unique 
challenges and opportunities for this subcommittee. I will look forward 
to engaging each of our witnesses today and working with the Senator 
Reid and the members of the Subcommittee to put together the best 
possible bill.
    I will yield now to Senator Reid and any other Senator that would 
like to make an opening statement.
    Thereafter, we will hear from Mr. Garman, Dr. Orbach, and finally 
Mr. Magwood.
                                 ______
                                 
               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I'd like to thank the Undersecretary and Directors 
for testifying before this committee today. The work you do is very 
important to my state and to me. I'd like to commend David Garman, the 
Director of the Office of Energy Efficiency and Renewable Energy, for 
the work he does with biomass research.
    This scientific research is so important to a rural, agricultural 
state like Mississippi. Biomass energy is estimated to contribute over 
7 percent of Mississippi's total energy consumption--that amount is 
double the national average. The majority of our lumber facilities burn 
wood waste to generate steam for industrial processes. Biomass offers 
special opportunities for benefitting Mississippi's economy by keeping 
energy dollars in our state and by providing jobs in rural areas where 
biomass is produced. By using their wastes for energy, disposal costs 
are avoided, and industries are better able to compete.
    The principal biomass waste streams that occur in Mississippi are 
generated by agriculture (e.g., cotton gin waste), wood products 
manufacturing (e.g., sawdust and wood scraps), animal wastes from 
confined feeding operations, and municipal solid waste collections 
(e.g., paper and cardboard, demolition waste, lawn and tree trimmings).
    Last year I visited a biomass plant in Winona, Mississippi and 
inquired about plans for using federal funds that were appropriated in 
the fiscal year 2003 omnibus bill. I learned that the Winona biomass 
project can enter its final stages of discovering the organism which 
will cause the heated biomass to turn into gas. Once that organism or 
``bug'' is discovered, the plant can operate from start to finish where 
chips of wood can be input, burned and then gasified into ethanol. In a 
town like Winona, that sort of success has great economic development 
potential.
    I am pleased to learn that the Department is concentrating its 
biomass research efforts on the catalysts needed for biomass gasifiers. 
Many communities, beyond the scientific community, will benefit from 
this work.
    I would also like to commend the Mississippi Diagnostic 
Instrumentation and Analysis Laboratory at Mississippi State 
University. I am pleased to see that you're funding good science, like 
the joint Los Alamos-Mississippi State project that we hope will be 
useful for both DOE and Homeland Security. A continuing concern is how 
do we take this magnificent science and turn it into the new 
technologies DOE needs to accelerate cleanup. I am hopeful that you 
consider using organizations such as DIAL at Mississippi State to turn 
your science into technologies that will be used at the DOE sites.
    Mr. Chairman, with your permission I have a question I'd like to 
submit for the record.

    Senator Domenici. And I yield now to Senator Larry Craig 
for his comments. And then we will take the witnesses.
    Senator Craig.

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Well, thank you, Mr. Chairman. I will be 
brief. And I do appreciate a chance to speak now. I have to 
pull out about 3:00 to attend something else.
    But first of all, I want to visit Bill Magwood. We have 
been working very closely since Secretary Abraham announced 
that the INEEL and Argonne-West would be DOE's lead lab for 
nuclear energy. And certainly the chairman has been a leader in 
advancing this cause for some time. He spoke to it a few 
moments ago.
    But I do appreciate the hard work that you have put into 
the transition at the Idaho National Engineering Environmental 
Laboratory and the new mission that we are talking about. I 
have looked at the administration's budget request for nuclear, 
and I am pleased by what is there. It is much improved. The 
chairman just mentioned it. The previous administration had 
pretty much zeroed things out. If we are going to advance the 
cause of nuclear in the next generation, we have to get at it. 
You are getting at it, and we appreciate that.
    Obviously last year, the Chairman and I met with you, the 
Vice President, Secretary Abraham. And we talked about 
Generation IV reactor development, to get it beyond the design 
or the study on papers to the actual step forward. And clearly, 
that is what we are about now. And we thank you for that. And, 
Mr. Chairman, I lay a great deal of the effort to your credit 
for the work you have done there.
    But we must keep trying to fix the Argonne layoff 
situation. It is unacceptable to do it, if we are going to try 
to grow nuclear. You do not fire one year and hire the next 
year, when you have top quality scientists on board ready to 
go. And that is really an issue that I think has to get 
resolved as we move forward.
    Dr. Orbach, I do appreciate your presence. I have read your 
testimony. Although the Office of Science program does not have 
a large presence in Idaho, you are doing a lot of extremely 
valuable work. I want to highlight one area, and that is fusion 
energy. Yesterday I introduced the Fusion Development Act of 
2003. Senator Dianne Feinstein and I have worked cooperatively 
on that as cosponsors. President Bush has been focused on the 
movement of this Nation in a clean, sustainable hydrogen 
economy. That is certainly important.
    We have invested a fair amount in it so far, and we are a 
ways down the road toward that. Obviously, continued 
development and infrastructure become a major hurdle to 
overcome. The President has acknowledged that fusion energy, if 
we can make it practical and affordable, will be one of the 
ways to get us to that hydrogen future. The other way is, 
obviously, nuclear energy. And I will be working on that front 
as well, as we work to craft this bill.
    David, it is great to have you back before us. Between this 
committee and the Energy Committee, we have been seeing you 
quite often here on the Hill. And that is always appreciated. 
The work you have done in the past year and of course the work 
you did for Senator Murkowski is well recognized.
    We also had you recently on a visit to Idaho. And I 
appreciate your effort to take the time to better understand 
what we do out there and the kind of work that goes on. And 
while you were there, I suspect you heard us talk about some 
agriculture and some bioenergy initiatives.
    The issue that the Governor, while Senator, worked with me 
on was fish-friendly turbines. They say it cannot be done. And 
while some of our friends do not like to admit it, the 
adjustment and the management of the Snake and the Columbia 
River systems is beginning to establish record fish runs. We 
have clearly stopped the decline in five of these critical 
species. And there is now movement upward. And part of that is 
beginning to understand, manage the river, retrofit many of 
these hydro facilities with fish-friendly turbines. That work 
began at Bonneville. It is working upriver. And it is 
critically important to the West, to all of us, and to the 
fisheries of our country.
    So thank you very much for being here. We look forward to 
your testimony.
    Mr. Chairman, thank you.

                PREPARED STATEMENT OF SENATOR HARRY REID

    Senator Domenici. Thank you, Senator.
    Senator Reid's statement will also be made a part of the 
record.
    [The statement follows:]
                Prepared Statement of Senator Harry Reid
    Thank you, Mr. Chairman. I am glad to see that you are feeling a 
little better than you did last week. Senator Cochran filled in nicely 
for you at the hearing, but we all missed you.
    Today is the second in a series of five budget oversight hearings 
for the Energy and Water Development Subcommittee. Last Wednesday, the 
Subcommittee heard testimony from the Bureau of Reclamation and the 
U.S. Army Corps of Engineers.
    Today we will hear from three witnesses:
  --Dr. Raymond Orbach, the Director of DOE's Office of Science;
  --Mr. Bill Magwood, the Director of the Office of Nuclear Energy; and
  --Mr. Dave Garman, the Assistant Secretary for the Office of Energy 
        Efficiency and Renewable Energy.
    Good afternoon, gentlemen, thank you for coming. Senator Domenici 
and I both appreciate you taking the time to join us. My duties on the 
Floor may require me to depart early today, but my staff will remain 
here and will report back on what transpires. I do have a series of 
questions for each of you and would ask, at this time, that they be 
made a part of the record. I hope each of you can respond quickly 
because the Chairman and I rely on your answers to help us make 
informed funding decisions.
    I plan to keep my comments very brief today, but do want to 
highlight several issues concerning the budget requests for each of the 
three DOE offices represented today.
    Dr. Orbach, I have reviewed the budget for the Office of Science 
and, by and large, I suspect that you and I share some of the same 
frustrations with it. The administration's budget request provides your 
office with a mere 1.4 percent increase. While I am somewhat comforted 
by the notion that the ramp-down in construction funding for the 
Spallation Neutron Source actually allows a research budget increase of 
closer to 4.5 percent, my overall impression is that the request is 
weak and shortsighted.
    I hope that we are able to improve on that a little bit before 
Congress completes work this year. As I have said many times before, 
funding for research in the hard sciences is one of the very best and 
most appropriate investments of taxpayer dollars that Congress can 
make. Very few things that we do here can make our country safer or 
more secure than maintaining a scientific and technological edge.
    For many years now Chairman Domenici and I have watched as the last 
two administrations have sent ever-escalating budget requests up here 
for the National Institutes of Health that have far outstripped the 
increases requested for the Office of Science. The imbalance between 
funding for the physical science and the biological sciences was 
getting to be staggering, particularly because both disciplines rely on 
each other so much.
    This year, the disparity has lessened, but not in the way I had 
hoped. Rather than the usual 14-15 percent increase for NIH, the 
administration has chosen to request an additional 7-8 percent. Again, 
over the long-term, this is very short-sighted.
    I am, however, pleased that the administration has decided to take 
the long view on another important international effort, though. 
Earlier this year, the administration announced that the United States 
would re-join the international burning plasma fusion program, the so-
called ITER project. This was a wise decision that I hope will be 
followed-up with robust budget requests.
    I am also very pleased with the work you are doing on the Genomes 
to Life Program and with the impressive pace of the nanotechnology 
program.
    You have been on the job now for nearly a year to the day and I 
hope you are enjoying your time in one of the greatest jobs our Federal 
Government has to offer.
    Mr. Garman, my guess is that we are going to hear a lot from you on 
the subject of hydrogen today. The administration's initiative has 
certainly gotten a lot of attention, both positive and negative.
    My inclination is to try to be as supportive as possible. I am 
pleased that the administration has decided to tackle a big, long-term 
renewable energy effort to complement the shorter-term focus on the 
deployment of promising technologies that dominates much of the rest of 
your budget.
    My staff has been talking to me about the potential of the 
``hydrogen economy'' for years, so I want to help as best I can. 
Obviously, the devil will be in the details in how this program comes 
together, but those are details that we can work out as we move 
forward.
    One immediate concern that I do have is that it appears that you 
cut many of your other programs in order to accommodate the increases 
for hydrogen. Particularly hard-hit is your geothermal program, which 
is down $16 million.
    I realize that you were probably told to go find the additional 
dollars for hydrogen at the very last minute, long after you thought 
your budget had been put to bed, but ultimately, your overall portfolio 
must be balanced.
    Good luck as you move forward.
    Mr. Magwood, as you know I have been very supportive of your 
programs during my years as Chairman and Ranking Member of this 
Subcommittee. I am supportive even though it sometimes puts me in an 
awkward spot due to that very visible word ``nuclear'' in your office's 
title.
    I support strong budgets for you because, as I mentioned earlier, 
long-term, stable, investments in scientific research and development 
is what makes our Nation strong.
    My biggest problem with nuclear power comes at the end of the fuel 
cycle. However, I firmly believe that investments in the future of 
nuclear power can produce reactors that are safer and will not produce 
the deadly waste streams that plague the current generation of 
reactors.
    To the extent that there will be an on-going waste stream, it will 
be investments in the science that solves all or most of the disposal 
problem.
    This is why I am pleased that your Advanced Fuel Cycle Initiative 
seems to be coming along nicely. Senator Domenici and I both have been 
interested in transmutation of waste for years, so we are both pleased 
that the Department is preparing to invest some resources in this area.
    I need to be careful not to steal too much of Chairman Domenici's 
thunder in talking about what I know to be one of his favorite 
programs, so I will stop here.
    Again, thanks to our witnesses for appearing today.

    Senator Domenici. Let us proceed then with the witnesses. 
Let us start with Dr. Orbach.

                     STATEMENT OF RAYMOND L. ORBACH

    Dr. Orbach. Thank you, Mr. Chairman.
    Senator Domenici. You are welcome.
    Dr. Orbach. I would like to thank you and the members of 
the committee for your support for the Department of Energy and 
specifically the Office of Science. This is the beginning of my 
second year now as director. And I have enjoyed my relationship 
with you very much.
    I hope I can submit my testimony for the record and just 
make a few comments and introductions.
    The investment of basic research of the Office of Science 
supports the work of more than 8,000 researchers and students 
at more than 250 universities and Department of Energy 
laboratories. This year we reached 18,000 users of our 
facilities. Our budget, as we have submitted it to you, is 
roughly half for the operation of those facilities, and then 
the other half for the research that is carried out across the 
country, and indeed the world. That half is about equally 
divided between universities and laboratory personnel.
    We support as much research in the universities as we do in 
the laboratories. All of that, both the components for 
university and laboratories, are competed together with the 
peer review process, so that everybody has an equal chance at 
funding. Just because someone is in a research laboratory does 
not mean that they have an advantage over anyone else.
    The Office of Science is privileged to be responsible for 
these large facilities. We think we complement the national 
effort because of our commitment to long-term funding, high 
risk with high payoff, and multidisciplinary teams.
    Just to comment on our highlights of the budget, the areas 
that are priorities for the Office of Science; Senator Craig, 
as you have noticed, we have joined ITER now as a partner. We 
are pleased to take our place as a partner in this very 
important development. The consequences of fusion energy are 
recognized in the National Energy Policy on an abundant and 
clean source of energy.
    High-performance computation remains a high priority. This 
budget contains $14 million to begin looking at different 
architectures so that we can find the structures that will 
enable us to solve major problems, scientific discovery through 
simulation and computation. We are working now with three, and 
we hope four, vendors to try their structures out on real 
science problems that we want to solve.
    The Spallation Neutron Source, which will be the leading 
source for neutron science in the world for at least a decade 
or more, now that Europe has decided not to go in this 
direction, is well under way and on track and on budget. We 
look forward to that operation giving the United States primacy 
again in neutron science.
    Four of our five nanotechnology centers currently are 
contained within the fiscal year 2004 budget. Nanotechnology is 
an opportunity that the Office of Science is pursuing 
aggressively. We are pleased that our scientists will have 
access to these world-class facilities that are nowhere else 
found but in the United States.
    The life sciences, the Genomes to Life program is 
proceeding well. I want to thank you, Mr. Chairman, for your 
support for this program. We are now expanding it to produce 
the energy requirements that this country faces and also to 
help with carbon sequestration.
    Finally, in this budget there is a new initiative for 
teacher education, for workforce development. We have a line 
item that will enable us to bring, on a pilot basis, teachers 
to our laboratories where we will work with them during the 
summer and then follow up in their classroom, providing support 
for them.
    A program like this used to exist in the mid-1990's, and we 
are anxious to begin it again. We have quantitative evidence 
that the students whose teachers have gone through this program 
fare much better on examinations in both science and 
mathematics than a comparable category, a control group, of 
students whose teachers had not experienced these 
opportunities.
    We have had some major accomplishments this year. We are 
very proud of Mr. Raymond Davis, Jr., for receiving the Nobel 
Prize in physics for his work on neutrinos. I think it marks 
the beginning of development in cosmology where we will be 
working at the very small in order to predict the behavior of 
the very large. Mr. Davis' citation from the Nobel Committee 
points that out as the beginning of the relationship between 
the experiments we do here on Earth and what we observe at the 
very large.
    Finally, we have, through our materials program and our 
nanotechnology program, been able to accomplish something I 
think that all of us should take pride in, and that is 
restoring sight. We have been able to implant a small chip in 
the retina of a person who lost their sight over 30 years ago. 
By use of our materials sciences--this is not a simple task to 
keep electrical contacts stable in the vitreous humor of the 
eye--that person was able to see.
    So far, we are operating only at a small number of pixels, 
only 16. But we have underway a 1,000-pixel implant, which will 
enable a person who was blind to read a large-print newspaper. 
Over 200,000 Americans each year suffer from retinal disease. 
This program, we hope, will combine the material science 
characteristics of the Office of Science with the medical 
profession, showing again how the physical sciences can aid the 
medical profession in accomplishing their goals.

                           PREPARED STATEMENT

    This is a great opportunity for us to present our programs 
to you. I want to thank you again for your support. This 
concludes my testimony. I will be pleased to answer questions.
    Thank you.
    Senator Domenici. Thank you very much. Your statement will 
be made a part of the record.
    [The statement follows:]
                Prepared Statement of Raymond L. Orbach
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today about the Department of Energy's (DOE) 
Office of Science fiscal year 2004 budget request. I am deeply 
appreciative of your support for basic research, Mr. Chairman, and the 
support we have received from the other Members of this Subcommittee. I 
am confident that our fiscal year 2004 request represents a sound 
investment in our Nation's future. Through this budget we will 
strengthen core research programs, increase operating time at major 
scientific user facilities, and expand our capabilities for the future.
    This budget requests $3,310,935,000 for the fiscal year 2004 
Science appropriation, an increase of $47,059,000 over fiscal year 2003 
(see Figure 1), for investments in: Advanced Scientific Computing 
Research (ASCR), Basic Energy Sciences (BES), Biological and 
Environmental Research (BER), Fusion Energy Sciences (FES), High Energy 
Physics (HEP), Nuclear Physics (NP), Science Laboratories 
Infrastructure, Safeguards and Security, Workforce Development and 
Science Program Direction.
    These investments in basic research directly support the work of 
more than 8,000 researchers and students at more than 250 universities 
and at DOE's national labs. In addition, another 18,000 researchers 
annually take advantage of the major scientific user facilities 
operated on behalf of the Nation. The Office of Science is the steward 
of 10 national laboratories, which conduct and collaborate on the 
multi-disciplinary research that is essential to providing sustained 
progress toward the most difficult scientific questions and to ensuring 
that our Nation is able to respond rapidly in times of need.
    These researchers will advance the frontiers of nanoscale science; 
pursue the key questions at the intersection of physics and astronomy 
identified by the National Academy of Sciences; develop the knowledge 
base for bringing genomes to life with the potential to harness 
microbes and microbial communities to improve energy production and 
environmental remediation; advance the goals of the Administration's 
Climate Change Research Initiative and the National Energy Policy; 
begin negotiations to participate in the international fusion project--
ITER; develop a new generation of computing architecture to identify 
and address performance bottlenecks in existing and planned systems; 
and bring the full potential of scientific computation to bear on the 
Department's scientific problems.
    The Office of Science is the single largest supporter of basic 
research in the physical sciences, providing approximately 40 percent 
of all Federal funds in this area over the past decade. It is also the 
steward, and by far the principal funding agency, of the Nation's 
research programs in high energy physics, nuclear physics and fusion 
energy sciences, as well as being the Federal government's largest 
source of support for materials and chemical sciences. The Office of 
Science also supports unique or critical pieces of U.S. research in 
scientific computation, climate change, geophysics, genomics, and the 
life sciences.
    Research projects supported by the Office of Science are selected 
on the basis of peer review and evaluation for quality, relevance and 
performance as emphasized in the President's Management Agenda and R&D 
Investment Criteria. These diverse and multidisciplinary programs rely 
upon the advice of the scientific community in developing daring and 
innovative research directions and facility capabilities. As a result, 
the program oversees one of the strongest research portfolios in the 
world--a strategic investment in the future technological strength and 
agility of the Nation.
    The Council on Competitiveness noted in its report Competitiveness 
2001, Strengths, Vulnerabilities and Long Term Priorities, that, 
``Given the rising bar for competitiveness, the United States needs to 
be in the lead or among the leaders in every major field of research to 
sustain its innovation capabilities.'' Beginning with the impact on 
technology development of scientific discoveries in chemistry and 
electromagnetism at the end of the 19th century, scientific discovery 
has become the source of new technologies that are critically important 
to economic progress, energy and national security. We are in a period 
of rapid technological change. Advances in computing, communications 
and scientific instruments--many of them developed by SC--have 
transformed our society including the conduct of science. As a result, 
there are new scientific opportunities today that promise revolutionary 
technologies to come.

                        FIGURE 1.--OFFICE OF SCIENCE FISCAL YEAR 2004 PRESIDENT'S REQUEST
                                               (B/A in Thousands)
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal Year     Fiscal Year
                                                                    Fiscal Year        2003            2004
                                                                   2002 Approp.     President's     President's
                                                                                      Request         Request
----------------------------------------------------------------------------------------------------------------
Advanced Scientific Computing Research..........................         150,205         166,557         173,490
Basic Energy Sciences...........................................         979,560       1,019,163       1,008,575
Biological and Environmental Research...........................     \1\ 554,125         484,215         499,535
High Energy Physics.............................................         697,383         724,990         737,978
Nuclear Physics.................................................         350,589         382,370         389,430
Fusion Energy Sciences..........................................         241,100         257,310         257,310
Science Laboratories Infrastructure.............................          37,125          42,735          43,590
Science Program Direction.......................................         149,467         137,332         150,813
Workforce Development...........................................           4,460           5,460           6,470
Safeguards and Security.........................................          45,770          43,744          43,744
SBIR/STTR.......................................................      \2\ 99,668  ..............  ..............
                                                                 -----------------------------------------------
      Total Office of Science...................................       3,309,452       3,263,876       3,310,935
----------------------------------------------------------------------------------------------------------------
\1\ Includes $68,822,000 of one time projects.
\2\ Includes $36,391,000 from other programs.

                  FISCAL YEAR 2004 SCIENCE PRIORITIES

    The fiscal year 2004 request supports major research programs that 
respond to DOE priorities and will contribute to the strength and 
vitality of the national research enterprise. Many of these research 
programs are conducted jointly with other Federal agencies and are 
illustrative of the wide array of scientific talent and resources that 
DOE brings to bear on critical national challenges:
  --Enter negotiations with representatives of the European Union, 
        Japan, Russia and other international partners on construction 
        and operation of a burning plasma experiment--the International 
        Thermonuclear Experimental Reactor (ITER).
  --Continue to build on its leadership in high performance computing 
        and networking to bring the full potential of scientific 
        computation to bear on the Department's scientific and 
        technical challenges. It will initiate a Next Generation 
        Computer Architecture program to identify and address 
        performance bottlenecks in existing and planned systems.
  --Continue construction of the Spallation Neutron Source, proceed 
        with construction of three Nanoscale Science Research Centers 
        (NSRCs) and initiate work on two others. These NSRCs--located 
        at national laboratories in New York, Tennessee, Illinois, New 
        Mexico and California--will provide scientists with an 
        unmatched set of tools to design and build complex nanoscale 
        materials.
  --Exploit its unique capabilities at the intersection of the physical 
        sciences, the life sciences and scientific computation to 
        continue and expand its effort to understand how the 
        instructions embedded in genomes control the development of 
        organisms, with the goal of harnessing the capabilities of 
        microbes and microbial communities to help us to produce 
        energy, clean up waste, and sequester carbon from the 
        atmosphere.
  --Initiate a Laboratory Science Teacher Professional Development 
        program for K-14 teachers in science and mathematics. Teachers 
        will be competitively selected for a 4-8 week mentoring program 
        by both scientists and master teachers at a national 
        laboratory, followed by both additional 1 week mentoring visits 
        and long term continuing support.
  --Exploit the capabilities of the world's finest set of research 
        facilities in particle physics to attempt to find the answers 
        to questions about matter and energy at the most fundamental 
        level. What gives elementary particles their great variety of 
        masses? Are there extra dimensions of space beyond the three we 
        know? Why is there so little antimatter in the universe when we 
        expect equal amounts of each were created in the Big Bang? What 
        is the Dark Energy that causes the recently observed 
        acceleration in the expansion of the universe and comprises 
        fully two thirds of the mass and energy budget of the universe? 
        What were the properties of the early universe before quarks 
        and gluons condensed into protons and neutrons?

                        SCIENCE ACCOMPLISHMENTS

    The Office of Science can trace its roots to the original 
legislation creating the Atomic Energy Commission in 1947, which had a 
charter to use fundamental research in nuclear physics and other 
physical sciences towards ``. . . improving the public welfare, 
increasing the standard of living, strengthening free competition in 
private enterprise, and promoting world peace.'' More than five decades 
later, the Office of Science can point to an extraordinary and diverse 
array of scientific discoveries that have led to dozens of Nobel 
Prizes, a draft map of the Human Genome, the creation of ``Bucky 
Balls,'' discovery of the quark structure of matter and the 
``Accelerating Universe,'' major breakthroughs in medical diagnoses and 
nuclear medicine, and providing tools that allow researchers to ``see'' 
at the atomic and subatomic scales, to simulate complex interactions 
and to collaborate across great distances.
    That history of discovery (which is documented on the Office of 
Science website, www.er.doe.gov/feature_articles_2001/June/Decades/
index.html) continues to this day, with major accomplishments in the 
past year that are the result of our long-term, high-risk, 
multidisciplinary research and strong management practices.
    Two achievements in 2002 stand out as representative of the scope 
and magnitude of the research sponsored by SC. First is a technological 
miracle--restoring sight to the blind--being developed through an 
extraordinary marriage of biology and the physical sciences. The 
combination of diverse scientific disciplines such as these is a 
hallmark of Office of Science research and a particular strength of the 
DOE national laboratories. But realizing this remarkable technology 
also relies on the unique capabilities of industry (Second Sight, 
located in Santa Clarita, Calif.) and academia (the Doheney Eye 
Institute at the University of Southern California and North Carolina 
State University) in partnership with the national laboratories. In 
this project, specially designed MEMs (microelectro-mechanical systems) 
electrodes are positioned on the retinas of patients who have been 
blinded by disease, enabling them to convert light to electrical pulses 
that are received by the brain. Today's prototype enables a formerly 
blind patient to distinguish light from dark. Tomorrow's technology has 
the potential to restore almost full sight to the 200,000 people in the 
United States who are blinded every year by macular degeneration. This 
miracle of science is possible due to the long-term commitment of 
dedicated teams of scientists supported by DOE.
    The second was the award of the 2002 Nobel Prize for Physics shared 
by Raymond Davis, Jr., whose sublime experiments led to the capture of 
solar neutrinos, proving that fusion provides the Sun's energy and 
leading to the creation of an entirely new field of research: neutrino 
astronomy. Davis did his groundbreaking work while a researcher at 
DOE's Brookhaven National Laboratory, which is home to multiple Nobel 
Prize recipients. This is the most recent of the Nobel Prizes that have 
been awarded to DOE-supported scientists.
    In its announcement, the Royal Swedish Academy of Sciences said of 
Davis's accomplishment: ``This year's Nobel Laureates in Physics have 
used these very smallest components of the universe (neutrinos) to 
increase our understanding of the very largest: the Sun, stars, 
galaxies, and supernovae. The new knowledge has changed the way we look 
upon the universe.''

                            SCIENCE PROGRAMS
                 ADVANCED SCIENTIFIC COMPUTING RESEARCH

Fiscal Year 2002 Appropriation--$150.2M; Fiscal Year 2003 Request--
        $166.6M; Fiscal Year 2004 Request--$173.5M
    The Advanced Scientific Computing Research (ASCR) program underpins 
DOE's ability to accomplish its mission through scientific computation. 
The ASCR program supports research in applied mathematics, computer 
science and high-performance networks and provides high-performance 
computational and networking resources to enable the advancement of the 
leading edge science that the DOE mission requires. ASCR delivers the 
power of advanced scientific computation and networking to the wide 
array of scientific disciplines supported by SC.
    In fiscal year 2004, ASCR will embark on research to identify, 
address and correct bottlenecks that presently constrain DOE's 
capabilities in modeling and simulation. A research portfolio in Next 
Generation Computer Architecture will be initiated to assess novel 
computer architectures and their prospects for achieving optimal 
performance for cutting-edge scientific simulations.
    In fiscal year 2004, the ASCR program will continue to develop the 
underlying mathematical algorithms, software building blocks and 
infrastructure for the ``Scientific Discovery through Advanced 
Computing,'' (SciDAC) program. SciDAC is an Office of Science research 
endeavor to produce the scientific computing, networking and software 
that DOE researchers will need for sustained progress at the scientific 
forefront in areas of strategic importance to the Department. The scope 
of the SciDAC program will be extended to include new activities to 
address the urgent need for a quantitative understanding of matter at 
the nanoscale.
    The ASCR program will also maintain the vitality of its basic 
research efforts in applied mathematics, computer and computational 
science, and network research to bolster the foundation for continued 
success in advancing scientific frontiers through computation.
    In fiscal year 2004, the Genomes to Life research activities in 
partnership with Biological and Environmental Research will be expanded 
to include new research in the applied mathematical sciences that will 
enable new computational techniques for the study of regulatory 
networks and metabolic pathways for microbial systems.
    Finally, in fiscal year 2004, ASCR will provide high performance 
computing and networking resources at the levels needed to meet Office 
of Science needs. The National Energy Research Scientific Computing 
Center, as a result of an enhancement in fiscal year 2003, will be 
operated at 10Tflops to meet the computational needs of nearly 2,400 
users. ESnet will be operated to provide state-of-the-art network 
services and capabilities to DOE-supported researchers nationwide to 
collect, analyze, visualize and distribute large-scale scientific data 
sets.

                         BASIC ENERGY SCIENCES

Fiscal Year 2002 Appropriation--$979.6M; Fiscal Year 2003 Request--
        $1,019.2M; Fiscal Year 2004 Request--$1,008.6M
    The Basic Energy Sciences (BES) program is a principal sponsor of 
fundamental research for the Nation in the areas of materials sciences 
and engineering, chemistry, geosciences, and bioscience as it relates 
to energy. This research underpins DOE missions in energy, environment, 
and national security; advances energy related basic science on a broad 
front; and provides unique user facilities for the United States 
scientific community.
    In fiscal year 2004, construction will proceed on three Nanoscale 
Science Research Centers (NSRCs), project engineering design will be 
initiated on the fourth NSRC, and a Major Item of Equipment will be 
initiated for the fifth and final NSRC. NSRCs are user facilities for 
the synthesis, processing, fabrication, and analysis of materials at 
the nanoscale. The five NSRCs will be located strategically at national 
laboratories across the country in New York, Tennessee, Illinois, New 
Mexico, and California. These facilities, in conjunction with existing 
user facilities at these national laboratories, will provide a 
strikingly unique suite of forefront capabilities where the Nation's 
leading scientists can design and build complex nanoscale materials all 
in one place.
    The five NSRCs will be the Nation's critical focal points for the 
development of the nanotechnologies that will revolutionize science and 
technology. They will provide state-of-the-art nanofabrication 
equipment and quality in-house user support for hundreds of visiting 
researchers. The Centers will provide an environment for research of a 
scope, complexity, and disciplinary breadth not possible under 
traditional individual investigator or small group efforts. As such, 
the DOE Centers will be the training grounds of choice for the top 
graduate students and elite postdoctoral associates who will lead the 
future of scientific research.
    A high priority in fiscal year 2004 is continued construction of 
the Spallation Neutron Source (SNS) to provide the next-generation, 
short-pulse spallation neutron source for neutron scattering. The 
project, which is to be completed in June 2006, is on schedule and 
within budget with over half of the work completed as of the end of 
fiscal year 2002. At the end of fiscal year 2004, construction of the 
SNS will be 80 percent complete.

                 BIOLOGICAL AND ENVIRONMENTAL RESEARCH

Fiscal Year 2002 Appropriation--$554.1M; Fiscal Year 2003 Request--
        $484.2M; Fiscal Year 2004 Request--$499.5M
    Today, we have unprecedented opportunities to use advances in 
biology, computation, engineering, physics, and chemistry, to develop 
new solutions for challenges in energy, the environment, and health. 
The Biological and Environmental Research (BER) program is bringing 
these diverse fields together at DOE laboratories, universities, and 
private research institutes to find innovative approaches to address 
DOE challenges.
    In fiscal year 2004, the Genomes to Life program continues to 
develop novel research and computational tools that, when combined with 
our genomics, structural biology, and imaging research provide a basis 
to understand and predict responses of complex biological systems. 
Other BER efforts in the Life Sciences include Human Genome research 
and DNA sequencing and Low Dose Radiation research.
    BER contributions to the President's Climate Change Research 
Initiative include research in climate modeling, atmospheric 
composition, and regional impacts of climate change. Carbon cycle 
research will work toward understanding what fraction of carbon dioxide 
emissions are taken up by terrestrial ecosystems. New in fiscal year 
2004 are ecological research efforts to begin to bridge the knowledge 
gap between molecular level effects and the responses of entire 
ecosystems to natural and human-induced environmental changes.
    A key challenge in Environmental Remediations Science is to 
understand the subsurface environment and to then develop innovative 
options for clean up and protection. In fiscal year 2004, BER research 
will continue to develop new cleanup strategies, including 
bioremediation of metals and radionuclides and the treatment and 
disposal of high-level radioactive wastes stored in large underground 
tanks. The Environmental Molecular Sciences Laboratory is maintained at 
the leading edge of computational capabilities for enhanced modeling of 
environmental and molecular processes.
    Because of DOE's diverse capabilities across a range of scientific 
disciplines, BER Medical Applications research will continue to provide 
the medical community with novel devices and technologies to detect, 
diagnose, and treat disease. One example is research that will develop 
the capability to detect genes as they are turned on and off in any 
organ in the body with enormous impacts in developmental biology and 
the diagnosis of disease.

                         FUSION ENERGY SCIENCES

Fiscal Year 2002 Appropriation--$241.1M; Fiscal Year 2003 Request--
        $257.3M; Fiscal Year 2004 Request--$257.3M
    The Fusion Energy Sciences (FES) program leads the national 
research effort to advance plasma science, fusion science, and fusion 
technology--the knowledge base needed for an economically and 
environmentally attractive fusion energy source. The National Energy 
Policy states that fusion power has the long-range potential to serve 
as an abundant and clean source of energy and recommends that the 
Department develop fusion. It is the consensus of fusion researchers 
worldwide that the next frontier in the quest for fusion power is the 
creation and study of a sustained, burning (or self-heated) plasma. The 
Fusion Energy Sciences Advisory Committee (FESAC) has concluded that 
the fusion program is ready to proceed and has recommended joining the 
ongoing negotiations to construct the international burning plasma 
experiment, ITER, a strategy endorsed by the National Research Council 
(NRC) of the National Academy of Sciences. Following these 
recommendations, and an Office of Science reviewed cost estimate for 
the construction of ITER, the Administration decided to join the ITER 
negotiations.
    To be successful, the ITER negotiations must resolve not only 
citing of the project and an agreed-upon financial and procurement 
arrangement, but also satisfactory management and oversight 
arrangements. In these negotiations, the United States will strive for 
a robust management structure and an oversight program based on the 
principles of equity, accountability and transparency to ensure both 
the success of the project and the best use of taxpayer dollars.
    In light of the Administration decision to join the ITER 
negotiations, many elements of the fusion program that are broadly 
applicable to burning plasmas will now be directed more specifically 
toward the needs of ITER, while some longer range technology 
development activities will be curtailed. The majority of existing and 
proposed program elements, however, already contribute to tokamak 
science, thereby providing a strong base for our future contributions 
to and ability to benefit from ITER.
    Four areas characterize the FES program activities for fiscal year 
2004 and beyond. These are Burning Plasmas, which will include our 
efforts in support of ITER; Fundamental Understanding, which includes 
theory, modeling, and general plasma science; Configuration 
Optimization, which includes experiments on advanced tokamaks, advanced 
magnetic configurations, and inertial fusion concepts, as well as 
facility operations and enabling R&D; and Materials and Technology, 
which includes fusion specific materials research and fusion nuclear 
technology research. Integrated progress in all of these thrust areas 
is required for ultimate success in achieving a practical fusion energy 
source.
    The fiscal year 2004 budget supports a balanced fusion science 
program. The fiscal year 2004 budget request supports research in 
alternate confinement concepts, to include the final design and initial 
fabrication of the National Compact Stellarator Experiment facility at 
Princeton Plasma Physics Laboratory, facility upgrades and an increase 
in facility operations, research in inertial fusion energy and basic 
plasma science, as well as a focus on the use of high-end computational 
simulation.

                          HIGH ENERGY PHYSICS

Fiscal Year 2002 Appropriation--$697.4M; Fiscal Year 2003 Request--
        $725.0M; Fiscal Year 2004 Request--$738.0M
    The High Energy Physics (HEP) program provides over 90 percent of 
the Federal support for the Nation's high energy physics research. This 
research seeks to understand the nature of matter and energy at the 
most fundamental level, as well as the basic forces that govern all 
processes in nature. High energy physics research requires accelerators 
and detectors utilizing state-of-the-art technologies in many areas 
including fast electronics, high speed computing, superconducting 
magnets, and high power radio-frequency devices. Until 2007, when 
Europe's Large Hadron Collider (LHC) is scheduled to begin operations, 
the United States is the primary world center for HEP research. In 
fiscal year 2004, the HEP program will concentrate on facility 
utilization, including direct support for researchers, as well as 
incremental facility upgrades.
    In fiscal year 2004, the Fermilab Tevatron Collider Run II will be 
in full swing. The Run II program will enable many advances and 
discoveries at the energy frontier, including: possible discovery of 
the long-sought Higgs particle, thought to be the key to understanding 
why particles have mass; providing even greater information about the 
heaviest known particle, the top quark, discovered at Fermilab in 1995; 
possible discovery of an entirely new class of particles that have been 
predicted, by many theories, to be present in Run II data; or unfolding 
of the as yet undiscovered space-time dimensions that have been 
postulated to complete the unification of fundamental interactions. A 
series of planned upgrades to the Tevatron accelerator complex, the 
major detectors, and computing facilities will continue in fiscal year 
2004 in order to enable a vigorous physics program that will maintain 
Fermilab's scientific leadership through the end of the decade. The 
NuMI/MINOS project, scheduled for completion in September 2005, will 
provide a world-class facility to study neutrino properties and make 
definitive measurements of neutrino mass differences.
    Building on the outstanding performance of the B-factory at the 
Stanford Linear Accelerator Center (SLAC), the HEP program will 
increase support for operation of the B-factory in fiscal year 2004 to 
break new ground in exploring the source and nature of matter-
antimatter asymmetry in the B-meson system. The upcoming round of 
experimental results may provide evidence for new physics beyond the 
Standard Model of particle physics. Incremental upgrades are also 
planned in fiscal year 2004 for the accelerator to improve physics 
output and for the computing capabilities to cope with high data 
volumes.
    Continued U.S. participation in the LHC project at CERN is a high 
priority in fiscal year 2004. The U.S. contributions to the LHC 
accelerator and the ATLAS and CMS detectors are on schedule and within 
budget for the scheduled start-up date of 2007. Focus of this effort 
will begin to shift in fiscal year 2004 from construction to pre-
operations for the U.S.-built detector components and to developing the 
software and computing infrastructure necessary to exploit LHC physics.
    Non-accelerator experimentation is a growing part of HEP research 
and offers many exciting opportunities for the future. Progress 
continues on particle astrophysics experiments and R&D in partnership 
with NASA. Collaborations on the Alpha Magnetic Spectrometer (AMS) and 
the Large Area Telescope (LAT), part of the Gamma-Ray Large Area Space 
Telescope (GLAST) mission, will be engaged in full detector fabrication 
and assembly in fiscal year 2004. The SuperNova Acceleration Probe 
(SNAP) will begin fabrication of detector prototypes in support of a 
2006 Conceptual Design. These experiments are working toward solving 
key mysteries in astrophysics and cosmology, including dark energy, 
high energy gamma ray sources, and antimatter in space, all of which 
play a role in the story of the origin and fate of the Universe. Other 
non-accelerator experiments are located at ground level, such as the 
Pierre Auger project and the Supernova Cosmology Project, or deep under 
ground, such as neutrino detectors.
    In addition, the program continues to support advanced technology 
R&D in fiscal year 2004 geared toward future accelerators, including a 
high-energy, high-luminosity Linear Collider. In January 2002, the 
HEPAP Subpanel on Long Range Planning stated that such a collider 
should be the highest priority of the U.S. HEP program.

                            NUCLEAR PHYSICS

Fiscal Year 2002 Appropriation--$350.6M; Fiscal Year 2003 Request--
        $382.4M; Fiscal Year 2004 Request--$389.4M
    The Nuclear Physics (NP) program supports fundamental nuclear 
physics research, providing about 90 percent of Federal support for 
this field. NP research advances our knowledge of the properties and 
interactions of atomic nuclei and nuclear matter in terms of the 
fundamental forces and particles of nature. It also supports the 
scientific knowledge-base, technologies and trained manpower that are 
needed to underpin DOE's missions for nuclear-related national 
security, energy, and the environment.
    The NP program seeks answers to questions in three broad areas. (1) 
The basic constituents of nuclei, the neutrons and protons (nucleons) 
are themselves each composed of three quarks and the gluons that 
``carry'' the strong force between them. Yet, these quarks are 
``confined'' and cannot be found individually in nature. Understanding 
this confinement and the transition from a nucleon to quark description 
of nuclear structure is a central question of the field. (2) The early 
universe, up to a millionth of a second after the ``Big Bang,'' is 
believed to have been a soup of quarks and gluons, a quark-gluon 
plasma. Creation of microcosms of this primordial matter in the 
laboratory is now being attempted in order to answer how the universe 
evolved at the very beginning of time. (3) The chemical elements are 
believed to have been created in stars and supernovae explosions, yet 
the nuclear reactions involved in this process involve nuclei far from 
the naturally occurring ones on earth. To answer how the elements were 
made (nucleosynthesis) requires producing exotic radioactive nuclear 
beams. Understanding the dynamics of supernovae also requires 
understanding the properties of the elusive neutrino which can only be 
detected in massive detectors.
    In fiscal year 2004, the NP program will focus on enhancing the 
operations of the program's user facilities, especially the 
Relativistic Heavy Ion Collider (RHIC), so as to bring all operating 
facilities to about 83 percent of optimal utilization. This will 
increase beam hours for research by about 5 percent over the fiscal 
year 2003 Request. Nuclear Theory, new Low Energy instruments, and 
increased support to non-accelerator research such as neutrino 
experiments are also strongly supported.
    In addition to increased operations at RHIC, fiscal year 2004 
funding will support an aggressive experimental program with the newly 
completed G0 detector at Thomas Jefferson National Accelerator Facility 
(TJNAF) to begin to map out the strange quark contribution to the 
structure of the nucleon. The MIT/Bates research program with the BLAST 
detector is being initiated in fiscal year 2003 with completion planned 
in fiscal year 2004. The two Low Energy user facilities (ATLAS and 
HRIBF) will also increase running schedules in fiscal year 2004 for 
nuclear structure and astrophysics studies.
    In fiscal year 2003-2005, the Sudbury Neutrino Observatory (SNO) 
will make sensitive measurements of the flux and spectra of solar 
neutrinos. Neutrino oscillations are evidence that neutrinos have mass, 
an observation that forces a re-evaluation of the existing Standard 
Model of particle physics.

                  SCIENCE LABORATORIES INFRASTRUCTURE

Fiscal Year 2002 Appropriation--$37.1M; Fiscal Year 2003 Request--
        $42.7M; Fiscal Year 2004 Request--$43.6M
    The Science Laboratories Infrastructure (SLI) program plays a vital 
role in enabling the continued performance of world-class research at 
the Office of Science laboratories by funding line item construction 
projects to maintain the general purpose infrastructure (GPI) and the 
clean-up and removal of excess facilities. In fiscal year 2004, SLI 
will support six ongoing projects and one new start--seismic safety and 
operational reliability improvements at SLAC. Excess Facilities 
Disposition (EFD) will continue disposition of both contaminated and 
non-contaminated excess facilities, resulting in reduction of costs and 
risks while freeing-up valuable land. The fiscal year 2004 Budget 
Request also includes funding for the Oak Ridge Landlord subprogram.

                        SAFEGUARDS AND SECURITY

Fiscal Year 2002 Appropriation--$45.7M; Fiscal Year 2003 Request--
        $43.7M; Fiscal Year 2004 Request--$43.7M
    Safeguards and Security reflects the Office of Science's commitment 
to maintain adequate protection of cutting edge scientific resources. 
In fiscal year 2004, Safeguards and Security will enable the Office of 
Science laboratories to meet the requirements of maintaining approved 
Security Condition 3 level mandates for the protection of assets. 
Integration of security into the laboratories' systems and continued 
risk management are also supported. In addition, critical cyber 
security tools and software will be purchased to respond to the ever 
changing cyber threat.

                         WORKFORCE DEVELOPMENT

Fiscal Year 2002 Appropriation--$4.5M; Fiscal Year 2003 Request--$5.5M; 
        Fiscal Year 2004 Request--$6.5M
    Workforce Development for Teachers and Scientists supports three 
subprograms: Pre-College Activities such as the National Science Bowl; 
the Undergraduate Research Internships for undergraduate students 
wishing to enter science, technology and science teaching careers; and 
Graduate/Faculty Fellowships for K-16 teachers of science, technology, 
engineering, and mathematics (STEM). Each of the subprograms targets a 
different group of students and teachers in order to attract a broad 
range of participants to the programs and expand the Nation's supply of 
well-trained scientists and engineers. Focus of this program is on the 
Physical Sciences and other areas of research which underpin the DOE 
missions and have, over the last decade, seen a marked decline in the 
numbers of undergraduate degrees awarded. Initiated in fiscal year 2004 
is the Laboratory Science Teacher Professional Development program that 
will provide long-term scientific community support from our National 
Laboratories for K-14 STEM teachers.

                       SCIENCE PROGRAM DIRECTION

Fiscal Year 2002 Appropriation--$149.5M; Fiscal Year 2003 Request--
        $137.3M; Fiscal Year 2004 Request--$150.8M
    Science Program Direction enables a skilled, highly motivated 
Federal workforce to manage SC's research portfolio, programs, 
projects, and facilities in support of new and improved energy, 
environmental, and health technologies, and to provide continuous 
learning opportunities. Science Program Direction consists of four 
subprograms: Program Direction, Field Operations, Technical Information 
Management (TIM) and Energy Research Analyses (ERA).
    The Program Direction subprogram supports Federal staff in 
Headquarters responsible for directing, administering, and supporting 
the broad spectrum of scientific disciplines. The Field Operations 
subprogram is the funding source for the Federal workforce in the Field 
complex responsible for providing business, administrative, and 
specialized technical support to DOE programs. The TIM subprogram 
collects, preserves, and disseminates the scientific and technical 
information of the DOE. The ERA subprogram provides the capabilities 
needed to evaluate and communicate the scientific excellence, 
relevance, and performance of Office of Science basic research 
programs.
    As part of a restructuring effort, the Office of Science will focus 
on its Federal human capital in fiscal year 2004 to effectively respond 
to the science needs of the future and to the challenge of an 
anticipated 50 percent turnover of retirement-eligible senior 
scientists over the next 5 years. Also in fiscal year 2004, the Office 
of Science continues to support a corporate DOE information management 
system, the Electronic R&D Portfolio Management Tracking and Reporting 
Environment (ePME), which enables end-to-end tracking of research 
projects, information sharing across programs, and snapshots of the 
Department's R&D portfolio. ePME will integrate with the e-Grants 
functions of e-Government, the Department's e-Financial Management 
System, and the e-Procurement Modernization System.

                               CONCLUSION

    The Office of Science occupies a unique and critical role within 
the U.S. scientific enterprise. We fund research projects in key areas 
of science that our Nation depends upon. We construct and operate major 
scientific user facilities that scientists from virtually every 
discipline are using on a daily basis, and we manage civilian national 
laboratories that are home to some of the best scientific minds in the 
world.
    Our researchers are working on many of the most daunting scientific 
challenges of the 21st Century, including pushing the frontiers of the 
physical sciences through nanotechnology, exploring the key questions 
at the intersection of physics and astronomy, and opportunities at the 
intersection of the physical science, the life sciences and scientific 
computation to understand how the instructions embedded in genomes 
control the development of organisms, with the goal of harnessing the 
capabilities of microbes and microbial communities to help us to 
produce energy, clean up waste, and sequester carbon from the 
atmosphere. The Office of Science is also pushing the state-of-the-art 
in scientific computation, accelerator R&D, plasma confinement options 
and a wide array of other technologies that advance research 
capabilities and strengthen our ability to respond to the rapidly 
changing challenges ahead.
    I want to thank you, Mr. Chairman, for providing this opportunity 
to discuss the Office of Science's research programs and our 
contributions to the Nation's scientific enterprise. On behalf of DOE, 
I am pleased to present this fiscal year 2004 budget request for the 
Office of Science.
    This concludes my testimony. I would be pleased to answer any 
questions you might have.

    Senator Domenici. With that, we will proceed now to you, 
David.
    Mr. Garman, nice to have you here. How do you like your 
work?

            Office of Energy Efficiency and Renewable Energy

STATEMENT OF DAVID K. GARMAN, DIRECTOR
    Mr. Garman. Oh, I like it a great deal, Mr. Chairman, and 
thank you. And thank you, Senator Craig, for your kind words. I 
appreciate this opportunity, and I appreciate the support of 
the subcommittee for our work.
    As you know, funding for activities in my office is split 
between the Energy and Water Development and the Interior 
Appropriations bills. Our overall budget request for fiscal 
year 2004 is $1.32 billion, a bit more than our request for 
fiscal year 2003. However, our fiscal year 2004 request for 
activities in the Energy and Water Development Appropriations 
is $37.2 million over the amount we requested for fiscal year 
2003.
    As the Chairman noted, our most notable expansion is in the 
area of hydrogen and fuel cell vehicles research and 
development, resulting from the President's Hydrogen Fuel 
Initiative announced during his State of the Union Address. I 
will say just a few words about hydrogen before highlighting 
other elements of our proposal.
    Our hydrogen technology subprogram is a key component of 
the President's Hydrogen Fuel Initiative. Our fiscal year 2004 
request is $48.1 million above our fiscal year 2003 request. 
This does not include additional funds that have been requested 
for hydrogen in the Offices of Fossil and Nuclear Energy. Our 
total hydrogen request is over $100 million. These funds would 
be used to establish a national research effort on hydrogen 
storage, to enhance technology development for hydrogen 
production from renewables and distributed natural gas, to 
accelerate work on codes and standards development, to 
accelerate work on hydrogen education, and to validate some 
hydrogen infrastructure technologies to support fuel cell 
vehicles and their test and evaluation.
    The increase in funding is designed to enable the industry 
to make a commercialization decision on hydrogen fuel cell 
vehicles and infrastructure by 2015. We believe this can help 
bring affordable hydrogen fuel cell vehicles to the showroom 
floor by 2020.
    For our solar energy technology program we are seeking 
$79.7 million, essentially the same as our fiscal year 2003 
request. We want to continue our work to bring down the cost 
and improve the reliability of solar photovoltaic systems.
    Our wind energy technology program has been successful in 
bringing down the cost of electricity generated from wind. Wind 
energy systems have been the fastest growing source of 
electricity worldwide for over a decade and are now providing 
cost-competitive power in high wind speed areas. As a result, 
our focus for wind R&D has shifted to larger blades and 
turbines using advanced materials that will allow economically 
viable development in the lower wind speed areas that are 
present more evenly across the Nation.
    In fiscal year 2004, we are requesting $41.6 million for 
wind energy, which is $2.4 million less than our fiscal year 
2003 budget request. This request is in alignment with our 
projected needs to achieve our goals.
    For our hydropower technology work, we are requesting about 
$7.5 million, the same level of funding we requested last year. 
As Senator Craig pointed out, our work in this area focuses on 
improving the environmental performance of hydropower plants by 
developing turbines that reduce fish injury and improve 
downstream water quality.
    Geothermal energy offers promise as a base load renewable 
energy resource, particularly in the Western United States. Our 
program focuses on exploration and reservoir technologies and 
drilling research to enable industry to locate and produce new 
geothermal fields at greatly reduced cost. In fiscal year 2004, 
we are requesting $25.5 million for these activities, $1 
million less than our fiscal year 2003 request.
    Biomass and biorefinery systems present some interesting 
challenges and opportunities for us. We know how to make power, 
as well as a variety of individual fuels, chemicals, and 
products from biomass. But we do not know necessarily how to do 
it affordably and competitively. We believe that the synergies 
of an integrated biorefinery that makes both power, products, 
and fuels cannot only help us reduce our dependence on imported 
oil, but expand economic opportunities in rural areas of the 
country.
    For the first time, we have brought together a diverse 
industry together and produced a vision, an R&D road map, that 
is helping us to restructure our biomass program and to focus 
on the most promising long-term opportunities for these 
technologies.
    We have also dramatically improved the collaboration 
between the Department of Energy and the U.S. Department of 
Agriculture. In that connection, the farm bill has provided $14 
million in mandatory biomass funding, which we are going to 
jointly manage with the Department of Agriculture under the 
direction of the Biomass Research and Development Board 
established under the Biomass R&D Act of 2000.
    In fiscal year 2004, we are also requesting almost $77 
million for electricity reliability, slightly more than our 
fiscal year 2003 request. That program consists of four main 
areas, including high temperature superconductivity, 
transmission reliability research, distribution and 
interconnection energy storage research, and the renewable 
energy production incentive.
    We are creating a new program office in the Department 
bringing various transmission-related activities together. We 
look forward to presenting more information to you about that 
in the weeks ahead.

                           PREPARED STATEMENT

    For now I ask that my full statement appear in the record. 
I am happy to answer any questions the committee may have, 
either now or in the future.
    Senator Domenici. It will be made a part of the record. 
Thank you very much.
    [The statement follows:]

                 Prepared Statement of David K. Garman

    Mr. Chairman, Members of the Subcommittee, I appreciate the 
opportunity to testify before you today on the fiscal year 2004 budget 
request for the Office of Energy Efficiency and Renewable Energy 
(EERE).
    As you know, the EERE budget is split between Energy and Water 
Development and Interior Appropriations Bills. Our overall budget 
request for fiscal year 2004 is $1,320,000,000 compared to 
$1,318,651,000 requested in fiscal year 2003. Our fiscal year 2004 
request for our Energy and Water Development programs totals 
$444,207,000, or 34 percent of EERE's budget, compared to $407,000,000 
requested in fiscal year 2003. The most notable programmatic expansions 
are in the area of hydrogen and fuel cell vehicles research and 
development (R&D), reflecting the priorities and recommendations of the 
President's National Energy Policy, the Department of Energy's (DOE) 
mission, EERE's Strategic Plan, and the EERE's Strategic Program 
Review.
    This request reflects EERE's streamlined new organization. Two 
years ago, EERE was divided into 31 programs, in 17 offices, stovepiped 
into 5 market sectors. Overlapping layers of management and duplicative 
and inconsistent business systems generated significant inefficiencies 
and made it difficult to ensure accountability and the most cost-
effective application of taxpayer funds. Responding to the President's 
Management Agenda and our own Strategic Program Review, we launched a 
dramatic restructuring of the EERE program in June 2002. This 
restructuring streamlined our organization, eliminating up to four 
management levels, and centralizing administration functions into a 
single support organization with a focus on developing consistent, 
uniform, and efficient business practices. This is arguably the most 
dramatic restructuring in EERE's history.
  --The restructuring combined all the hydrogen and fuel cell 
        activities, formerly scattered across two market sectors and 
        three programs, into a single program for greater efficiency 
        and synergy.
  --The restructuring combined all the bioenergy-related activities, 
        formerly scattered across three market sectors and three 
        programs, into a single program focused on advanced 
        biorefineries. If successful, this research will allow waste 
        plant matter to be turned into high value chemicals, fuels, and 
        power.
  --The fiscal year 2004 budget is fully aligned with EERE's new 
        management structure and strategic goals, allowing a strong 
        linkage between congressional appropriations and the 
        performance and productivity of EERE's research and development 
        (R&D) and deployment activities.
    The fiscal year 2004 budget supports EERE's R&D and technology 
deployment efforts to provide Americans with increased energy security 
and independence through utilization of diverse domestic supplies, 
greater freedom of choice of technology, and reducing the financial 
costs and environmental impacts of energy utilization.
    As Secretary Abraham noted recently, the Department has ``. . . an 
ambitious, long-term vision of a zero-emissions future, free of 
reliance on imported energy.'' We must call upon science, technology, 
and the research talents in our national laboratories, universities, 
and industry to help us move beyond today's energy choices towards 
carbon-free generation of electricity and fuels, including hydrogen.
    Secretary Abraham has also made clear that all missions at the 
Department flow from our core mission to support national security. 
This EERE fiscal year 2004 budget demonstrates that the Department 
takes its responsibility toward national security seriously as it does 
its responsibilities toward science and technology. The Department has 
taken a deliberate and integrated approach to its research and 
development portfolio, using the strengths of all DOE programs to 
address this central mission. Clearly, environmental security and 
economic security underpin national security and each is sustained by 
science.
    What is more, there is only one way to build an integrated budget 
and that is to engage in a vigorous and disciplined planning process 
that forces programs to set priorities.
    Our EERE fiscal year 2004 budget request has been developed with 
these challenges and opportunities in mind.

                THE PRESIDENT'S HYDROGEN FUEL INITIATIVE

    Mr. Chairman, the big news in our fiscal year 2004 budget is, of 
course, the President's Hydrogen Fuel Initiative, which directly 
supports EERE's number one priority to dramatically reduce or even end 
dependence on foreign oil.
    Our nation currently imports 55 percent of our oil--a dependence 
that is projected to rise to 68 percent by 2025. Since two thirds of 
the 20 million barrels of oil we consume each day is used for 
transportation, we must focus on finding alternative, domestic fuels to 
power our transportation system if we ever expect to reverse this 
trend.
    In his recent State-of-the-Union address, President Bush announced 
a groundbreaking plan to transform our nation's energy future from one 
dependent on foreign petroleum, to one that utilizes the most abundant 
element in the universe--hydrogen. The concept for this initiative is 
simple, yet profound--create automotive operating systems that run on 
hydrogen rather than gasoline. The benefits will be considerable and 
widespread. Hydrogen can be produced from diverse domestic sources, 
freeing us from a reliance on foreign imports for the energy we use at 
home. Hydrogen can fuel ultra-clean internal combustion engines, which 
would reduce auto emissions by more than 99 percent. And when hydrogen 
is used to power fuel cell vehicles, it will do so with more than twice 
the efficiency of today's gasoline engines--and with none of the 
harmful emissions. In fact, fuel cells' only byproduct is pure water.
    On February 6, 2003, at an event on energy independence in 
Washington, D.C., featuring new uses for fuel cells including 
automobiles, the President reiterated his commitment to his new 
Hydrogen Fuel Initiative stating, ``The technology we have just seen is 
going to be seen on the roads of America. And it's important for our 
country to understand that by being bold and innovative, we can change 
the way we do business here in America; we can change our dependence 
upon foreign sources of energy; we can help with the quality of the 
air; we can make a fundamental difference for the future of our 
children.''
    During his speech on energy independence, the President also 
provided details of his initiative stating, ``We must make hydrogen 
more plentiful and produce it in the most efficient, cost-effective 
way. That is one of our challenges . . . We must increase the capacity 
of hydrogen storage systems. And we must put in place the 
infrastructure to get hydrogen to the consumers. There would be nothing 
worse than developing a car and having no place for somebody to find 
the fuel. People aren't going to buy many cars if they can't refuel 
their car.''
    To support the President's vision we need to make the necessary 
research and development investments to develop vehicles powered by 
hydrogen fuel cells and the infrastructure to support them. The 
President's Initiative will accelerate research and development on 
hydrogen production, delivery, storage and distribution, and establish 
the necessary safety-related codes and technology standards. In 
addition, it will accelerate the demonstration of fuel cell vehicles 
and hydrogen infrastructure so that these technologies can be validated 
under real world conditions.
    The government's role here is clear. We will coordinate and cost-
share the high-risk R&D work of numerous private sector partners and 
our national network of science laboratories. Government coordination 
of this undertaking will also help resolve one of the difficulties 
associated with development of a commercially viable hydrogen fuel cell 
vehicle: the ``chicken and egg'' question. Which comes first, the fuel 
cell vehicle or the hydrogen production and delivery-refueling 
infrastructure to support it? The President's Initiative, in 
conjunction with FreedomCAR--the public-private partnership with U.S. 
automakers launched last year to accelerate the development of 
practical, affordable hydrogen fuel cell vehicles--answers the question 
by proposing to develop both systems in parallel. By so doing, federal 
investments will help to advance commercialization of hydrogen fuel 
cell vehicles and infrastructure by 15 years, from approximately 2030 
to 2015.
    To meet this challenge, the President's fiscal year 2004 budget 
request commits $1.7 billion over five years for the FreedomCAR 
partnership and Hydrogen Fuel Initiative. This includes $1.2 billion 
for hydrogen and fuel cells--$720 million in ``new'' money (i.e., not 
included in baseline projections of spending). EERE's overall fiscal 
year 2004 budget request for the FreedomCAR partnership and Hydrogen 
Fuel Initiative is $256.6 million. There is an additional $15.5 million 
for hydrogen production research requested by the Offices of Fossil and 
Nuclear Energy, and $0.7 million requested by DOT Research Special 
Projects Agency.
    Mr. Chairman, we stand on the cusp of revolutionary change in 
personal transportation in this country--and the world. The President 
has completely recast this Nation's vision of personal transportation 
by describing a future where vehicles will be fueled by hydrogen--and 
he is taking the steps necessary to lead us to that future.

      FISCAL YEAR 2004 ENERGY AND WATER DEVELOPMENT BUDGET REQUEST

    For fiscal year 2004, we request a $37,207,000 increase above our 
fiscal year 2003 amended budget request.
    Let me now briefly review the portfolio of Renewable Energy 
Resources programs within the Office of Energy Efficiency and Renewable 
Energy. Before I begin, I'd like to highlight how the President's 
Management Agenda has helped us focus our resources and become better 
stewards of the taxpayers' dollars. For example, the R&D investment 
criteria help us guide budget decisions to ensure we fund only 
activities that can provide real public benefits and that the private 
sector would not undertake without our help. And the budget-performance 
integration initiative, through the Program Assessment Rating Tool 
(PART), has helped us to focus on continuing to improve our performance 
goals, and to identify program planning and management strengths and 
challenges.
    Two years ago, the President's Management Agenda pointed out that 
Federal government R&D programs in general ``do not link information 
about performance to our decisions about funding. Without this 
information, decisions about programs tend to be made on the basis of 
anecdotes, last year's funding level, and the political clout of local 
interest groups.'' This year, our funding request is in better 
alignment with what it will take to achieve our goals.
Hydrogen Technology
    The Hydrogen Technology Subprogram is a key component of the 
President's Hydrogen Fuel Initiative.
    The program works with industry to improve efficiency and lower the 
cost of technologies that produce hydrogen from renewable energy 
resources and natural gas. In addition, the program works with the 
national laboratories to reduce the cost of technologies that produce 
hydrogen directly from sunlight and water. Hydrogen can be used in 
stationary applications for residential, commercial and industrial fuel 
cells, as well as in fuel-cell powered vehicles. Development of this 
clean energy carrier will lessen our dependence on imported fuels in 
both stationary and transportation applications.
    In fiscal year 2004, we request $87,982,000 ($48,101,000 more than 
our fiscal year 2003 budget request) for the Hydrogen Technology 
Subprogram (there is an additional $15.5 million in the Offices of 
Fossil and Nuclear Energy for a total of $103.5 million). This will be 
used to establish a national research effort on hydrogen storage; to 
enhance technology development for hydrogen production from renewables 
and distributed natural gas; to accelerate codes and standards 
development; to create a major hydrogen education effort; and to 
validate hydrogen infrastructure technologies to support fuel cell 
vehicle test and evaluation.
    Our fiscal year 2004 budget request represents a significant 
consolidation and realignment in the Hydrogen, Fuel Cells, and 
Infrastructure Technologies Program when compared to the fiscal year 
2003 budget request. This budget request reflects the functional 
priorities of the program: hydrogen production and delivery, hydrogen 
storage, hydrogen infrastructure validation, safety and codes/standards 
related to hydrogen and its infrastructure, and education and 
crosscutting analysis. The new budget structure consolidates all 
electrolyzer research and development under production and delivery.
    In addition, the fiscal year 2004 request proposes that all fuel 
cell activities be performed under Interior and Related Agencies 
Appropriation. This is a change since some fuel cell work was requested 
under Energy and Water Development Appropriation in fiscal year 2003. 
Also, all hydrogen production, delivery, and storage work is proposed 
to be under the Energy and Water Development Appropriation request in 
fiscal year 2004. This is a change since some hydrogen storage and off-
board natural gas reforming work was requested under Interior and 
Related Agencies in fiscal year 2003.
    The increase in funding for fiscal year 2004 compared to the fiscal 
year 2003 request enables hydrogen production, storage, and 
infrastructure technology goals to be accelerated 15 years to enable 
industry to make a commercialization decision regarding hydrogen 
infrastructure and fuel cell vehicles by 2015.
    Specific fiscal year 2004 program activities include:
  --Accelerating development of low-cost, small-scale reformers and 
        separation technology to enable hydrogen generated from 
        distributed natural gas to achieve $3.00 per gasoline gallon 
        equivalent by 2005 and to be competitive with gasoline by 2010 
        ($1.50 per gasoline gallon equivalent, delivered, pre-tax).
  --Accelerating and expanding research on the production of hydrogen 
        from renewable resources to reach a 2008 goal of $2.55 per 
        gasoline gallon equivalent at the plant gate.
  --Creating a national research effort in hydrogen storage 
        technologies, based on low pressure, solid state materials, to 
        enable achievement of 2010 goals of 2.0 kWh/kg (6 percent by 
        weight hydrogen storage capacity), 1.5 kWh/l and $4/kWh.
  --Conducting operations of the Las Vegas fueling station to determine 
        emissions and system efficiency. Initiating limited 
        ``learning'' demonstrations of hydrogen refueling stations to 
        support fuel cell vehicle test and evaluation.
  --Providing leadership in developing safety-related codes and 
        standards and conducting necessary coordination with the 
        international community so that U.S.-based technology can 
        compete globally.
    These efforts support the Hydrogen Fuel Initiative, and will enable 
the development of hydrogen fuel cell vehicles for the showroom floor 
by 2020. Success of these programs will begin to eliminate the need for 
imported oil, while simultaneously beginning to eliminate emissions and 
significantly reducing greenhouse gases from America's transportation 
fleet without affecting the freedom of personal mobility we demand.

Solar Energy Technology
    The EERE Solar Energy Technology Program develops solar energy 
systems that are more efficient, reliable, and affordable for 
converting sunlight into electricity, space heat, hot water, and 
lighting. A primary objective of the program is to increase the value 
of solar energy by putting it at the point of use, making it an 
integral part of super efficient, state-of-the-art residential and 
commercial buildings and industrial establishments.
    In fiscal year 2004, we request $79.7 million for the Solar Energy 
Technology Program, which is level funding with our fiscal year 2003 
request. The fiscal year 2004 activities are as follows:
    Under Photovoltaic (PV) Energy Systems, we will increase technology 
development to support module and systems reliability improvements. In 
thin film modules, we will increase funding for accelerated lifetime 
testing and diagnostics to determine failure modes in pre-commercial 
products. In systems, we will increase funding for the inverter 
initiative to accelerate attainment of a next-generation grid-tied 
inverter with a greater than twenty-year lifetime. We will begin the 
second year of three-year contracts under the PV Science Initiative 
with universities to develop next-generation PV materials and devices 
that have the potential for dramatic cost reductions. The PV Science 
Initiative will more fully develop new ideas and concepts that can 
replace conventional technologies with a new generation of lower-cost, 
easier-to-manufacture technologies. In the Thin Film Partnership, the 
program will continue funding the most promising industry cost-shared 
contracts on technologies making the greatest achievements.
    In Solar Building Technology Research, we will continue development 
of a polymer water heater capable of operation in cold climates and 
test a hybrid solar daylighting system.
    The Concentrating Solar Power subprogram will be phased-out in 
accordance with the National Academy of Science recommendations.
Zero Energy Buildings
    The focus of the Zero Energy Buildings concept involves efforts to 
integrate renewable energy systems into building designs and 
operations, such as integrating photovoltaic, water heating systems 
and/or space conditioning systems. These buildings use renewable energy 
sources so that the buildings produce as much energy as they consume on 
an annual basis.
    In fiscal year 2004, we request $4.0 million for the Zero Energy 
Buildings program, $4.0 million less than our fiscal year 2003 budget 
request. The program will evaluate its activities to ensure no 
duplications or overlaps with Interior-funded efforts in the Building 
Technologies Program.
    As part of the reorganization of EERE in fiscal year 2002, Zero 
Energy Buildings activities have been moved from the Solar Energy 
Program to the Buildings Technologies Program. This shift will enable 
more effective access to the residential and commercial building 
industries for Zero Energy Buildings technology developers and expand 
the range of opportunities for industry participation and cost sharing. 
The Zero Energy Buildings activities will continue to maintain 
effective technical coordination with the Solar Energy Program.
    In fiscal year 2004, we will focus on completing the evaluation and 
monitoring of first generation Zero Energy Buildings homes, built by 
leading homebuilders, to verify a 50 percent reduction in annual 
utility bills to $600 per year for an average sized home in a temperate 
climate.

Wind Energy
    Wind energy systems have been the fastest growing source of 
electricity worldwide for over a decade, and are now providing cost-
competitive power in high wind speed areas. As a result, the 
Department's focus for wind energy R&D has shifted to advanced 
technologies to allow economically viable development in the nation's 
more widespread lower wind speed areas. These areas are on average five 
times closer to major load centers, providing an opportunity to relieve 
transmission constraints as a major wind energy barrier, and over 
twenty times more abundant than currently-economic high wind areas. 
Under the Technology Viability key activity, the program is underway 
with a broad range of cost-shared public/private partnerships coupled 
with laboratory supporting research and testing to achieve low wind 
speed development goals for both large turbines used for utility scale 
wind farms, and for smaller (<100 kilowatt) turbines for use in 
distributed power applications. The Technology Application key activity 
targets remaining technical and institutional barriers to wind energy 
use, including grid systems integration, resource assessment, outreach 
to states and stakeholders, and support for near-term industry needs 
such as certification testing.
    In fiscal year 2004, we request $41,600,000 for the Wind Energy 
subprogram, $2.4 million less than our fiscal year 2003 budget request. 
The request is in alignment with our projected needs to achieve our 
goals.
    In fiscal year 2004, the Wind Energy subprogram will select and 
commence several new industry partnership projects for concept studies, 
component development, and/or full system development under competitive 
solicitations issued in 2003 for both large wind turbines and small, 
distributed power scale turbines. It will also conduct research efforts 
in wind turbine aerodynamics, structures, materials, advanced 
components, and wind characteristics to support development of new and 
improved tools and technology for low wind speed system design and 
applications. Advanced systems integration studies will assess 
opportunities for coordinated operation of wind and hydropower 
generation, and production of hydrogen from wind and hydropower.

Hydropower
    In the case of hydropower, the program focuses on improving the 
environmental performance of hydropower plants by developing turbines 
that reduce fish injury and improve downstream water quality. The 
Department has engaged the expertise of the national laboratories to 
study and better understand hydropower's biological and environmental 
effects. Study results have been critical to the development of design 
thresholds for industry to use in their efforts to improve existing 
turbine designs.
    In fiscal year 2004, we request $7,489,000 for the hydropower 
subprogram, the same level of funding as our fiscal year 2003 request.
    Under Technology Viability: Advanced Hydro Turbine Technology, we 
have increased funding in fiscal year 2004 by $500,000 to support 
testing of new prototype hydro turbines.
    Under Technology Application: Low-Head/Low-Power R&D, we have 
decreased funding in fiscal year 2004 by $500,000, to reflect a shift 
in funding to higher-priority testing of new prototype hydro turbines 
under Technology Viability.
    In fiscal year 2004, the hydropower subprogram will develop and 
test full-scale (greater than 1 MW) prototypes of retrofit and new 
environmentally friendly turbine designs under competitively selected 
public private partnerships awarded in prior years. The Department will 
also complete the low head/low power resource assessment of all 50 
states, identifying the undeveloped hydropower resources that could be 
developed without building new impoundments.

Geothermal Technology
    The Geothermal Technology Development Program works in partnership 
with U.S. industry to establish geothermal energy as an economically 
competitive contributor to the U.S. energy supply, capable of meeting a 
portion of the Nation's heat and power needs, especially in the West. 
The program focuses on exploration and reservoir technologies, and 
drilling research because better understanding of geothermal resources 
and cost-effective means of accessing those resources will enable 
industry to locate and produce new geothermal fields at greatly reduced 
cost.
    In fiscal year 2004, we request $25,500,000 for geothermal program 
activities, $1 million less than our fiscal year 2003 budget request.
    In fiscal year 2004, the program will step up work on Enhanced 
Geothermal Systems (EGS) cost-shared projects at three competitively-
selected sites. In fiscal year 2004, we will increase funding for EGS 
by $2.5 million over our fiscal year 2003 budget request due to the 
high priority of this program area and budget projections supporting 
the field development phases of the cost-shared projects. The program 
will also support at least five cost-shared, competitively-selected, 
exploration projects initiated with industry to validate new technology 
and find and confirm new geothermal resources within the United States.

Biomass and Biorefinery Systems R&D
    In fiscal year 2004, we are requesting $69,750,000 for Biomass/
Biorefinery Systems, a $16,255,000 decrease from our fiscal year 2003 
budget request.
    For the first time we have brought a diverse industry together and 
produced a vision and R&D roadmap that has increased the level of 
industry investment. This roadmap has allowed us to begin the process 
of rebuilding the program and focusing on the most promising long-term 
opportunities for these technologies. We have dramatically improved the 
collaboration among federal agencies, especially the Department of 
Agriculture (USDA). In addition, the Farm Bill provided direction and 
funding to USDA to work with DOE in advancing biomass technologies. In 
fact, the Farm Bill provides $14 million in fiscal year 2004 mandatory 
biomass funding for the Department of Agriculture, which DOE's Biomass 
Program will jointly manage at the direction of the Biomass Research 
and Development Board established under the Biomass R&D Act of 2000.
    The Department has focused its R&D efforts to high-priority, long-
term technologies, both within the Biomass Program and the entire EERE 
portfolio. Earlier last year, the EERE bioenergy activities were 
integrated into one office to help focus resources on a limited and 
more coherent set of goals and objectives, increasing collaboration 
with industry, reducing overhead expenses, and exploiting synergies 
among similar activities in support of a future biorefinery industry. 
This focus on a clear set of goals, substantial leveraging of research 
funding with industry, and the transfer to industry of a number of 
demonstration activities that industry should continue to pursue 
without federal support has allowed a reduction in the need for funding 
to achieve our goals.
    Our fiscal year 2004 activities will include additional long-term, 
high-risk R&D in thermochemical conversion in support of biorefinery 
development. Efforts will continue on the testing of clean up and 
conditioning technologies and catalysts needed for biomass gasifiers. 
An industrial partner will validate the performance of an organism 
capable of fermenting multiple biomass sugars for ethanol production.

Intergovernmental Activities
    Intergovernmental Activities support the program mission by 
providing consumers with improved choices for efficient and renewable 
energy products. Intergovernmental Activities are managed as part of 
the Weatherization and Intergovernmental Program, which is comprised of 
grant-related and technical assistance activities brought together 
through the reorganization of Energy Efficiency and Renewable Energy 
(EERE) in fiscal year 2002. Combining these activities will improve the 
Department of Energy's effectiveness in deployment of efficient and 
renewable energy technologies by streamlining administration of program 
funding and consolidating management of competitive awards. The former 
Renewable Implementation and Support activities have been given 
stronger focus by inclusion in the Weatherization and Intergovernmental 
Program.
    The Intergovernmental Activities subprogram receives appropriations 
from both the Energy and Water Development and the Interior and Related 
Agencies subcommittees. Interior activities focus on energy efficiency 
measures, while Energy and Water Development activities focus on 
maintaining working relationships with international and Native 
American tribal governments that inform and assist consumers with 
renewable and efficient energy options.
    In fiscal year 2004, we request $12,500,000 for Intergovernmental 
Activities, $2.307 million less than our fiscal year 2003 budget 
request.
  --The International Renewable Energy Program promotes clean U.S. 
        exports, expanding the market of U.S. industries and reducing 
        the cost of energy to our trading customers while improving 
        their environment, reducing air and water pollution and 
        greenhouse gas emissions, and creating new jobs. In fiscal year 
        2004, we request $6.5 million for international activities (the 
        same level of funding as our fiscal year 2003 request).
  --The Tribal Resources Program provides assistance to Native American 
        Tribes and Tribal entities in assessing energy resources, 
        comprehensive energy plan development, energy technology 
        training, and project development. In fiscal year 2004, we 
        request $6.0 million to assist Tribes in ways to use renewable 
        energy technologies on Tribal lands. Funds will be awarded 
        competitively.
    The U.S. Country Studies Program has completed its mission of 
showing how the United States could cost-effectively reduce global 
greenhouse gas emissions through energy efficiency and renewable energy 
exports and cooperative agreements with other countries. The funding 
has been shifted to support Administration initiatives such as the 
Energy Efficiency for Sustainable Development and the Global Village 
Energy Partnership Initiatives announced at the World Summit for 
Sustainable Development. DOE expects to leverage these investments with 
loans and private investments. The goal is to attain significant energy 
savings and environmental and quality-of-life improvements for the host 
countries and their governments and citizens.

Electricity Reliability
    Electricity Reliability provides funds for our Distributed Energy 
and Electricity Reliability Program. This Program leads a national 
effort to develop a flexible, smart, and secure energy system through 
advanced technologies that improve capacity utilization of the 
transmission and distribution system and through tools that provide 
real-time information to system operators. This Program offers 
solutions that bridge both the supply- and demand-side of the energy 
equation and the need to upgrade our electric energy infrastructure.
    The National Energy Policy and the follow-up National Transmission 
Grid Study (NTGS) published in May 2002 identified critical needs to 
modernize the nation's electric delivery system. This budget initiates 
key responses to the 51 recommendations of the Grid Study including 
bottleneck assessment, interaction with FERC on standard market design 
and critical research and development needs. The fiscal year 2004 
program consists of four main areas: High Temperature Superconductivity 
(HTS), Transmission Reliability Research, Distribution and 
Interconnection, Energy Storage Research, and Renewable Energy 
Production Incentive.
    In fiscal year 2004, we request $76,866,000 for Electricity 
Reliability, $360,000 more than our fiscal year 2003 budget request.
    For the HTS program, we request $47.838 million in fiscal year 2004 
to develop applications of superconducting materials for the 
electricity delivery system. High temperature superconducting materials 
can be used to make wire conductors that are capable of carrying more 
current than existing conductors while having virtually no electric 
line losses of energy. The lack of electrical resistance of HTS 
materials makes it possible to have super-efficient generators, 
transformers, and transmission and distribution cables that reduce 
energy losses by half while using equipment that is about one-half the 
size of present electrical systems.
    Transmission system operations have been made more complex by the 
growing volume of wholesale power transactions. As a result, data 
collection and visualization tools for utility planners and system 
operators are required that boost diagnosis and response times and 
increase the efficiency of market operations. The Transmission 
Reliability activity has developed and installed prototype voltage and 
frequency monitoring and visualization tools that allow transmission 
operators to immediately recognize and correct system problems. Other 
reliability tools are being installed, such as prototype satellite-
synchronized devices that afford operators a real-time view of system 
conditions, provide information for reliable operation of the grid, and 
enable more efficient operation of competitive electricity markets. In 
fiscal year 2004, we request $10.720 million to expand R&D on grid 
monitoring, data collection, and visualization tools.
    The Transmission Reliability R&D subprogram request is proposing a 
new initiative in fiscal year 2004--the National Transmission 
Infrastructure (NTI) Initiative, with requested funding of $3.0 
million. This initiative responds to the NTGS. The NTI Initiative 
addresses the technical and market-related recommendations in the NTGS 
that call specifically for DOE actions. Actions include ``national-
interest'' transmission lines assessment, and advanced technologies for 
relief of transmission congestion, including sensors, monitoring and 
control for real time operation, advanced conductors, analysis of new 
system configurations and dynamics, and demand response. In addition, 
increased emphasis will be placed on field validation and testing and 
on providing more technical assistance to states and regions on topics 
such as regional resource and transmission planning.
    Interconnection, communications, and control systems are needed to 
allow for a more ``plug & play'' design that can revolutionize energy 
markets and create new products and services for industrial, 
commercial, and governmental consumers who are interested in hassle-
free distributed energy solutions. The Distribution and Interconnection 
(formerly DER Electric Systems Integration) activity is developing 
standards, conducting tests, and performing analysis for the 
interconnection and integration of distributed energy technologies for 
customers and electric distribution systems. It includes activities to 
develop the microgrid concept, to analyze the impact of high levels of 
penetration of distributed energy devices on the distribution system, 
and to address technical, institutional, and regulatory barriers to the 
expanded use of distributed energy resources. In fiscal year 2004, we 
request $7.249 million for this Subprogram.
    The Energy Storage Research activity addresses important challenges 
in the efficient operations of electric generation, transmission, and 
distribution systems. As a peak shaving tool during times of 
transmission overload, or during price peaks, energy storage allows 
more efficient allocation of energy resources without necessarily 
producing additional emissions. Energy storage systems can be used to 
provide back-up power and power quality support to consumers, 
potentially saving billions of dollars in downtime costs, damaged 
equipment, and disrupted operations. In fiscal year 2004, we request 
$5.0 million for Energy Storage Research activities to support higher 
priority Transmission Reliability research and development, and take 
advantage of potential synergies with expected developments under the 
Vehicle Battery Program, which significantly increased its funding 
request for fiscal year 2004.
    The Renewable Energy Production Incentive Program stimulates 
electricity production from renewable sources owned by States or 
smaller private sector groups. In fiscal year 2004, we request $4.0 
million, the same funding level as our fiscal year 2003 budget request.

Departmental Energy Management Program (DEMP)
    DEMP targets services at DOE facilities to improve energy and water 
efficiency, promote renewable energy use, and manage utility costs in 
facilities and operations. In fiscal year 2004, we request $2.3 million 
for DEMP activities, $700,000 less than our fiscal year 2003 budget 
request. DEMP will audit facilities to identify energy conservation 
opportunities; provide funding for best practices identification and 
dissemination; and accomplish energy conservation retrofits through 
direct funding and alternative financing.

National Climate Change Technology Initiative (NCCTI)
    In response to the President's commitment of the United States to 
develop a sensible, science-based approach to the issue of climate 
change, facilitate progress toward achieving climate change goals, 
near-term and long-term, and implement the President's National Climate 
Change Technology Initiative, the Department has requested in fiscal 
year 2004 a total of $40 million for the NCCTI Competitive Solicitation 
program. Funding is requested in four R&D program accounts, as follows: 
Energy and Water Development: EERE (Energy Supply--$15 million) and NE 
(Energy Supply--$2.3 million); and Interior and Related Agencies: EERE 
(Energy Conservation--$9.5 million) and FE (Fossil Energy R&D--$13.2 
million).
    These funds will be used to support a NCCTI competitive 
solicitation aimed at exploring concepts, technologies and technical 
approaches that could, if successful, contribute in significant ways 
to: (a) future reductions in or avoidances of greenhouse gas emissions; 
(b) greenhouse gas capture and sequestration (permanent storage); (c) 
capture and conversion of greenhouse gases to beneficial use; or (d) 
enhanced monitoring and measurement of greenhouse gas emissions, 
inventories and fluxes in a variety of settings.
    The NCCTI competitive solicitation is intended to spur innovation 
and accelerate technical progress on climate change technology 
development. The competitively selected research will complement DOE's 
existing portfolio of climate change-related R&D activities, and will 
be consistent with their missions, goals and objectives. The Climate 
Change Technology Program will manage the NCCTI competitive 
solicitation.

Facilities and Infrastructure
    The Facilities and Infrastructure budget addresses capital 
investments at two DOE laboratory sites: the National Renewable Energy 
Laboratory (NREL), and Oak Ridge National Laboratory (ORNL).
    NREL is the Nation's premier laboratory for renewable energy R&D. 
It also works to improve energy efficiency, advance related science and 
engineering, and facilities technology commercialization. In fiscal 
year 2004, we request $4.2 million for operating expenses.
    For ORNL in fiscal year 2004, we request $750,000 to complete the 
design of a new multistory building of approximately 52,000 square feet 
to provide facilities for EERE R&D activities. This building will be a 
state-of-the-art facility designed to operate as a demonstration of 
energy efficiency technology. Energy Star certification will be sought 
for applicable portions of the building.
    Fiscal year 2004 funding is requested to award the Architectural-
Engineering contract for the project design and to provide project 
management. This budget provides half of the requested amount for 
Project Engineering and Design. Because industry will directly benefit 
from this facility, we are requiring 50 percent industry cost share for 
all phases of the project, including building design, as recommended in 
the National Transmission Grid Study. The project also is consistent 
with the ORNL Strategic Facilities Plan and complementary to the 
Facilities Revitalization Project of the DOE-ORNL Office of Science 
initiative to modernize their national laboratories.

Program Direction
    Program Direction provides the federal staffing resources as well 
as associated properties, equipment, supplies and materials required 
for supporting the responsive management and oversight of programs. 
Program Direction also funds support service contractors, equipment, 
travel, and crosscutting activities.
    In fiscal year 2004, we request $16.577 million, $390,000 more than 
our fiscal year 2003 budget request.

                               CONCLUSION

    Mr. Chairman, Members of the Subcommittee, we welcome the challenge 
and the opportunity to play a vital role in this Nation's energy future 
and to support our national security.
    This completes my prepared statement. I would be happy to answer 
any questions you may have.

    Senator Domenici. Mr. Magwood, you are last, but not least. 
Congratulations on the nuclear work. And we finally got some 
good funding in some big areas this year. It took about 3 
years, but we are there now. Proceed to give us a summary, and 
your statement will be made a part of the record.

            Office of Nuclear Energy, Science and Technology

STATEMENT OF WILLIAM D. MAGWOOD, IV, DIRECTOR
    Mr. Magwood. Thank you, Mr. Chairman. This is an exciting 
year to be here before you speaking about the nuclear energy 
program. As you have observed, we have gone through a difficult 
time over the years. After many years of planning and many 
years of talking to our stakeholders in the research community, 
it is a pleasure to be here with a budget that really lays the 
groundwork for the future.
    The programs proposed in our budget reflect the 
administration's commitment to nuclear energy and one that is 
interested in doing what is necessary to get new nuclear 
technologies deployed in the United States and around the 
world. The salient change in our fiscal year 2004 budget 
request from previous years is the fact that we are now in the 
process, as Senator Craig mentioned, of integrating the Idaho 
National Engineering and Environmental Laboratory as part of 
our nuclear family. We are in the process of planning for the 
future of this laboratory and working with other labs across 
the country. I expect INEEL to become the center for our 
overall efforts to develop advanced nuclear reactor and fuel 
treatment technologies.

                     ADVANCED FUEL CYCLE INITIATIVE

    One of the activities at INEEL, in association with many 
other labs that we expect to see grow over the years, is our 
budget proposal for the Advanced Fuel Cycle Initiative (AFCI) 
that you mentioned earlier. With the $63 million proposed in 
fiscal year 2004, this is one of the Secretary's capstone 
initiatives. Through this major research program, we will 
develop proliferation-resistant nuclear fuel treatment and 
transmutation technologies that can reduce the volume and 
toxicity of spent fuel. We think this is a very important 
objective.
    There are many unique aspects of this program. It involves 
many of our national laboratories in a comprehensive and 
integrated fashion. It brings universities, particularly the 
University of Nevada-Las Vegas and Idaho State University, as 
key R&D partners. Most importantly, it leverages the experience 
and expertise of our international partners. Already, simply 
through signing cooperative agreements, we have gained $100 
million worth of research data.
    Senator Domenici. What is this on and from whom?
    Mr. Magwood. Working with our international partners 
through agreements we signed with France and Korea and most 
recently the European Union, we have gained access on----
    Senator Domenici. On what subject?
    Mr. Magwood. Advanced fuel cycles.
    Senator Domenici. Good.
    Mr. Magwood. Over $100 million worth of data has been 
available. This is very important.

                  GENERATION IV NUCLEAR ENERGY SYSTEMS

    For AFCI to be successful, however, it is important that we 
move forward with Generation IV nuclear power systems. Two 
years ago, when we launched the Generation IV program to 
develop advanced reactor technologies, we were able to reach 
out to the international community. We now have a total of 10 
countries in the Generation IV international forum, including 
the United Kingdom, Argentina, Brazil, Canada, France, Japan, 
Republic of Korea, Republic of South Africa, Switzerland and, 
of course, the United States working together on advanced 
technologies.
    The work of the forum has been very intensive and very 
cooperative. We are very pleased with what we have been able to 
accomplish. The level of international cooperation has been 
extraordinary. As an example, a French scientist was assigned 
to the INEEL for a year to help formulate the Generation IV 
technology road map. More recently, just this week, in fact, 
the U.K. Department of Trade and Industry has assigned one of 
its senior officials, Ms. Helen Wiser, to work at the 
Department of Energy for the next 2 years. I am pleased to say 
that she is here with me today to see her first Senate hearing 
in the United States.
    Last year, at a meeting in Japan, the Generation IV 
National Forum presented Secretary Abraham and other senior 
officials with the completed technology road map that 
identifies six important technologies for the future. One of 
these technologies, the Very High Temperature Reactor, is a 
technology that we are very interested in exploring. We believe 
that this technology could be the future source of cost-
effective, commercial-scale production of hydrogen, the power 
of a growing economy, without emitting greenhouse gases and 
other pollutants.

                      NUCLEAR HYDROGEN INITIATIVE

    That brings me to our other major new initiative, the 
Nuclear Hydrogen Initiative, which is part of the National 
Hydrogen Fuel Initiative announced by President Bush. Through 
this program, we expect to develop and demonstrate by 2007 new 
technology that can produce hydrogen that could in the future 
be coupled with Generation IV nuclear power systems. This is 
very challenging work, but it is work that we believe can and 
must be done.

                           NUCLEAR POWER 2010

    Finally, it was around this time last year that Secretary 
Abraham announced the Nuclear Power 2010 Program. This effort 
is aimed at paving the way for the construction of new nuclear 
power plants by the end of the decade. We have started 
cooperative cost-share projects with three utility companies, 
Entergy, Exelon, and Dominion Resources, to demonstrate the 
early site-permitting process. We expect that this joint 
government-industry effort will result in three applications to 
the NRC this summer to obtain permits for sites operated by our 
R&D industry partners.
    In 2004, we will work with industry to respond to NRC 
questions as these applications achieve successful conclusion 
by 2005. While our tactical and regulatory demonstration work 
is proceeding well, it is clear that the business and financial 
issues facing prospective builders of nuclear power plants are 
the biggest hurdles that need to be overcome. This was 
highlighted by an independent study commission by the 
Department from Scully Capital last year. This financial 
advisory firm found that addressing key financial and business 
risks associated with building new plants is essential if we 
are going to see new plants in this country. We are continuing 
to discuss these risks with industry and hope to make future 
suggestions as to how those risks can be mitigated.

                           PREPARED STATEMENT

    With that, I will keep my oral remarks brief and look 
forward to your questions.
    Senator Domenici. Thank you very much.
    [The statement follows:]

              Prepared Statement of William D. Magwood, IV

    Mr. Chairman, Senator Reid, and Members of the Subcommittee, it is 
a pleasure to be here to discuss the fiscal year 2004 budget submission 
for DOE's Office of Nuclear Energy, Science and Technology.
    Over the last 30 years, nuclear power has risen to become the 
second most important source of electric energy in the United States 
and at the same time, the most operationally economic. The benefits of 
nuclear power as a clean, reliable and affordable source of energy are 
a key to the economic and environmental underpinnings of this Nation. A 
central mission of the Department's nuclear energy research program is 
to help enhance the basic technology and, through some of the most 
advanced civilian technology research conducted today, chart a course 
to the next leap in technology. In fiscal year 2004, we are proposing a 
$388 million investment in nuclear research and development and for the 
Nation's nuclear science, technology and education infrastructure, a 6 
percent increase over the current year appropriation.
    This budget request responds to the President's priorities to 
deploy new generation capacity to fortify U.S. energy independence and 
security while making significant improvements in environmental 
quality. It builds on the important work started over the last 2 years 
to deploy new nuclear plants in the United States by the end of the 
decade, to develop advanced, next generation nuclear technology, to 
strengthen our Nation's nuclear education infrastructure, and it 
proposes exciting new priorities.
    In fiscal year 2004, we propose to launch the Nuclear Hydrogen 
Initiative to use high temperature nuclear energy systems for clean 
hydrogen production as part of the President's Hydrogen Fuel 
Initiative. We are also proposing the Advanced Fuel Cycle Initiative 
with research aimed at developing proliferation-resistant fuel 
treatment and fuel cycle technologies that can reduce the volume and 
toxicity of commercial spent nuclear fuel and maximize energy from 
nuclear fuel.
    During fiscal year 2002, we pursued significant management reforms 
in order to implement the President's Management Agenda (PMA), 
including a major reorganization to better reflect the Administration's 
priorities, improve overall management and reduce the number of primary 
organizational units from eight to three. To assure overall 
accountability, PMA performance measures were cascaded from the 
Director through our Associate Directors to the staff. We also placed 
great emphasis on developing meaningful R&D investment criteria and 
applying the criteria to our nuclear research initiatives. The nuclear 
program successfully recruited and hired new junior professional staff 
and we are working to put to new senior management team in place at the 
Idaho Operations Office, who will oversee the Department's activities 
at the INEEL and lead the continuing transition of this laboratory back 
to its nuclear research roots.
    The NE budget request also supports the infrastructure for 
production of medical research isotopes, space and national security 
power systems, and the site and security infrastructure for Argonne 
National Laboratory-West in Idaho. I will now provide you more detail 
on our nuclear R&D initiatives and the linkages between them.

                     ADVANCED FUEL CYCLE INITIATIVE

    Of the issues affecting future expansion of nuclear energy in the 
United States and worldwide, none is more important or more difficult 
than that of dealing effectively with spent nuclear fuel. After a long 
and difficult process, the country is moving forward with a geologic 
repository, and we are on schedule to submit a license application to 
the Nuclear Regulatory Commission by the end of 2004.
    With these successes, we are able to pursue research that can 
optimize the use of the first repository and possibly reduce the need 
for future repositories. As one of the Secretary's capstones, the 
fiscal year 2004 Budget proposes an aggressive research and 
demonstration program--the Advanced Fuel Cycle Initiative--with an 
investment of $63 million in fiscal year 2004 to explore advanced, 
proliferation-resistant nuclear fuel treatment and transmutation 
technologies that can reduce volume and toxicity of spent nuclear fuel 
for a geologic repository. If successful, these same technologies offer 
benefits of enhancing national security by reducing inventories of 
commercially-generated plutonium and enhancing energy independence by 
recovering the energy value contained in spent nuclear fuel.
    The Department is proposing a research program leading to 
demonstrate proliferation-resistant fuel treatment technologies to 
reduce the volume and radioactivity of high level waste, and the 
development of advanced fuels that would enable consumption of 
plutonium using existing light water reactors or advanced reactors. 
With the President's request, the Department will continue work toward 
demonstration of proliferation-resistant fuel treatment technology and 
continue design of transmutation fuels for future use with current 
reactor technologies.
    For the Advanced Fuel Cycle Initiative to be successful, advanced 
fuel treatment and transmutation research and development must be 
integrated with the development of Generation IV nuclear energy 
systems, particularly with those reactor technologies that can produce 
very high energy neutrons that would be needed to transmute a wide 
variety of toxic radioactive species. To support this goal, the 
Advanced Fuel Cycle Initiative will develop the advanced proliferation 
resistant fuels and fuel cycle systems for Generation IV reactors.

                  GENERATION IV NUCLEAR ENERGY SYSTEMS

    Two years ago, we launched the Generation IV program to develop 
advanced reactor technologies for commercial deployment after 2010 but 
before 2030. These advanced reactors offer significant advances in 
sustainability, proliferation-resistance, physical protection, safety 
and economics. Development of these reactors is being pursued by the 
Generation IV International Forum, a group of ten leading nuclear 
nations (United Kingdom, Argentina, Brazil, Canada, France, Japan, 
Republic of Korea, Republic of South Africa, Switzerland, and the 
United States), which last year selected six promising technologies for 
joint research, development, and demonstration. While the Department 
has not yet decided upon which of these technologies it will eventually 
focus, all of the technologies are of considerable interest. The six 
innovative, next-generation technologies include two gas-cooled 
reactors, one water-cooled reactor, two liquid-metal-cooled reactors, 
and a molten salt-based reactor concept.
    Key research objectives for these technologies will include such 
activities as demonstrating advanced fuels and materials. The goal of 
the initiative is to resolve the fundamental research and development 
issues necessary to establish the viability of these concepts. By 
successfully addressing the fundamental research and development 
issues, the concepts are highly likely to attract future private sector 
sponsorship and ultimate commercialization. In fiscal year 2003 and 
fiscal year 2004, the Department will establish international 
partnering agreements to guide joint research and begin research and 
development on several of the reactor concepts, including very high 
temperature reactors that would support cost-effective production of 
hydrogen.

                      NUCLEAR HYDROGEN INITIATIVE

    Generation IV is closely linked to our new Nuclear Hydrogen 
Initiative, aimed at demonstrating economic commercial-scale hydrogen 
production using nuclear energy. Today, through electrolysis, we can 
convert water to hydrogen using electricity but we believe that for the 
future, very high temperature reactors coupled with thermo-chemical 
water splitting processes offer a more efficient technology for 
production of large quantities of hydrogen, without release of 
greenhouse gases.
    The hydrogen initiative grew out of the success of our Nuclear 
Energy Research Initiative, in particular, two investigator-initiated 
projects that identified a number of advanced reactor concepts capable 
of producing large quantities of hydrogen with high efficiency and low 
cost. Since then, we have awarded three additional NERI projects to 
study nuclear production of hydrogen. Beginning this year and under the 
international component of NERI (I-NERI), we are working in cooperation 
with Commissariat d'Energie Atomique (CEA) on a three-year effort to 
develop laboratory scale demonstration of the thermo-chemical water 
splitting process.
    The funds provided in fiscal year 2003 will allow us to accelerate 
the Nuclear Hydrogen Technology Roadmap so that by fiscal year 2004, we 
would begin implementing the research and development that is defined 
by the roadmap. We would also continue exploring laboratory scale 
demonstration of some of the key processes involved in nuclear hydrogen 
production, such as other thermo-chemical water splitting processes or 
high temperature electrolysis as well as development of high 
temperature heat exchangers.

                           NUCLEAR POWER 2010

    The President's budget supports continuation of Nuclear Power 2010 
in fiscal year 2004 to demonstrate, in cost-shared cooperation with 
industry, key regulatory processes associated with licensing and 
building new nuclear plants in the United States by the end of the 
decade. As concluded in a business case study conducted in 2002 by 
financial advisory firm Scully Capital, addressing key financial and 
business risks associated with building and licensing the first few 
nuclear plants is essential to proceeding with new nuclear plants in 
the United States.
    In fiscal year 2004, the requested funds will continue to support 
the activities associated with submitting and achieving Nuclear 
Regulatory Commission (NRC) approval of early site permits and 
development of Combined Construction and Operating License 
applications.
    Last year, the Department initiated cooperative cost shared 
projects with three generating companies--Entergy in Mississippi, 
Dominion in Virginia, and Exelon in Illinois, to demonstrate the new 
regulatory process for siting new nuclear power plants. These companies 
are pursuing applications for Early Site Permits for new plants at 
sites where they currently operate nuclear power plants--at Entergy's 
Grand Gulf site, Dominion's North Anna site, and at Exelon's Clinton 
site. The Early Site Permits will be submitted to the NRC by the end of 
this fiscal year and in fiscal year 2004, we will continue our support 
of these regulatory demonstration projects to achieve successful NRC 
staff review and approval of the siting application in 2005.
    Key to the deployment of new nuclear power plants, besides a viable 
site, is selection of a nuclear power plant design and utility 
application for a combined Construction and Operating License from the 
NRC. In fiscal year 2003, the Department will solicit and award 
industry cost-shared projects to implement activities to achieve 
deployment of new nuclear power plants. This effort includes the 
necessary analysis and planning for technology selection and project 
cost determination, additional siting activities as appropriate, 
advanced reactor development and certification, and demonstration of 
the combined construction and operating licensing process.

             UNIVERSITY REACTOR FUEL ASSISTANCE AND SUPPORT

    The Department sponsors the University Reactor Fuel Assistance and 
Support initiative, which supports the enhancement of the U.S. nuclear 
science and technology educational infrastructure. The need for trained 
and qualified nuclear scientists has not diminished over the years, and 
in fact, because of increasing retirements in the nuclear field, demand 
today exceeds supply.
    We are very pleased that the President's budget includes $18.5 
million for this program for fellowships, scholarships, nuclear 
engineering research, and for critical support to university research 
reactors. In fiscal year 2002, the Department launched the Innovations 
in Nuclear Infrastructure and Education program, encouraging 
universities to form ground-breaking partnerships with national labs, 
the private sector, and other universities to strengthen nuclear 
engineering education and optimize the use of research reactors. In 
fiscal year 2002, DOE issued awards to four consortia of universities 
and their partners. In fiscal year 2003, DOE will be able to support an 
additional award and will continue support for this program in fiscal 
year 2004.

                   RADIOLOGICAL FACILITIES MANAGEMENT

    This budget request also includes $63 million in funds to maintain 
critical research, isotope and space and national security power 
systems facilities at Oak Ridge National Laboratory, Los Alamos 
National Laboratory, Sandia National Laboratory, and Brookhaven 
National Laboratory in a safe, secure, and cost effective manner to 
support national priorities.
    The fiscal year 2004 budget request also includes $13 million in 
funds transferred from the National Nuclear Security Administration to 
continue the Uranium-233 project at Oak Ridge National Laboratory. This 
project is aimed at stabilizing materials left over from the Cold War 
to address a Defense Nuclear Facilities Safety Board recommendation, 
while extracting isotopes from the uranium that are needed for very 
promising medical research.

              INEEL--DOE'S COMMAND CENTER FOR NUCLEAR R&D

    Finally, this budget supports the Secretary's realignment of the 
mission of the Idaho National Engineering and Environmental Laboratory 
to focus the future of the site on nuclear research and development. As 
the Department's leading center of nuclear research and development, 
this laboratory is the ``command center'' for our efforts to develop 
advanced reactor and fuel cycle technologies, including development of 
space nuclear power and propulsion technologies.
    While the nuclear energy program involves the collective talents of 
universities, the private sector, international partners, and our 
national laboratories--Argonne, Los Alamos, Sandia, and Oak Ridge among 
them--the rebuilding of the Departments' nuclear program underway today 
would not be possible without the dedicated scientists, engineers and 
supporting staff of the Idaho National Engineering and Environmental 
Laboratory.
    Clearly, environmental cleanup will remain a major focus of the 
Department for the near-term but real progress is being made that will 
clear the way for expansion of nuclear research and development. With 
this year's budget, $110 million has been transferred from the 
environmental cleanup program to the Department's nuclear program to 
manage laboratory infrastructure and security.
    This year's budget request combines the infrastructure for the 
INEEL previously funded by the Office of Environmental Management, for 
the Test Reactor Area landlord, and for the infrastructure of Argonne 
National Laboratory West under the Idaho Facilities Management program. 
Similarly, the Safeguards and Security program, combines the security 
funds INEEL and Argonne-West, into a single program. With significantly 
challenges to security since September 11th, we are very pleased that 
our current-year appropriation is substantially higher than last year 
and that the fiscal year 2004 request, at $54 million, is about 13 
percent higher than this year.

                               CONCLUSION

    Mr. Chairman, and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you may 
have.

    Senator Domenici. I have a series of written questions 
which we will submit. We would appreciate your answering them 
as soon as you can.
    And we would like to just talk with you for a little while 
here. Dr. Orbach, about 5 years ago, a number of science 
initiatives directed at the lagging activities of the United 
States in nuclear energy and nuclear activities were started by 
this subcommittee. One of the least noticed but most important 
is the study, which you were in charge of, to evaluate the low-
level radiation and its actual effects rather than the formula-
extracted radiation expectations that have been in existence 
for a long time using linear projections.
    Can you talk about that study for a minute? How is it 
going? And are you certain that it is moving ahead such that 
when we are finished, those who have never wanted this done and 
always thought we should stay stuck on that linear formula will 
be satisfied that it is done neutrally by peer excellent 
scientists?

                          LOW-LEVEL RADIATION

    Dr. Orbach. Yes, we currently have 53 research projects at 
laboratories and universities on low-level radiation. We have 
learned already that your last comment is correct, namely that 
the extrapolation from the high-end radiation to low doses 
simply is not accurate, does not work, and misses the essential 
biology. We found already in our probes and our research 
programs that there are intercellular activities that take 
place. One cell influences another. So the conventional idea 
that radiation would act only on the DNA of a particular cell 
simply does not hold up at these low levels. We have been able 
to look at adaptive responses, how cells adapt to radiation, 
bystander effects, how cells adjacent to cells that suffer 
radiation damage are affected. Individual genetic responses to 
radiation at this level are very different, and there may well 
be a genetic difference among individuals. We are 
mathematically modeling radiation risk, as well.
    We have received about 50 proposals for new research that 
will be peer reviewed later this spring. New emphasis for this 
research is to look at whole systems, rather than single cells. 
This peer review process will be done fairly and independently. 
As a consequence, those projects selected will be on the basis 
of scientific merit alone.
    Senator Domenici. But, Doctor, while I appreciate your 
knowledge on it and the fact that it is very widespread and 
exciting, on the other hand, the importance of this is to 
determine at a point in time, sometime, whether or not that 
formula is the right one to be using for low-level radiation 
doses.
    As you know, that formula has supplied the information for 
nigh on decades now as to what the negative effect might be of 
a certain dosage of low level radiation. The consequence of 
that might not seem like much, as we discuss here, but it is 
generally perceived as dramatic in America.
    It determines how much cement you have to put on a site 
that has once been exposed to low level radiation, so there is 
no fear on the other side of it. It establishes cleanup 
standards for all of the waste sites, because there has been 
such enormous fear that if that formula has been used and what 
we have done by way of spending money and the like to assure 
safety is rather extravagant even to an undisciplined eye and 
ear and mind, and now we have to kind of prove it over the 
years or we have the constant excessive costs that are 
attributable to the residue of nuclear activity.
    So where are we in that regard? Five more years? Ten more 
years? Will we come to some finality, as I have described it 
here?
    Dr. Orbach. I believe we will achieve a finality. I would 
like to provide for the record our best estimate of when we 
might be able to achieve that. What we have already discovered 
is what you have just stated, namely that the extrapolation is 
not an accurate way of describing the effects of low-level 
doses of radiation. To make that quantitative into standards of 
the sort you described, I would----
    Senator Domenici. It would be awhile.
    Dr. Orbach [continuing]. Need to look at it, and I will 
respond back to you with that.
    [The information follows:]

                  Low Dose Radiation Research Program

    The Low Dose Radiation Research Program has the challenge of 
conducting research that will inform the development of future national 
radiation risk policy for the public and the workplace. The Program has 
challenged scientists to quantify and understand the mechanisms of 
molecular and cellular responses to low dose exposures to radiation, 
currently 0.1 Gee (10 rads) or less, doses well below those previously 
studied using older, less sensitive research tools. Indeed, for the 
first time, some of our scientists have actually been conducting 
research at radiation doses that overlap or approach the maximum 
allowable radiation doses above background for the public (100 mrem/
year above background) or for nuclear workers (500 mrem/year above 
background).
    Mathematical models are, and will continue to be, used to predict 
health risks from low doses of radiation by ``integrating'' information 
obtained from human epidemiologic studies and from laboratory research. 
Beginning in 1999, we asked an initially skeptical research community 
to study biological effects at very low doses. They have risen to the 
challenge with increasingly important and relevant ideas submitted and 
progress made each year. Most scientists in the field believe that we 
still do not know enough about the biological consequences of low dose 
radiation exposure to be able to completely model human health risk. 
However, this year the Low Dose Program is challenging scientists in 
the risk modeling community to begin a systematic evaluation of how the 
new data from research in this program can (or cannot) be used in new 
mathematical models that estimate the health risks of low dose 
radiation exposure. The program issued a call for new research, DOE 
Notice 03-20, on February 19, 2003, that builds on our previous 
research and is designed to jump start this process of biologically-
based risk modeling. This exciting new research opportunity will also 
provide valuable feedback on additional laboratory research that is 
needed to make biologically-based risk modeling a reality.
    Our best estimate of the time required to reach sufficient 
understanding of the biological consequences of low dose radiation 
exposures to resolve the uncertainty and controversy surrounding the 
use of the linear no-threshold model is based on current budget levels, 
progress we have made to date, and the anticipated progress of current 
and future research. The new modeling research that will be funded 
later this year will require approximately 1\1/2\ to 2 years to 
complete. The results of this research will lead to new laboratory-
based research aimed to fill remaining critical gaps in the information 
needed to develop the new biologically-based risk models for radiation 
exposure, a process that typically takes 3 years. Finally, results of 
this research will again be used to develop improved biologically-based 
risk models. Under current levels of funding, we estimate a total of 6 
to 7 years is required to accomplish the research described above.
    Given budget uncertainties as well as the uncertainties of 
research, progress could be somewhat faster or slower. As scientists, 
we never know if the next experiment will yield an unexpected 
breakthrough. If one or more critical breakthroughs occur over the next 
few years, progress could certainly be faster. At the same time, we 
cannot know for certain prior to the completion of ongoing and planned 
research if additional research will be necessary. If another round of 
laboratory research and modeling is required at the end of the process 
described above, it could, instead, be closer to 10 years before we 
have a definitive answer. We are certainly encouraged by progress that 
has been made to date and anxiously await the research results that 
will be forthcoming in the future.

    Senator Domenici. I would like to know that. And, sir, I 
would also like to know that for those who have complained 
about it not being the right way to do it--and I would like to 
hope that every step of the way you have gone to the scientific 
community and attempted to get the right answer. See, this is 
the real Achilles heel for the anti-nuclear people. The anti-
nuclear people do not want this study to succeed, because so 
long as that formula is used, it is enormously expensive to do 
anything that has low-level radiation.
    And if it is wrong, which most scientists say it is, we 
ought to conclude that it is. So some would like you not to 
succeed. And I urge you, as the head person, to be aware of 
that and make sure that it is succeeding.
    Dr. Orbach. I commit myself to that. This is a study based 
solely on the science, on the quality of the science. And the 
judgments will be on that basis alone.
    Senator Domenici. Now you have another part of the 
science--Senator, would you like to participate? Do you want to 
make an opening statement or ask questions?
    Senator Dorgan. No. I am just listening to you. As soon as 
you are finished, I will ask some questions. But why do you not 
proceed?
    Senator Domenici. Thank you.

                              NANOSCIENCES

    You have another very exciting activity within your domain 
of the nanoscience centers. Now there is no question that 
scientists that know, obviously including the great Dr. Davis 
who you have alluded to from Rice University, I believe, that 
got the Nobel because of research on nanoscience--and that was 
in the very early stages, very early determinations. But they 
have all concluded that this is something very fundamental in 
terms of its capacity to offer new and exciting things to be 
done and ways to do things going beyond the atomic structure 
that we currently assume is part of everything. We go inside of 
it, which is the nano part.
    Now we have five centers. One is in my State, a combination 
of Sandia, Los Alamos, an Air Force laboratory? Then you have 
four more?
    Dr. Orbach. Yes.
    Senator Domenici. Now are you in charge of those centers, 
or how are they being managed?
    Dr. Orbach. Yes, my office is in charge of those centers. 
They are administered through the Basic Energy Sciences Program 
within the Office of Science. All five of those centers were 
accomplished through, again, a peer review process. Each of 
them have held open workshops of the order of 400 scientists 
coming to each of the workshops. We have just had a very large 
meeting last week in Washington to talk about the initiatives.
    Each of the five, although, obviously, there has to be 
overlap, because some of the fundamentals are similar, choose 
their own areas of expertise where they can make the greatest 
contribution. The two laboratories in your State, for example, 
will be looking at the nano electronics area. This is because 
of the extraordinary expertise that both Los Alamos and Sandia 
have in that area. They will be looking not only at 
electronics, but also photonics, at the nano scale.
    So what we do is to build on the local strength of the 
laboratories to focus on specific areas of interest. The Luhan 
Center at Los Alamos is now the largest spallation source for 
neutrons in the United States, and that is closely coupled to 
the nanotechnology initiative. So we can do, not only 
statistics, but also dynamics in situ while the materials are 
being grown.
    We also are pursuing similar approaches using our light 
sources, or the spallation neutron source that is under 
construction at Oak Ridge.
    So each of the centers has its own flavor and its own 
focus. This will give the United States leverage over any other 
country in the world because, where it is true that each 
country is investing in what I call table-top nanotechnology, 
the United States is using very large facilities in intimate 
relationship to the nanotechnology growth and determination, 
physical property determination, centers so that, as we grow 
them, we can study their properties.
    This is something that no other country will have access to 
on their own soil and will give, we believe, American 
scientists and engineers and our companies a great advantage.
    Senator Domenici. And those centers are funded, albeit in 
small amounts, in this budget.
    Dr. Orbach. Yes, the three centers are funded for 
construction, including the one in New Mexico. The other two 
centers are either in the engineering design stage at 
Brookhaven National Laboratory, or we have an arrangement with 
the State of Illinois where they will build a building at 
Argonne and we will provide the equipment.
    So the latter two are in the initial stages. By 2008 all 
five laboratories are expected to be up and running.
    Senator Domenici. They had a meeting here, did they not, 
pretty recently, the nanoscientists?
    Dr. Orbach. Yes, indeed.
    Senator Domenici. I was there.
    Dr. Orbach. I think you were one of the principal 
spokesmen.
    Senator Domenici. Let me ask, on the other part of little 
things, microengineering, is that a specialty within the 
Department, or are those things being done just by the 
laboratories on microengineering or micromachines?

                             MICROMACHINING

    Dr. Orbach. The micromachining is an integral part of this. 
It is a way of getting down to the nano scale.
    Senator Domenici. Yes. I understand.
    Dr. Orbach. It is being funded by ourselves, as well, yes.
    Senator Domenici. Have you seen a micromachine put on a 
chip?
    Dr. Orbach. I have seen the micromachines producing chips. 
I do not think I have seen one on a chip. That is wonderful.
    Senator Domenici. Have you seen--you have not seen a micro 
engine working on a chip?
    Dr. Orbach. Oh, yes, indeed. You can produce little motors 
now at the micron level or submicron level, which is very 
exciting.
    Senator Domenici. And you know how you have a chip now that 
has all the different things we talk about being on there? 
Micromachines are now so small and so controlled that you take 
a piece of material, much like the foundation of a chip, and 
you put on it scores and scores of little, tiny engines. And 
they are called microengines. And when they put the proper 
machinery on it to expand the size, you can actually watch 
these little, tiny, tiny machines work. They work just like a 
turbine, in and out. And they are trying to figure out in due 
course what you will use them for.
    Dr. Orbach. Oh, these have phenomenal applications. For 
example, in medicine----
    Senator Domenici. Right.
    Dr. Orbach [continuing]. These machines can be placed 
inside the body at the cellular level.
    Senator Domenici. Right.
    Dr. Orbach. Very exciting.
    Senator Domenici. And you may properly instruct the machine 
so that, for instance, they will remove the plaque in your 
heart instead of having surgery. At least they are thinking 
about that kind of thing.
    Let me complete just two more questions, and then move to 
nuclear. And then I will yield to the Senator.
    Let us talk about nuclear for a minute, one more with you. 
Who is in charge more or less of moving ahead to see that the 
United States is not, on the one hand, moving with a hydrogen 
engine and on the other hand leaving us without a way to make 
hydrogen in large quantities? We do not find hydrogen around. 
We have to go make it.
    And my understanding is, right now, there are only a couple 
ways to make it. One is natural gas. And we surely would not 
want to do that, I would not think. By creating huge new uses, 
there is going to be a shortage of natural gas soon. And the 
other would be some kind of nuclear reactors. Is that your 
area, or your area, or whose?

                                HYDROGEN

    Mr. Garman. Actually, we are working on it together.
    Senator Domenici. Who is together?
    Mr. Garman. In the Department of Energy, the Office of 
Science, the Office of Energy Efficiency and Renewable Energy, 
the Office of Nuclear Energy, and the Office of Fossil Energy 
are all working together in a coordinated way. We have, in 
fact, been producing what we call our hydrogen posture plan, 
which is a way to describe to the Congress and the world 
precisely how we are working together to tackle some of the 
daunting technological challenges that we face, not only in 
production, but in storage.
    There is no one entity in the Department that should do 
that. We do hydrogen, but we depend on the work in his lab, for 
instance, to find a breakthrough in a hydride material to solve 
a storage problem. So we are going to work very closely 
together on all of these issues.
    Senator Domenici. Well, it should not surprise you, if we 
do an energy bill, and we are well on the way to having one 
written, we are surely going to have a major section on the 
research and development of the car engine and whatever the 
United States is going to need to produce the hydrogen in the 
future.
    Senator Dorgan. Senator, would you mind if I could ask a 
question about that?
    Senator Domenici. Go ahead.
    Senator Dorgan. I have to be upstairs at 3:30.
    Senator Domenici. Sure.
    Senator Dorgan. If I would be able to ask a question 
following up on the one you just asked----
    Senator Domenici. Go ahead.
    Senator Dorgan [continuing]. And then perhaps one of Dr. 
Orbach, as well.
    The issue of hydrogen production is one in which you can 
produce hydrogen from natural gas. You can also produce 
hydrogen from nuclear. But hydrogen is ubiquitous. It is 
everywhere. You can produce hydrogen through electrolysis by 
separating the hydrogen and oxygen in water. In fact, this past 
weekend I rode on a commercial bus that was on the city streets 
of a city out west that was a fuel cell bus being powered by 
hydrogen. The supply of hydrogen on a demonstration basis came 
from several different sources; one from solar energy, second 
from electrolysis, third from natural gas. And there are many 
other ways to produce hydrogen, as well.
    But Mr. Garman is quite correct, that we need to evaluate 
both production, transportation, and storage, all of which are 
important in moving towards this area.
    And I agree with you, Mr. Chairman, that stationary engines 
are important, as well as the issue of how to use fuel cells to 
power vehicles. And I am really anxious to work with you on 
this. I think we can make a real difference, both on the Energy 
Committee and also on the Appropriations Subcommittee dealing 
with these issues.
    Senator Domenici. We will.
    Senator Dorgan. The President has put his administration on 
course in support of this, which I think is very important. I 
have indicated I think it is timid in terms of funding, but I 
do not mean that as a heavy criticism, because it is no small 
feat to have this administration say, ``Let us move in this 
direction.'' I just want to make that point, because I am very 
excited about this and want to work with Mr. Garman and you and 
others on it.
    Can I just ask a question about the funding of other 
renewables? I asked you the question the other day, Mr. Garman, 
and indicated my concern about reduction in funding of biomass, 
level funding or slightly reduced funding in solar, wind, and 
some other areas. Has the decision to move toward fuel cells or 
a hydrogen-based economy meant that you have had to reduce what 
otherwise would have been provided for other renewables?

                            OTHER RENEWABLES

    Mr. Garman. No, sir. I do not believe it has. We looked at 
each of these programs independently. After you apply the 
congressionally-mandated reductions to the 2003 levels, funding 
for solar is down $4.1 million. But we still have $80 million 
to work with. Funding for wind is down $700,000. So we still 
have a very robust request in this area. In hydropower, funding 
is actually up a couple million dollars. And in geothermal 
funding, it is down $3.4 million. But again, we still have a 
robust $25.5 million program to work with.
    We do have a significant reduction in the biomass program 
of some $17 million in this account. That is substantial. We 
think that with the availability of the Department of 
Agriculture money, which was not available to us before, and 
the fact that we are revamping and restructuring this program 
to achieve greater results with the money we have, we have a 
very strong and vibrant biomass program. The biomass program is 
emerging to be the strongest it has been in years.
    Senator Dorgan. Well, some of us want to watch those 
renewable programs carefully. I am pleased you are there. I 
have a lot of confidence in your ability.
    Mr. Chairman, Mr. Garman came out to North Dakota and spoke 
to a wind energy conference. Seven hundred and fifty people 
showed up at a wind energy conference. They are very, very 
interested in the possibilities there.
    So, Mr. Garman, I look forward to working with you on a 
range of these issues.
    I would like to ask Dr. Orbach, you were at Riverside, as I 
recall----
    Dr. Orbach. Yes.
    Senator Dorgan [continuing]. Prior to this appointment. And 
we have talked previously about micro and nanotechnologies. I 
note the five centers. And I note the granting process that you 
are involved in with grant funds. You are well aware of my 
concern about where the grants in this country go from the 
Federal Government. We have a process that is kind of a 
perpetual process of renewal. Those large institutions that get 
the grants will always get the grants, because they are the 
major part of the peer review of who is going to get grants in 
the future.
    If you take California, Texas, Massachusetts, and New York 
and take a look at the amount of research money that goes from 
the largest researcher in the world, that is, the Federal 
Government, to those States, it predicts where future economic 
opportunities and future centers of excellence will be. And so 
I am very concerned about making sure that the great talents in 
the rest of the country are put to use on micro and 
nanotechnologies, as we proceed. And I know you are familiar 
with that, given the work that you were interested in at 
Riverside. I hope that you will keep that in mind in your 
current position as well.
    In your testimony, you say the two major achievements for 
2002, and you talk about them. Can you give me a notion of what 
you think you might be telling the committee next year about 
the two major achievements for 2003? What is out there that you 
think is really fascinating, right on the edge, that is going 
to be something that represents significant breakthroughs?

                          SCIENCE ACHIEVEMENTS

    Dr. Orbach. Well, if I could address the first part of your 
question, because I feel very strongly about it. Our 
responsibility in our office is to our Nation. If we are not 
careful, we are going to leave States behind in economic 
development. I have been working very hard through EPSCoR 
through the other programs we have in the Federal Government, 
to encourage economic development for every State.
    Your State has some absolutely first-class people and 
investments. The investment that I visited personally at North 
Dakota State University was impressive. Your Caterpillar 
relationships up there already show that you can work and work 
well.
    The program I was involved in was a sharing program between 
the North Dakota State University and the University of 
California Riverside. That program is underway. We are 
encouraging in the nanotechnology area scientists from all over 
the country to participate. And it is hard when the facilities 
are not available immediately and locally. So we are 
encouraging partnerships to enable that to happen. You will see 
me work very assiduously on the spreading of economic 
development opportunities across this Nation. Otherwise, we 
will leave States behind, and that is not acceptable.
    If you ask a scientist what is going to happen in a couple 
of years, it is always with some trepidation that they will 
respond, because we have been wrong so often in our 
expectations.
    I can say that there will be something exciting at this 
hearing next year. My guess is that it will be in the 
biological area, for example, Genomes to Life. The work there 
on hydrogen production, carbon sequestration, the new 
initiatives that we are looking at in the nanotechnology area 
in biology are going to be extraordinary.
    Some of our large machine designs are also coming along. 
The light source at Stanford, which is a free electron laser, 
will increase the intensity in the X-ray, hard X-ray region by 
10 orders of magnitude. We may enable biologists to be able to 
look at a single molecule and determine structure, rather than 
having to grow a single crystal, as they do now.
    Senator Dorgan. Do you have one publication, Dr. Orbach, 
that describes some of the really interesting areas of 
research?
    Dr. Orbach. Yes, we do. I would be delighted to provide 
that to you. Thank you.
    [The information follows:]

                       Accomplishments and Awards

                  BASIC RESEARCH WITH HISTORIC RESULTS

    The Office of Science maintains our Nation's scientific 
infrastructure and ensures U.S. world leadership across a broad range 
of scientific disciplines. It supports research and development 
programs enabling the Department of Energy to accomplish its missions 
in energy security, national security, environmental restoration, and 
science.
    Office of Science research investments have yielded a wealth of 
dividends, including significant technological innovations, medical and 
health advances, new intellectual capital, enhanced economic 
competitiveness, and improved quality of life for the American people.
    Research supported by the Office of Science has made major 
contributions to development of the Internet; magnetic resonance 
imaging (MRI) and medical isotopes; composite materials used in 
military hardware and motor vehicles; and x-ray diagnostics of computer 
chips and other high-tech materials.
    Office of Science research investments also have led to such 
innovations as the Nobel Prize-winning discovery of new forms of 
carbon, non-invasive detection of cancers and other diseases, improved 
computer models for understanding global climate change and new 
insights on the fundamental nature of matter and energy.
    Research sponsored by the Office of Science has produced many key 
scientific breakthroughs and contributed to this Nation's well-being:
  --Helping to Develop the Internet
  --Computing for Science's Sake
  --Pioneering the Human Genome Project
  --Expanding the Frontiers of Discovery
  --Improving the Science of Climate Change Research
  --Enhancing National Security
  --Improving Energy Security
  --Medical Imaging
  --Restoring Sight to the Blind
  --Enabling World-Class R&D

                    HELPING TO DEVELOP THE INTERNET

    The Office of Science helped develop the Internet. Really!
    In 1974, the Office of Science first connected its geographically 
dispersed researchers through a single network, a revolutionary, cost-
effective mechanism that provided supercomputing power to civilian 
researchers and established a network model adopted by other Federal 
Government agencies and States for their researchers.
    Later, the Office of Science collaborated with DARPA, NSF and NASA 
to transform the many independent networks of the 1980's into a single 
integrated communications network that was the basis for today's 
commercial Internet.
    More recently, the Office of Science created the multicast backbone 
(M-Bone), the Internet videoconferencing virtual network that launched 
a new era in scientific collaboration in the early 1990's by linking 
anyone with a workstation with audiovisual capabilities and a high-
speed connection to the Internet.

                      COMPUTING FOR SCIENCE'S SAKE

    The Office of Science long has been respected as the world leader 
in developing and using advanced computers as tools for scientific 
discovery and to achieve breakthroughs in targeted applications 
disciplines.
    It pioneered the transition to massively parallel supercomputing 
(involving 1,000 or more processors), producing the software, scalable 
operating systems and other technologies needed and demonstrating its 
value in fields ranging from seismic imaging to materials modeling.
    The Office of Science also installed the first supercomputer 
available to the civilian research community that broke the peak 
performance barrier of 1 teraflop--or a trillion operations per 
second--and developed the first civilian scientific application to 
achieve actual performance over 1 teraflop.

                  PIONEERING THE HUMAN GENOME PROJECT

    The Office of Science initiated the Human Genome Project in 1986.
    It also developed DNA sequencing and computational technologies 
that made possible the unraveling of the human genetic code and 
published a complete draft of the DNA sequence of the human genome in 
2001.
    This historic undertaking to discover the genetic blueprint of 
human beings will enable scientists to identify more genes responsible 
for diseases and develop new and diagnostic and treatment 
possibilities.
    Now the Office of Science is harnessing the biotechnology 
revolution to develop clean energy and repair damage to our environment 
through the Genomes to Life Initiative.

                  EXPANDING THE FRONTIERS OF DISCOVERY

    The Office of Science funded the research that led to one of the 
great intellectual achievements of the 20th century: the discovery of 
all but one (the electron) of the most fundamental constituents of 
matter, namely quarks and leptons, which confirmed the Standard Model--
physicists' current theory of matter and the forces of nature--and led 
to 13 Nobel Prizes.
    The Office of Science supported the 1996 Nobel Prize-winning 
discovery of a new form of carbon, known as ``Bucky Ball,'' which is 
spurring a revolution in carbon chemistry and may lead to a profusion 
of new materials, polymers, catalysts, and drug delivery systems.
    Now the Office of Science is underwriting research to solve the 
mystery of ``dark energy,'' perhaps responsible for the remarkable 
recent finding that the expansion of the universe is accelerating, 
rather than slowing due to gravity as expected.

            IMPROVING THE SCIENCE OF CLIMATE CHANGE RESEARCH

    The Office of Science initiated the Climate Change Research Program 
in 1978 to evaluate the environmental and health consequences of long-
term energy solutions. This was the first research program in the U.S. 
to investigate the effect of energy-related emissions of greenhouse 
gases, especially carbon dioxide, on climate and the environment.
    The Office of Science also has developed software and computer 
systems to model and simulate environmental conditions and project 
climate change under varying emissions scenarios.
    The Office of Science's climate change research program is the 
third largest in the United States--and the only one that is focused 
specifically on improving the scientific basis to understand, predict, 
and assess the effect of energy-related emissions on climate and the 
environment.

                      ENHANCING NATIONAL SECURITY

    The Office of Science has funded research leading to technologies 
that make our lives safer in many ways. These include:
  --neutron detectors that can identify concealed nuclear weapons and 
        land mines and are used for arms control and nonproliferation 
        verification;
  --new holographic computerized imaging technology that identifies 
        hidden weapons, even non-metallic ones, through the clothing of 
        airline passengers;
  --smoke detectors that sense smoke by detecting changes in the 
        ionization of the air; and
  --advanced sensors that can detect explosives, narcotics, and 
        chemical and biological agents--and many other innovations that 
        will contribute to homeland security.

                       IMPROVING ENERGY SECURITY

    The Office of Science has contributed to improved energy savings 
through several discoveries, including:
  --lithium batteries that offer high-energy storage capacity and an 
        environmentally benign alternative to the harmful lead used in 
        conventional batteries;
  --new and improved metals, plastics and other composite materials 
        used in military hardware and motor vehicles; and
  --superconducting wires that can lead to more efficient types of 
        power generation, transmission, and electrical devices--and 
        thereby save energy and reduce emissions.
    In addition, the Office of Science's research into fusion energy is 
poised to pay big dividends. Scientists are figuring out the way the 
sun and stars produce their energy--and that can have broad 
applications for mankind, since fusion power holds important promise as 
a clean, inexhaustible energy source.

                            MEDICAL IMAGING

    The Office of Science is responsible for key advances in positron 
emission tomography (PET) and magnetic resonance imaging (MRI), which 
permit non-invasive and improved detection and diagnosis of medical 
conditions.

                      RESTORING SIGHT TO THE BLIND

    The Office of Science is now sponsoring research and development of 
an artificial retina, which can restore sight in blind patients with 
macular degeneration, retinitis pigmentosum, and other eye diseases.
    A microelectronic chip implanted in the eye captures light signals 
and visual information, bypasses damaged photoreceptors, and 
electrically stimulates viable layers of the retina, thereby enabling 
the blind to see.

                        ENABLING WORLD-CLASS R&D

    Throughout its history, the Office of Science Development has 
designed, constructed and operated many of the most advanced research 
and development facilities in the world, which keep the United States 
in the forefront of scientific discovery and technological innovation.
    These include neutron scattering facilities, synchrotron radiation 
light sources, the superconducting Tevatron high-energy particle 
accelerator, the world's first linear collider, the continuous electron 
beam accelerator, the relativistic heavy ion collider (the highest-
energy ``atom smasher'' in the world) and a Tokamak fusion test 
reactor.

    [Clerk's Note.--Attachments included with the preceding 
information have been retained in subcommittee files.]
    Senator Dorgan. Well, let me again say I will be anxious to 
work with you.
    And, Mr. Chairman, thank you for allowing me the 
opportunity to----
    Senator Domenici. You are welcome.
    I noticed when you mentioned the location of these science 
facilities, you mentioned the four big States. One little State 
does all right, New Mexico.
    Senator Dorgan. I just did not want to advertise it.
    But I know how well New Mexico does, Mr. Chairman.
    Senator Domenici. That is because we have those big nuclear 
laboratories and have to put up with all that nuclear stuff for 
so long. Such a terrible burden; that is what some people 
think. They want to close them up. If they have any more Los 
Alamoses or Sandias, open them up in our State. That would be 
fine.
    I am just kidding, you understand.
    Let me just say to all of you that I am very, very pleased 
with the way the whole Department is growing in terms of 
science. I am somewhat concerned that we move ahead as quickly 
as possible in the nuclear research areas, because there seems 
to me to be no way out for us and for the world but to find a 
new generation of nuclear power plants.
    And, Mr. Magwood, I know that you are charged with that. 
And we will try in our new energy bill to even broaden that 
authority and move on with it. You are charged under the Energy 
Department to move ahead with the next generation. You call it 
nuclear power IV. What does that phrase mean in terms of moving 
ahead with that research?

                      GENERATION IV NUCLEAR ENERGY

    Mr. Magwood. I think you are referring to the Generation IV 
Nuclear Energy Systems Initiative.
    Senator Domenici. Correct.
    Mr. Magwood. While we have very good technologies available 
today that are available to the market, the technologies such 
as the AP 1000, the ABWR from U.S. companies, and others that 
are available internationally, there is a prospect that we 
might be able to develop new advanced technologies that deliver 
on the original promises of nuclear energy, that is, 
technologies that are incredibly safe and present no 
conceivable hazard to people outside of the plant site, 
technologies that are extraordinarily economic and competitive 
even with natural gas, and technologies that eliminate the 
issues about proliferation.
    We believe this is possible in a new generation of 
technologies. What we have accomplished so far is that the 
international community has agreed on what those technologies 
might be. Now is the time, as you have mentioned, to move from 
the planning stage, now that we have decided what those 
technologies could be, to the laboratory and ultimately to the 
field to prove that these technologies work.
    Senator Domenici. Well, do you feel comfortable with the 
level of funding in the budget? Are there one or two items that 
you would like to share with us, either on the record or later, 
that are of importance to you with reference to being 
underfunded, as far as moving us forward in the nuclear area?
    Mr. Magwood. We really are on the very beginning of what I 
think is a very exciting time for our activities. There are 
things that we will be able to do as time goes on that will 
require more funding. For where we are right now, I think we 
are doing okay. I am very pleased with the budget request that 
we have put forth. I believe that as our plans become public, 
there will be opportunities in the future that will require 
additional resources, but I think well-deserved resources.

                          DOMESTIC ENRICHMENT

    Senator Domenici. Let me just stay with you for a minute. 
The Department has commented on the need for a new domestic 
enrichment capacity as a means of maintaining a reliable and 
economical U.S. enrichment industry. One of the ventures that 
is being bantered around as an opportunity to accomplish this 
is led by the European consortium of Urenco, a company with a 
proven record in centrifuge enrichment technology. I know that 
you are familiar with that company and with that process, are 
you not?
    Mr. Magwood. Yes, I am.
    Senator Domenici. Do you have any concern that the efforts 
of Urenco to build a new facility in the United States would in 
any way pose a national security concern?
    Mr. Magwood. No, none at all.
    Senator Domenici. Do you believe that the development of 
new enrichment capacity is sufficiently important to the United 
States, as far as our energy security, that the development of 
this facility by Urenco should be encouraged and facilitated by 
the Department of Energy?
    Mr. Magwood. Absolutely. We are doing everything we can to 
help at this stage.
    Senator Domenici. That is already happening.
    Mr. Magwood. Yes.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. I thank you. And I thank all of you. And 
the questions we give you, please answer them as soon as you 
can.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

 INTERNATIONAL THERMONUCLEAR EXPERIMENTAL REACTOR PROJECT WITHIN FUSION

    Question. Dr. Orbach, each of the sub-programs funded under your 
office are looking and planning towards substantial new research 
investments or construction of the ``next big user facility'' that will 
occupy the construction wedge that has been filled in recent years by 
the SNS construction project, and will be filled in the next few with 
the construction of the nanoscale science centers. Almost all of these 
projected expenditures are beyond what is contemplated in the projected 
baseline for the Office of Science. I would like to go over some of 
those with you.
    Dr. Orbach, you've outlined the Administration's recommendation for 
the United States to rejoin the international fusion energy 
experimental program, called ITER (for the International Thermonuclear 
Experimental Reactor.) Our participation in ITER will cost $1 to $1.5 
billion over the next 10 years. The Administration has proposed taking 
a very timid step down that path by requesting only $2 million for 
fiscal year 2004. When will the big expenditures come?
    Answer. Assuming that the negotiations proceed as planned, 
construction of ITER is currently planned to start in 2006, so we would 
expect to request construction funding in our fiscal year 2006 budget 
proposal. Also, the Administration has requested $12 million for fiscal 
year 2004.
    Question. Why should the Congress or our international partners for 
that matter, believe the Department will secure the resources to both 
make our international contributions and maintain a healthy program 
here in the United States?
    Answer. Secretary Abraham has stated publicly his intention to 
request additional funds for the construction of ITER as well as for 
the maintenance of a robust domestic fusion program. Further, President 
Bush said on February 6, in the context of the Hydrogen Fuel 
Initiative, that he looked forward to working with you on a successful 
effort on the ITER project.
    Question. Is the Administration prepared to request the increased 
budgets in future years to meet this large commitment without 
negatively impacting other Science programs?
    Answer. The Administration will continue to request budgets that 
honor our commitment to the ITER project while maintaining a strong 
research program across the Office of Science.
    Question. Since ITER represents only one of several promising 
fusion research directions, will the Department continue to fund 
alternatives to the ``tokamak'' path towards fusion that is the focus 
for ITER?
    Answer. Yes, the Secretary restated his commitment to a robust 
domestic program as he announced the President's decision to join the 
ITER negotiations. Part of that robustness is the continuation of our 
program in innovative confinement concepts as we strive to prepare for 
the most attractive energy embodiment of fusion in the future.

                           ADVANCED COMPUTING

    Question. Last year, Japan raced ahead of the United States in the 
high-performance computing wars when it completed the world's fastest 
computer--the 40 teraflop Earth Simulator. As you are aware, the 
Japanese Earth Simulator was based on vector architecture that the U.S. 
supercomputing industry had largely abandoned. What does the United 
States need to do to catch up?
    Answer. As you may know, much of the U.S. computer industry takes 
exception to premise that we have lost leadership (broadly defined) in 
high-performance computing because of a single Earth Simulator. 
Nevertheless, I take your question as addressing leadership in the 
areas of computational science for which the Earth Simulator has been 
designed, such as climate change. To revitalize and/or ensure ongoing 
U.S. leadership in strategic areas of computational science, we need to 
initiate an aggressive R&D program based on a strategy to deliver world 
class supercomputers for scientific applications. The program must be 
coordinated with DOE-NNSA and other Federal agencies with high-
performance computing missions, to leverage existing investments in 
high performance computing and to establish a single, inter-agency 
strategy for high-performance computing. We expect to participate in 
this endeavor by supporting academic researchers, national laboratory 
scientists and engineers in partnerships with the U.S. computer 
industry to tailor computer designs and to provide the software 
programming infrastructure needed to ensure maximum performance of 
codes on complex scientific systems. We need to establish a computing 
capability to solve key DOE civilian science mission problems that is 
at least a factor of 50 greater than the present.
    Question. What kind of supercomputing platforms do you need for the 
types of problems you are challenged with in the Office of Science?
    Answer. Our computational scientists need supercomputing platforms 
that are easy to use and are free of the bottlenecks that presently 
constrain the performance of their codes on scientific applications. 
Due to the breadth of the Office of Science research portfolio, we 
envision our high-performance computational needs will be met by a 
suite of super computer architectures and software programming 
environments. We expect this suite of architectures will consist of 
high-performance variations of scalar systems, vector architectures and 
approaches that are currently considered novel.
    Question. How will you get them and how much will it cost?
    Answer. We will foster the development of these systems by working 
with all interested U.S. vendors to influence future offerings to meet 
the needs of our computational scientists. Supercomputer platforms will 
be acquired based on a competitive evaluation and review of systems 
offered by vendors. Performance on actual scientific applications will 
be one of several review criteria. Before we are in a position to 
evaluate prospective systems, we need to embark on a long-term 
commitment of establishing research partnerships between application 
scientists, computer scientists and supercomputer designers.
    Although we expect to take advantage of commercial market drivers 
whenever feasible, we do recognize that these supercomputing platforms 
are likely to be in the specialty category of vendor offerings. 
Therefore, it is conceivable that each supercomputer platform could 
cost several hundred million dollars. Future special purpose 
architectures targeting certain applications might be cheaper if the 
full suite of partnerships mentioned above were supported.
    Question. Credible experts argue that we will need to spend an 
additional $500 million over what we have planned for the next 4 years 
in order to catch-up. Do you agree?
    Answer. The Administration is still in the process of developing a 
government-wide strategy for high-end computational science, so it is 
premature to directly answer your question.

                           NANOSCALE RESEARCH

    Question. In fiscal year 2003, the Congress added $4.5 million to 
begin construction of the Center for Integrated Nanotechnology in my 
home State of New Mexico. This year, I am pleased to see the Department 
request $30 million more for the construction of this $75 million 
facility. The Department is also proceeding with construction of four 
other centers around the country. I am concerned that the current 
Science baseline budget does not include sufficient research dollars to 
effectively utilize the five nanoscale centers that will be constructed 
over the next few years--requiring an additional $350 million over the 
next 3 years. Are we building too many centers, too fast, without 
planning for the resources to utilize them?
    Answer. The five Nanoscale Science Research Centers that are under 
construction (one joint with the State of Illinois) as well as their 
subsequent operations funding which includes user support and research 
support are all accommodated within the Science baseline budget 
presented in the President's Budget Request. These Centers are a high 
priority for the Administration and the Department, because they offer 
unique capabilities and build on the investments in the major 
synchrotron radiation light sources and neutron scattering facilities 
that are already in place at the Department's laboratories.

              GENOMES TO LIFE AND OTHER FUNDING SHORTFALLS

    Question. The Department wants to grow the ``Genomes to Life'' 
program in a way that will realize the promises of the Human Genome 
Project, but that will require $850 million to build the necessary 
research facilities. In addition, you have expressed your desire to 
grow the Science Teacher Workforce Development program. Furthermore, we 
are always under pressure to provide additional money for better 
utilization of our existing science facilities. So, my questions to you 
are as follows. How do we find the resources to do all of these things? 
Or have we ``bitten off more than we can chew''?
    Answer. The President's budget request before the Congress 
represents a substantial step in allowing us to exploit the scientific 
opportunities before us. The programs that you mention are multi-year 
efforts, and we have to continue to prioritize and make tough choices 
in these times of constrained budgets. The completion of some projects, 
along with reduced funding requirements for the Spallation Neutron 
Source effectively provides a 5 percent increase in funding for 
science, allowing us to strengthen our research programs while also 
increasing operating times at our user facilities, and beginning a new 
pilot program at Argonne National Laboratory to train K-14 science and 
math teachers.

                           SCIENCE EDUCATION

    Question. Dr. Orbach, I appreciate the emphasis in your testimony 
on a $1 million pilot program for improving the science and math 
qualifications of teachers in our K-14 educational system in answer to 
the President's call for ``qualified teachers in the classrooms.'' As 
you know, such programs were conducted some years ago by the DOE. I 
know from many personal testimonies that these programs were highly 
successful in New Mexico. I really question whether you need any pilot 
program at all. My recommendation is that you simply restart the 
successful programs of a few years ago at levels far higher than $1 
million. Would you be willing to provide an estimate of how large a 
program the Department could undertake in fiscal year 2004 in this 
vital area?
    Answer. Our National laboratories have continued to support 
fellowship and internship opportunities through their education and 
workforce development offices. In most respects, these offices have 
dramatically improved in their quality assurance and efficiency. Our 
entire application, placement, tracking and evaluation system is 
online. The President's fiscal year 2004 request allows for a robust 
pilot program.

                      FUNDING OF SCIENCE PROGRAMS

    Question. Dr. Orbach, fiscal year 2004 is the third year of 
basically flat budget requests for the Office of Science. I think the 
Department and Administration must start requesting significant 
increases in the budgets for the Office of Science. Since that office 
is the largest supporter of research in most physical sciences, I fear 
that we are seriously jeopardizing the competitiveness of our Nation by 
short-changing developments in these areas. In fact, our rush to fund 
health sciences through the NIH, without comparable funding to the 
Office of Science, may prevent us from realizing our goals in the 
health sciences. After all, many developments in health sciences also 
require advances in the physical sciences, we need strong health and 
physical sciences to truly enable advances. Do you share my concern 
that we must do more to increase the Nation's talent pool in the 
physical sciences and that increased budgets for the Office of Science 
are critically important in future years?
    Answer. Senator, before answering, let me thank you for your strong 
support for science and education. I do share your concern. I believe 
that we need to do whatever we can to encourage U.S. students to choose 
careers in mathematics, science and engineering. It is for that reason 
that our budget request proposes a pilot program for training of K-14 
mathematics and science teachers. I would point out, however, that when 
a combination of reduced requirements for funding in one time programs 
and large construction projects are taken into account, funding for the 
Office of Science in the President's budget requests for fiscal year 
2003 and fiscal year 2004 represented increases for science well above 
the rate of inflation.
    Question. Do you believe the United States is in danger of losing 
its global competitive edge to the Japanese or the Germans or the 
French because the Federal Government has ignored basic research 
funding for the physical sciences?
    Answer. A strong program of basic research in the physical sciences 
and a scientifically literate workforce are essential to the continued 
innovation that underpins our global competitiveness, and I believe 
that the President's budget request for science will fund a strong and 
balanced program of scientific research for the Nation.

                      LOW DOSE RADIATION RESEARCH

    Question. I helped initiate your important program in low dose 
radiation research a few years ago, to try to better determine health 
risks from exposures to low levels of ionizing radiation. This research 
could have far-reaching implications, from improved cleanup standards 
for DOE sites to better appreciation of the risks associated with 
operations involving radioactive materials. With the National Academy's 
seventh study on Biological Effects of Ionizing Radiation (called BEIR 
VII) nearing a conclusion, results from this program are especially 
timely. In past years, this budget has been reduced in budget requests, 
only to be restored by Congress. I appreciate that this year the 
request of $17.5 million is close to the current year level of $17.8 
million. But it's my understanding that the DOE's own program plan for 
this study calls for budgets of about $25 million. Is this work 
advancing the state of knowledge in this critical area at a pace to 
impact the BEIR VII study?
    Answer. Yes, while the Low Dose Radiation Research program is 
effectively in its fourth year of funding and, as you correctly note, 
funding has always been at a level $4 to $8 million below that 
recommended by the Advisory Committee for the Biological and 
Environmental Research program, the low dose program is already having 
a substantial scientific impact. Building on decades of radiation 
biology research we can now study the biological effects of radiation 
with research approaches that are 10, 100, or even 1,000 times more 
sensitive than those previously used. Progress has been made in our 
ability to study lower, more realistic doses of radiation by a 
combination of knowledge from past research, from new, more sensitive 
technology, and from advances such as those provided by the Human 
Genome Project. Today, for the first time, scientists have actually 
been conducting research that overlaps or approaches the maximum 
allowable radiation doses above background for the public (100 mrem/
year above background) or for nuclear workers (500 mrem/year above 
background). The BEIR VII committee bases their report on information 
received from expert scientific testimony and from peer reviewed 
scientific publication. To date, the Low Dose Radiation Research 
Program has resulted in over 190 new papers in the scientific 
literature. The director at the National Academies for BEIR VII is well 
aware of the Low Dose Radiation Research Program and has been given a 
list of publications resulting from the program. Thus, the BEIR VII 
will certainly consider the results of this research program in their 
deliberations.
    Question. And is it resource constrained in its progress?
    Answer. We believe that the original estimate made by the 
Biological and Environmental Research Advisory Committee for a 10-year, 
approximately $220 million research program, while unconstrained by the 
realities of tight budgets, is still a reasonable estimate to optimize 
progress through the normal, iterative process of scientific discovery. 
To date, including the current fiscal year (fiscal year 2003), the 
program has invested approximately $82 million in new low dose 
radiation research.

                  SCIENCE IN AN UNDERGROUND LABORATORY

    Question. Last year there was a review by NSF to explore deep 
underground sites for sensitive nuclear experiments. As part of their 
review, there was strong recognition that some experiments require the 
deepest location--like the Homestake mine--and others benefit more from 
the ultra-low background, ultra-clean conditions, and superb 
infrastructure associated with the Waste Isolation Pilot Plant at 
Carlsbad. I provided funding within the EM budget this year to start a 
neutrino experiment at WIPP. But logically, these experiments should be 
championed within the Office of Science. Will the Office of Science 
seriously evaluate and champion opportunities for key experiments in 
the environment provided by WIPP?
    Answer. The Office of Science endeavors to support the most 
interesting and promising experiments in all fields of basic research 
consistent with its mission. We are aware of scientific opportunities 
presented by a wide range of possible underground experiments, though 
we have not received any formal proposals for such experiments. We are 
also aware that there is an ongoing scientific debate about the 
technical criteria for an underground site that is dependent upon the 
needs the various experiments. Nevertheless, the Office of Science is 
keenly aware of the Waste Isolation Pilot Plant's (WIPP) mission to 
dispose of defense-related transuranic waste to protect human health 
and the environment. WIPP is a critical facility for the Office of 
Environmental Management's (EM) efforts to accelerate cleanup at sites 
across the DOE complex.
    Last year, as ordered by Secretary Abraham, EM completed a top-to-
bottom review of its cleanup program and concluded that significant 
change was required in how the Department attacked risk reduction and 
cleanup of its sites. A major finding of the review was the need to 
realign the EM program so its scope is consistent with an accelerated, 
risk-based cleanup and closure mission. The review team underscored the 
necessity that EM should redirect, streamline, or cease activities not 
appropriate for accelerated cleanup and closure.
    Utilizing WIPP to conduct science experiments, no matter how 
meritorious, would represent a major commitment of EM financial and 
administrative resources for implementation and oversight of these 
activities, which would not be consistent with the Administration's 
accelerated cleanup initiative. A laser-like focus on EM's core mission 
is needed to realize the cleanup of the Cold War legacy in our 
lifetime.

                     GLOBAL CLIMATE CHANGE RESEARCH

    Question. The Department of Energy has had a long-standing role in 
the Global Climate Change research agenda. The White House just 
recently announced a new Global Climate Change strategy. Can you 
describe for me the role that the Department of Energy will have in the 
new White House agenda and the need for enhanced research on Global 
Climate Change that would take advantage of the assets in DOE's 
laboratories?
    Answer. The Department's role in the new White House agenda for 
climate change Research will focus on improving climate models by 
resolving major uncertainties in estimates of the sensitivity of the 
climate system to various factors such as clouds and aerosols. Climate 
change research supported by the Department will also help resolve the 
magnitude and location of the North American carbon sink, and provide 
improved methods and models for assessing the environmental and 
economic costs and benefits of climate change, and of different options 
and strategies for mitigating the change. Enhancements of Global 
Climate Change Research that would take advantage of assets at DOE 
laboratories include climate modeling and ecological processes. 
Enhanced climate modeling research would enable researchers to take 
greater advantage of computing facilities and computer science 
capabilities at DOE laboratories, and to allow climate and carbon cycle 
modelers at DOE laboratories to more fully utilize the data and 
information coming from other DOE climate change research programs such 
as the Atmospheric Radiation Measurement program and Ocean and 
Terrestrial Carbon Cycle Research programs to develop, test, and 
improve fully-coupled climate models. Enhancement of research on 
ecological processes would provide the opportunity to more fully 
utilize the unique interdisciplinary capabilities and facilities at DOE 
laboratories in molecular biology, ecological genomics, ecology, and 
computer modeling and simulation. The research would investigate how 
complex ecological systems respond to climate and atmospheric changes 
and how their capacity to, for example, sequester carbon from the 
atmosphere and adapt to or recover from potential adverse impacts of 
such changes can be enhanced.

                       SCIENCE LAB INFRASTRUCTURE

    Question. Dr. Orbach, the Office of Science manages 10 science labs 
that represent a Federal investment of tens of billions of dollars in 
the most advanced scientific user facilities in the world. The annual 
budget process seems to rarely reward the prudent and responsible 
program manager who reinvests in infrastructure to maintain the 
facilities. Two years ago this Committee initiated a Facilities and 
Infrastructure program for the NNSA to reinvigorate the NNSA weapons 
complex and it is starting to make a significant difference. Dr. 
Orbach, do you believe the Science facilities that you oversee need a 
significant infrastructure reinvestment to revitalize the Science Labs 
research facilities and would you be willing to budget for such an 
initiative?
    Answer. The Office of Science has identified over $1.5 billion of 
line item projects to renovate, modernize and replace existing 
buildings and support facilities at the SC laboratories to better 
support our research missions. A complete listing and description of 
the projects can be found at the SC web site: http://
www.science.doe.gov/SC-80/sc-82 under ``Infrastructure Needs 
Assessment.'' I am working with the laboratories to develop a strategy 
for funding infrastructure improvements.

               FUTURE NUCLEAR ENERGY BUDGET REQUIREMENTS

    Question. Mr. Magwood, as I indicated in my opening statement, I am 
generally encouraged with the progress in nuclear R&D. The Department 
now has in place the structure of a well-thought-out nuclear R&D 
program that addresses the near-term goal of bringing a new plant on 
line through the Nuclear Power 2010 program; while performing the R&D 
necessary for nuclear power to support the growing demand for 
electricity world-wide over the next 50 years through the Generation IV 
Program and the Advanced Fuel Cycles Initiative. All of these 
initiatives require funding well in excess of what is provided in the 
current baseline?
    Answer. We are confident that the fiscal year 2004 budget request 
for these programs will meet the near-term needs of these programs, 
most of which are at the early stages of development. We will evaluate 
future funding needs as we more precisely define the areas of work and 
implement these initiatives. Clearly, significant resources would be 
needed to support the development, design, and deployment of innovative 
technologies to achieve the economic and energy security benefits of 
the programs. Whatever course our activities take, we expect the 
funding the Department requests to be highly leveraged with our 
international and U.S. industry partners.
    Question. What level of resources will be required to achieve the 
stated goals of each of these initiatives over the next 10 years?
    Answer. The Generation IV Nuclear Energy Systems Initiative is in 
an early stage of development. The highest priority Generation IV 
project is pursuing advanced nuclear technology that can produce both 
cost-effective hydrogen and very efficient electricity production. The 
out-year funding plan for Generation IV activities is currently being 
developed. Discussions with potential collaborating partners are 
underway and we anticipate substantial cost-sharing with both industry 
and the international community. The estimated costs for AFCI research 
and development over the next 10 years are presently under review by 
the Administration and have not been finalized.
    Question. What is the Department's funding strategy?
    Answer. The Department is in the early stages of implementing the 
Generation IV nuclear energy systems initiative and the Advanced Fuel 
Cycle Initiative. Regardless, the Department intends to leverage a 
modest Federal investment with collaboration with our international 
partners.
    Question. What kind of resources can we reasonably expect from 
international or industry collaborators?
    Answer. We are currently exploring cost-sharing arrangements for 
the design, licensing, construction, and startup of the Very-High-
Temperature Reactor (VHTR) with potential domestic and international 
partners, both private and government. Substantial cost-sharing is 
expected. Over the past 3 years, the AFCI program has established two 
major international collaborative agreements which have provided over 
$100 million worth of analytical and experimental data to the program. 
One agreement is with the French Commissariat a l'Energie Atomique, and 
the other agreement is with the Paul Sherrer Institute in Switzerland. 
Also, the Secretary of Energy recently signed an agreement with the 
European Commission, which provides for collaborative AFCI research and 
development with European countries.

                      NUCLEAR HYDROGEN INITIATIVE

    Question. Hydrogen technologies will only allow us to free 
ourselves from dependence on foreign oil if we can economically produce 
it in a manner that does not harm the environment. Current methods of 
producing hydrogen based on fossil-fuels are far too costly. I am 
hopeful that one or more of the Generation IV reactor technologies 
would allow us to generate hydrogen on a scale that would support a 
future hydrogen based economy. I commend the Department for requesting 
$4 million specifically for the nuclear hydrogen initiative. What level 
of resources would the Department need to develop and demonstrate on a 
pilot scale a nuclear reactor for hydrogen production?
    Answer. The Department's new Nuclear Hydrogen Initiative is 
designed to develop and demonstrate advanced technology hydrogen 
production systems using nuclear energy. The Department plans to 
achieve this goal by constructing progressively larger scale 
demonstrations using non-nuclear heat sources, designed and optimized 
to be eventually driven by heat from a high temperature nuclear system. 
The Department is also exploring partnerships with industry and the 
international community that could support a full-scale prototypical 
system to demonstrate the commercial scale production of hydrogen. With 
funds provided by Congress in fiscal year 2003, we are currently 
developing a hydrogen technology roadmap which will define the 
development program leading to a pilot scale experiment. The funding 
estimates for a pilot scale facility will be developed over the next 
several months.
    Question. Can we do it on the time-scale of the President's broader 
hydrogen timeline of 2015 to 2020?
    Answer. We believe nuclear-based production of hydrogen could be 
deployed on the time-scale of the President's 2015-2020 hydrogen 
timeline.

                     NUCLEAR POWER 2010 INITIATIVE

    Question. Three years ago, this Subcommittee led the way in 
creating a new R&D program in Nuclear Energy Technologies. The effort 
has been focused on both near-term and longer-term development of next 
generation power reactors. There are great opportunities to deploy new 
reactors that would have superior economics, no possibility of a core-
meltdown, reduced waste, and more proliferation resistant. I commend 
the Department for providing $35 million to support a near-term effort 
with the goal of having new advanced reactors operating in the United 
States by 2010. Can you elaborate on this program in greater detail and 
provide an update?
    Answer. The Department believes it is in the Nation's interest to 
deploy new baseload nuclear generating capacity within the decade to 
achieve the National Energy Policy objectives of energy supply 
diversity and security while minimizing the impact on the environment. 
To enable the deployment and operation of new, advanced nuclear power 
plants in the United States by the end of the decade, it is essential 
to demonstrate the new, untested Nuclear Regulatory Commission (NRC) 
regulatory and licensing processes for the siting, construction, and 
operation of new plant designs. In addition, research and development 
on near-term advanced reactor concepts that offer enhancements to 
safety and economics is needed to enable these new technologies to come 
to market.
    In fiscal year 2002, the Department initiated the Nuclear Power 
2010 program. This program is a joint government and industry cost-
shared effort to identify sites for new nuclear power plants, develop 
advanced nuclear plant technologies, and demonstrate new regulatory 
processes that support a private sector decision by 2005 to order new 
nuclear power plants for deployment in the United States within the 
decade.
    As an initial step in the Nuclear Power 2010 program to demonstrate 
untested regulatory processes, the Department is cooperating with three 
power generation companies--Exelon, Entergy and Dominion Resources--to 
demonstrate the Early Site Permit (ESP) process at sites where these 
companies currently operate nuclear power plants (Clinton Nuclear Power 
Station, Grand Gulf Nuclear Power Station, and North Anna Nuclear Power 
Station, respectively). This regulatory process is intended to approve 
sites for the construction of new nuclear power plants in advance of a 
utility commitment and order for the nuclear plant. Within the scope of 
these 50/50 cost-shared industry cooperative projects, the three power 
generation companies will develop and submit formal ESP applications to 
the NRC by fall of 2003. NRC's approval of the then-submitted ESP 
applications is expected in early 2006.
    In 2003, the Department plans to expand its cooperation with the 
nuclear industry by soliciting additional cooperative projects with 
power companies or consortia of power and industry companies that 
implement power company plans to deploy new nuclear plants. Cooperative 
projects would include activities to demonstrate the combined 
Construction and Operating License (COL) process and develop a 
standardized advanced nuclear plant designs.
    The Department has also initiated in fiscal year 2003 a cost-shared 
project with industry to assess the construction schedule, manpower, 
and cost requirements of the new advanced nuclear plant designs being 
considered by power companies for near-term deployment and to identify 
promising improvements in construction methods and techniques to 
shorten the construction durations for these next new nuclear power 
plants.
    Question. Does the Department still plan on initiating a cost-
shared project with a utility to demonstrate the ``Construction and 
Operating License'' process?
    Answer. The Department believes that demonstration of the combined 
Construction and Operating License (COL) process is essential to 
achieve near-term deployment of advanced nuclear power plants in the 
United States. In fiscal year 2003, the Department plans to issue a 
solicitation to seek proposals from power companies or consortia of 
power and industry companies for projects that enable a new nuclear 
power plant to be ordered and licensed for deployment in the United 
States within the decade. This project will provide for design 
completion of a standardized advanced reactor plant, preparation and 
submission of a COL application and support of NRC review, and hearings 
associated with the application.
    Question. What recommendations can you provide to this committee as 
to how the government can address the financial and business risk 
associated with building and licensing new nuclear plants?
    Answer. There are currently three ways that an electric generating 
company could finance a new nuclear plant: by obtaining commercial debt 
financing, through equity financing, or a combination of both. These 
options are not currently attractive because of significant financial 
barriers and risks associated with building the first few new nuclear 
plants. Last year, Sculley Capital, an independent financial advisory 
firm, conducted a study for DOE of barriers to new nuclear plant 
deployments and identified a range of financial assistance mechanisms 
that could address the financial risks associated with building the 
first few new nuclear plants. The study concludes that substantial cost 
improvements in the cost per kilowatt-hour would be realized following 
deployment of the first few plants, thereby allowing future builds to 
be fully competitive in the electricity marketplace. This study has 
sparked an ongoing discussion both inside the government and in the 
private sector, but no conclusions have yet been reached in either.

                   NASA'S NUCLEAR SYSTEMS INITIATIVE

    Question. The fiscal year 2003 NASA budget proposed a ``nuclear 
systems initiative'' to develop new radioisotope power systems for on-
board electric power on future space platforms. It would also conduct 
research and development on nuclear electric propulsion systems that 
would allow future space craft to speed throughout the outer reaches of 
the solar system. NASA has proposed spending up to $1 billion in the 
next 5 years. What has transpired over the last year?
    Answer. A significant amount of planning and coordination between 
NASA and the DOE has taken place in preparation for NASA's Nuclear 
Systems Initiative, now named ``Project Prometheus.'' Activities 
conducted under existing programs at DOE were focused to help prepare 
for the initiation of the effort. For example, with regards to the 
radioisotope power systems, a DOE contract was awarded to Lockheed 
Martin Astronautics for a Stirling Radioisotope Generator, and industry 
proposals for a Multi-Mission Radioisotope Thermoelectric Generator are 
now being evaluated by the Department. Also, the purchase of 1 kilogram 
of Pu-238 from Russia is underway.
    With regard to the nuclear electric propulsion part of Project 
Prometheus, NASA Research Announcements (NRA's) were issued for power 
conversion and electric propulsion technology contracts. Initial space 
reactor power system screening activities were completed using an 
integrated team of specialists from DOE laboratories and NASA centers 
to assess combinations of reactor and power conversion technologies and 
a briefing on these screening activities was provided to industry. DOE 
labs have also supported definition of three reactor concepts for 
future consideration. A draft RFP was also developed by NASA with 
support from DOE for mission and technology trade studies associated 
with a Jupiter Icy Moons Orbiter Mission (JIMO) in order to prepare for 
possible future industry engagement.
    These activities have helped to prepare for initiation of a 
coordinated effort between NASA and DOE as Project Prometheus now 
commences its first year.
    Question. What role will be DOE's role in this exciting new effort?
    Answer. DOE will continue as the executing agent for the 
development of Radioisotope Power Systems. These efforts will include 
the Stirling Radioisotope Generator (SRG), the Multi-Mission 
Radioisotope Thermoelectric Generator (MMRTG), the performance of 
safety analyses, and the procurement of additional Plutonium-238 as 
needed in support of the radioisotope program and potential future 
missions. For the development of space fission reactor technology, or 
the nuclear electric propulsion part of Project Prometheus, NASA and 
DOE are currently examining the best approach for management of the 
development effort within the Department. These reviews are ongoing and 
include consideration of possible participation by DOE's Offices 
Nuclear Energy, Science and Technology and Naval Reactors.

                  ADVANCED NUCLEAR MEDICINE INITIATIVE

    Question. The Advanced Nuclear Medicine Initiative (ANMI) provides 
basic research and educational grants in the field of nuclear medicine. 
These R&D grants have yielded exciting results for the development of 
new radiopharmaceuticals, insights in radiobiology, and possible new 
methods of treating cancer. In recent years, the program has been 
funded at the level of $2.5 million per year. In fiscal year 2003, 
funding was dropped to zero. The Department has also proposed changing 
the manner in which it provides radioisotopes to the research 
community. The Department proposed this on the theory that it could 
reach agreement with other sources (most likely NIH) to support this 
important mission. Has the Department secured such an agreement? If 
not, what are the prospects?
    Answer. Department of Energy officials are at the beginning stages 
of discussion with officials of the Department of Health and Human 
Services, including the National Institutes of Health on the subject of 
obtaining support from NIH for production of isotopes associated with 
medical research sponsored by NIH. There is broad support for medical 
research in development of new radiopharmaceuticals both within the 
government and the private sector, and we are confident that as the 
benefit for this research is demonstrated that there will be increased 
support for offsetting the costs associated with the production of 
medical research isotopes.
    Question. Would you comment on the record how a DOE sponsored 
revolving fund might be used to support this mission?
    Answer. As was done with the Advanced Nuclear Medicine Initiative 
in fiscal year 2000, the revolving fund could be a suitable vehicle for 
supporting medical isotope research, including production of isotopes 
for such research.

                     ADVANCED FUEL CYCLE INITIATIVE

    Question. I commend the Department for supporting the Advanced Fuel 
Cycle work that this committee has strongly supported over the last few 
years. Will you describe for the committee some of the successes of the 
AFCI program, its relationship to the Generation IV reactor program, 
and what your expectations are for the next few years?
    Answer. The goals of the Advance Fuel Cycle Initiative are to 
develop fuels and fuel cycle technologies required for the Generation 
IV Nuclear Energy Systems Initiative and to develop advanced spent fuel 
treatment and transmutation fuel technologies to optimize the 
performance of the Yucca Mountain repository and delay or eliminate the 
technical need for a second repository.
    In fiscal year 2002, the program had several important 
accomplishments. In the area of spent fuel treatment, the Department 
developed UREX+ technology and successfully demonstrated the separation 
of uranium from commercial spent fuel at a purity level of over 99.99 
percent, which is equivalent to low-level Class C waste. Since spent 
fuel is made up of 95.6 percent uranium, this is clearly a major 
demonstration of the potential for reducing the volume of spent fuel 
destined for a geologic repository. Other major successes include the 
development and manufacture of advanced non-fertile fuels (i.e., fuel 
which does not produce plutonium during the fission process). Both 
nitride and metal advanced non-fertile fuels have been manufactured and 
have passed quality assurance standards necessary to qualify for 
irradiation testing in the Advanced Test Reactor. This activity 
directly supports Generation IV fast-spectrum reactor fuel development.
    As described in the AFCI Report to Congress, issued in January 
2003, the AFCI program is pursuing parallel paths, AFCI Series One and 
AFCI Series Two, to develop technologies both in support of the 
Generation IV program and spent fuel treatment and transmutation. AFCI 
Series One technology development is an intermediate term activity 
which is focused on the developing advanced spent fuel treatment 
technologies. Specifically, this technology separates various isotopic 
components from commercial spent nuclear fuel, including the extraction 
of uranium at a purity of greater than 99.99 percent for potential 
reuse, or storage as low-level waste. In addition, the program is 
developing proliferation-resistant fuel that can be recycled in 
existing light water reactors to extract energy and reduce the 
plutonium inventory in the spent fuel. In fiscal year 2003, AFCI plans 
to demonstrate the separation of a plutonium-neptunium and cesium-
strontium on a laboratory scale. The successful demonstration of 
cesium-strontium, at a high purity, can provide a unique advantage to 
the repository program because it will allow the repository to be 
operated in a cold condition, by isolating all the short-term heat long 
in one drift, or above ground. The program is also in the process of 
fabricating several specimens of oxide fuels containing various 
combinations of uranium, plutonium, and neptunium for potential use in 
existing light water reactors as a means extending the energy resource 
of spent fuel and to reduce the inventories of plutonium. These 
advanced oxide fuels are planned for irradiation testing in the 
Advanced Test Reactor (ATR) in fiscal year 2004.
    AFCI Series Two technology development is a longer term activity 
(2020-2030 time frame). The main focus of AFCI Series Two is to develop 
advanced, non-aqueous technologies which are cost effective, 
environmentally sound, and capable of handling large volumes of fast 
reactor spent fuel. AFCI Series Two technology development also 
includes the development of advanced fuels for fast spectrum reactors--
Generation IV reactors including the capability of these reactors for 
handling the transmutation mission. Application of AFCI Series Two 
transmutation technology can significantly reduce the long-term 
radiotoxicity and long-term heat load in the geologic repository.
    The research and development being conducted in the AFCI program is 
focused on producing results that will provide decision makers 
sufficient information on cost, schedule, and waste streams to inform 
decisions in fiscal year 2007 regarding the need for a second 
repository.

                         CUTS TO NERI AND NEPO

    Question. Mr. Magwood, I appreciate the significant increase in 
budgets requested for Nuclear Energy. But I'm surprised that a program 
like the Nuclear Energy Research Initiative or NERI, that is the 
largest supporter of university-based research in this vital field, is 
targeted for a cut of 50 percent. I am also concerned that the Nuclear 
Energy Plant Optimization or NEPO program is targeted for no funding, 
when the Nation depends strongly on our existing nuclear plants to 
avoid having to replace them with more polluting alternatives. Can you 
please discuss the rationale for halving the NERI budget and killing 
the NEPO budget just when we are undertaking other important ventures 
to secure a future for nuclear energy in the Nation?
    Answer. First, I think it is important to make clear that we 
believe both the Nuclear Energy Research Initiative (NERI) and the 
Nuclear Energy Plant Optimization (NEPO) program are important and very 
successful programs. The programs have attracted significant 
international and private sector co-funding. Moreover, the important 
initiatives that we believe will form the base for our nuclear energy 
research program in the future--the Nuclear Hydrogen Initiative, the 
Generation IV nuclear energy systems initiative, the Advanced Fuel 
Cycle Initiative--all grew out of the success of innovative NERI 
research and development.
    While the funds requested for NERI in fiscal year 2004 represent a 
reduction from previous years, the budget request will allow us to 
support those projects that are continuing in the NERI and 
International NERI programs. During the coming year, we will refine and 
detail our plans for the Nuclear Hydrogen Initiative, Generation IV, 
and the Advanced Fuel Cycle Initiative. Once this is done, the 
Department will be in a position to evaluate NERI in fiscal year 2005 
in the context of our entire research portfolio.
    Regarding the NEPO program, we have successfully leveraged a small 
Federal investment with industry to address technical issues associated 
with the long-term operation of the Nation's existing 103 operating 
nuclear power plants. The program has funded a total of 33 projects 
during its first 3 years, addressing issues such as plant aging and 
electrical generation optimization. Thus, it is our hope that industry, 
who invests between $80 and $90 million dollars annually on research, 
will choose to continue some of these projects.

             UNIVERSITY REACTOR FUEL ASSISTANCE AND SUPPORT

    Question. For the current year, the Congress provided $18.5 million 
for the University Reactor support program. Can you give me an update 
on this effort?
    Answer. All current university programs efforts will be continued, 
including providing fuel to university research and training reactors, 
assisting university reactors to share their reactors with other 
universities and secondary schools for educational and training 
purposes, improving equipment and instrumentation at university 
reactors, and providing research grants to university nuclear 
engineering departments.
    The Department continues to award numerous fellowships and 
scholarships to students pursuing a nuclear engineering or a health 
physics degree and assisting students at minority universities to 
achieve a degree in nuclear engineering by partnering with a majority 
nuclear engineering institution; helping to reinvigorate the 
radiochemistry educational program through assistance to graduates, 
post-doctorates, and faculty; and conducting outreach to college 
freshman and secondary school students and teachers through the 
American Nuclear Society by providing teacher workshops in the basics 
of nuclear energy and engineering.
    Lastly, the Innovations in Nuclear Infrastructure and Education 
(INIE) initiative continues to maintain the Nation's university 
research reactor infrastructure by awarding the fifth INIE grant. The 
INIE program focus is to help strengthen the nuclear engineering 
infrastructure which is vital to producing the nuclear engineers the 
Nation requires for operation of its nuclear facilities, national 
laboratories, and universities.
    Question. Will this budget request allow the Department to expand 
its support to the regional reactor consortiums?
    Answer. The fiscal year 2004 budget request will enable the 
Department to continue support for five regional reactor consortiums. 
Four awards were made in fiscal year 2002, with the additional funds 
appropriated in fiscal year 2003; one additional award will be made. 
Two additional consortia have been selected for future award.

                              URANIUM-233

    Question. The Congress has urged the Department to proceed with a 
Request for Proposal on a project to extract medically valuable 
isotopes from the excess uranium-233 stored at Oak Ridge National 
Laboratory. This is potentially a very exciting effort. Can you provide 
an update on this effort and tell when you expect the RFP will be out?
    Answer. The Department's project to treat its inventory of U233 
will greatly reduce the high cost associated with the storage of this 
material and demonstrate the Nation's leadership in the effective and 
responsible management of fissile materials. Perhaps more importantly, 
this project will provide researchers all over the country with ready 
access to isotopes that have shown considerable promise in treatment of 
various forms of cancer.
    The RFP was issued on June 13, 2002, and proposals were received on 
September 26, 2002. On February 14, 2003, the Department notified the 
bidders that were found to be in the competitive range required for the 
contract that their proposals would be evaluated for final selection. 
The evaluation process continues and we anticipate an award this 
summer.

                                  LES

    Question. Mr. Magwood, the Department has previously commented on 
the need for new domestic enrichment capacity as a means of maintaining 
a reliable and economical U.S. enrichment industry. One of the ventures 
to accomplish this is led by the European consortium Urenco, a company 
with proven centrifuge technology. I know you are quite familiar with 
the company and their technology. Do you have any concern on your part 
that the efforts of Urenco to build a new facility in the United States 
would in any way pose a national security concern?
    Answer. The Administration places a high priority on ensuring 
nuclear nonproliferation safeguards are in place and that access to 
sensitive technology is controlled. The information available to the 
Department indicates that URENCO has acted responsibly with regard to 
the control of sensitive technology and the employment of non-
proliferation safeguards.
    The Department of Energy believes that LES's plans for the 
deployment of centrifuge technology in the United States are of 
considerable national benefit. Deployment of an LES plant will help 
assure the important energy security objective of maintaining a 
reliable and economical U.S. uranium enrichment industry.
    Question. Do you believe that the development of new enrichment 
capacity is sufficiently important to U.S. energy security objectives 
that the development of a domestic facility by Urenco should therefore 
be encouraged and facilitated in some manner by DOE? If so, how?
    Answer. The Department believes there is sufficient domestic demand 
to support multiple commercial uranium enrichment plant operators in 
the United States and that competition is important to maintain a 
viable, competitive domestic uranium enrichment industry for the 
foreseeable future. The U.S. Government has encouraged the three Allied 
government partners in Urenco (Great Britain, the Netherlands and 
Germany) to continue its plans to deploy a new commercial uranium 
enrichment plant in the United States.

                    COST OF DEPLETED TAILS DISPOSAL

    Question. Pursuant to section 3113 of the 1996 USEC Privatization 
Act, DOE is obligated to accept depleted tails for disposal from 
domestic commercial enrichers, if the tails are declared low-level 
waste, and subject to the generator paying the cost of disposal. DOE 
has already agreed to accept post-privatization tails from USEC for 
disposal. Is this same option available for the depleted tails of any 
other commercial enrichment facility operating in the United States?
    Answer. The NRC has not characterized depleted uranium tails as 
low-level radioactive waste; therefore, Section 3113 of the 
Privatization Act does not obligate the Department to accept 
commercially generated depleted uranium tails for disposal. The 
Department agrees with the NRC, and would not support an initiative to 
declare depleted uranium tails as low-level radioactive waste. 
Nevertheless, in view of the Department's plan to build DUF6 
disposition facilities and the critical importance the Department 
places on maintaining a viable domestic uranium enrichment industry, 
the Department acknowledges that Section 3113 may constitute a 
``plausible strategy'' for the disposal of DUF6 from the private sector 
domestic uranium enrichment plant license applicants and operators.
    The Department has two agreements to accept depleted uranium 
generated by USEC. In the first case, the government received $50 
million to accept 16,674 metric tons of depleted uranium generated by 
USEC during the privatization process. The second case is the June 2002 
agreement between USEC and DOE. While DOE agreed to accept title (but 
not custody until the Department is ready to disposition) to 23,300 
metric tons of depleted uranium hexafluoride as part of the agreement's 
consideration, USEC agreed to a range of important actions, including 
commitments to operate Paducah gaseous diffusion plant until replaced 
and to deploy advanced enrichment technology employing DOE technology.
    Question. Would one or both of the two conversion facilities under 
construction be available on the same terms and conditions to any other 
commercial enricher?
    Answer. No authority, procedures, or cost for such a service has 
been established. Were a commercial enricher to request such a service, 
the Department would give the request its full consideration.
    Question. What do you project to be the per kilogram cost of 
accepting for processing and ultimate disposal depleted tails from 
commercial generators?
    Answer. I note that Section 3113(3) of the USEC Privatization Act 
provides for reimbursement in an ``amount equal to the Secretary's 
cost, including a pro rata share of any capital costs.'' As full costs 
of providing such a service have not been established, and the 
procedures to implement a service of processing DUF6 for ultimate 
disposition have not been created, it is not possible to project a 
meaningful cost estimate at this time. However, should a commercial 
company request such a service, the Department would fully consider its 
request.
    Question. What is the per kilogram cost for the processing and 
disposal of the commercial tails that DOE has agreed to accept to date?
    Answer. The actual marginal cost of processing and disposal of the 
depleted uranium hexafluoride generated by USEC has not been 
determined. Once the Department's conversion facilities have been built 
and are operational, a reasonable estimation of the marginal cost to 
process commercial tails can be calculated. These tails will be 
converted and dispositioned as part of the Department's inventories. It 
is expected to take 25 years to completely disposition the Department's 
depleted uranium stockpile. It should be noted that USEC will maintain 
custody of the tails the Department has agreed to accept under last 
year's Memorandum of Agreement until such time that they are accepted 
for processing.

                                HYDROGEN

    Question. Mr. Garman, the grand promise in the President's vision 
of a hydrogen economy is dependent upon us finding a way to produce 
hydrogen economically and cleanly. Today, the primary method for 
hydrogen production is methane reformation, which results in 
significant releases of greenhouse gases. Options for future production 
will be built around either high temperature chemical processes, or 
high-temperature electrolysis. I know you are also looking to reduce 
the cost of producing hydrogen from renewable energy technologies. But, 
as I look at the issue, I am once again forced to the conclusion that 
nuclear power remains the most likely technology that will allow us to 
produce hydrogen in large quantities, economically and cleanly. What 
renewable technologies are most promising for the production of 
hydrogen?
    Answer. As part of the Hydrogen Fuel Initiative, research underway 
in renewable hydrogen production technologies includes gasification and 
pyrolysis of biomass from forest, crop, and urban residues. Wind-
powered electrolysis is another high potential pathway being 
researched, recognizing that 40 million tons of hydrogen per year 
(about half the U.S. light duty fleet energy requirement) could be 
produced using the wind resources of North Dakota alone, based on 
calculations by scientists at the lab. Water splitting through 
photolysis is being researched as well as solar-concentrated high 
temperature water splitting chemical cycles. Many of the aspects of 
solar-concentrated high temperature water splitting chemical cycles 
would be similar to methods using high temperature nuclear.
    Finally, while hydrogen production from methane reformation 
(without sequestration) would result in carbon releases to the 
atmosphere, fuel cell vehicles using compressed hydrogen produced from 
natural gas would still use 50 percent less energy and emit 60 percent 
less carbon dioxide on a ``well-to-wheels'' basis compared to a 
gasoline-powered vehicle.
    Question. How do they compare and contrast to the nuclear option?
    Answer. Producing hydrogen from renewable energy sources or using 
the nuclear option can both potentially eliminate associated greenhouse 
gases. Nuclear-enabled high temperature chemical cycle water splitting 
is a promising route to hydrogen production with near-zero greenhouse 
gas emissions. This approach relies on the success of the next 
generation nuclear energy technology, i.e., Generation IV (GenIV). The 
GenIV nuclear reactor, would be the heat source for the high 
temperature cycle needed to produce hydrogen. This technology will 
require large central facilities and a hydrogen distribution network.
    National energy security is assured through energy diversity. The 
renewable energy options being researched can support energy security 
through a diversity of feedstocks and processes. Renewable technologies 
such as biomass gasification or pyrolysis, ethanol reforming, wind 
powered electrolysis, and photo-electrochemial water splitting 
potentially offer the ability to provide distributed production at the 
point of use without an extensive hydrogen delivery infrastructure. In 
addition, renewable technologies such as high temperature chemical 
cycles using solar collectors as the energy source can help leverage 
the research being performed to develop the Generation IV nuclear 
technology.

                              BIOMASS R&D

    Question. Mr. Garman, I note the 21 percent reduction the 
Department has proposed for biomass R&D. Among the renewable 
technologies under your purview, only biomass and hydrogen offer great 
promise in helping the country to wean itself off our dependence of 
foreign oil. As gasoline prices are projected to peak well in excess of 
$2 per gallon this spring, I find it odd that biomass took such a large 
hit. Can you explain your rationale?
    Answer. The Department recognizes the tremendous potential of a 
well-focused biomass R&D program to develop biorefinery technologies 
that can produce fuels, power, and high-value chemicals and other 
products. Nevertheless, Congressionally-directed activities reduced the 
coherence of this program and significantly constrained the ability of 
our scientists and engineers to move these important technologies 
forward. Thus, when we made the tough choices about funding the most 
important research for our Nation's energy security, environmental, and 
economic goals, we decided to shift funds from the biomass program 
where the effectiveness of our R&D work was already reduced into other 
areas, particularly our longer-term hydrogen and fuel cell R&D.
    EERE's budget reflects numerous factors: Administration priorities, 
efficiencies realized by combining all biomass research under one 
program, alignment with the Administration's R&D investment criteria, 
program performance, expected public benefits, and bringing to 
completion research on some technology applications that are ready to 
be commercialized. It is also important to recognize that in fiscal 
year 2004, DOE will continue collaborating with USDA in order to 
leverage both agencies' resources as we are doing in fiscal year 2003. 
In fiscal year 2003, under a joint solicitation required by the Biomass 
R&D Act of 2000, USDA will award $14 million and DOE $5 million for 
cost-shared R&D work identified in the Act.
    Question. I also understand government-wide investment in biomass 
technologies is increasing in other departments, particularly USDA. But 
I do not believe Energy should cede its leadership role in technology 
development to another agency. Will you elaborate on the government-
wide effort and Energy's role in that?
    Answer. In fiscal year 2003, under a joint solicitation required by 
the Biomass R&D Act of 2000, USDA will award $14 million and DOE $5 
million for cost-shared R&D work identified in the Act. USDA's focus is 
on environmental performance, economic viability, and feedstock 
production. DOE's focus is on faster and cheaper conversion of biomass 
to fuels and other bio-based products, and on syngas clean-up and 
conditioning. DOE plays a lead role in seeking to reduce the production 
costs of sugars and syngas (sugars platform and syngas platform), 
intermediates needed in the production of several chemicals and fuels. 
In addition, DOE funds R&D on conversion processes for producing fuels, 
materials and chemicals that will leverage the two platforms.

               HIGH TEMPERATURE SUPERCONDUCTIVITY CENTER

    Question. Mr. Garman, I note that funding requests for Electric 
Reliability and High Temperature Superconductivity remain flat between 
fiscal year 2003 and fiscal year 2004. That surprises me a little, 
given the importance to the Nation of maintaining and improving 
reliability of our electricity supplies, and the potential immense 
impact that high temperature superconductivity can make to increase 
efficiency of many electrical processes. Are you confident that we are 
doing as much as we can do to improve our electric reliability and to 
utilize high temperature conductors as quickly as possible?
    Answer. Yes, I am confident that we are doing as much as we should 
do. I agree that maintaining and improving the reliability of our 
electric supplies is a priority. The Electricity Reliability budget was 
increased by $360,000 in the fiscal year 2004 request, to $76.9 
million. Within this budget, High Temperature Superconductivity R&D is 
$47.8 million, the same as our fiscal year 2003 request and $15.5 
million (+48 percent) above the fiscal year 2002 level. We have also 
increased our fiscal year 2004 request for Transmission Reliability R&D 
by $3.0 million. The Department reduced its request for the Energy 
Storage program by $2.6 million, as mature technologies such as battery 
storage system are handed off to industry for commercialization, and as 
synergies with the transportation battery program are realized. In 
addition, the Department supports development of distributed energy 
technologies located closer to the point of end use, thereby increasing 
the chance that the electricity grid will stay in balance.
    Question. Please provide an update of this effort and describe the 
types of commercial possibilities exist?
    Answer. The Department recognizes the broad potential benefits of 
superconductivity in our future electrical system. The fiscal year 2004 
request will support development of pre-commercial prototypes for 100-
megawatt generators, longer distance power cables, fault current 
limiters, and larger-scale flywheel electricity systems. Also, the 
``next generation'' of superconducting wire is expected to accomplish 
performance milestones needed for fiscal year 2005 use in equipment--a 
breakthrough for improving performance and reducing cost. Successful 
equipment research and development completion and availability of 
``second generation'' wire will lead to commercial opportunities for 
advanced, cost-effective, power equipment that generally is half the 
size of conventional alternatives and has only half the energy losses. 
In addition, commercial possibilities also exist in defense 
applications of these technologies.
    We note that the Department's budget for electricity reliability 
and high temperature superconductivity has grown by more that 50 
percent since fiscal year 2001. We believe we can reach the end of the 
current research agenda by 2010, if we are able to focus our funding on 
achieving the goals and avoid directed projects that do not contribute 
to the goals.
    Question. In order to achieve commercial successes, what level of 
investment should be made in R&D over what period of time?
    Answer. The current level of funding is appropriate to bring about 
continual research advances, while still following a well-conceived 
research roadmap. Program successes include establishing world 
leadership in processing of ``first generation'' High Temperature 
Superconductivity wire as well as in development of advanced power 
equipment prototypes using this wire. Another success is the discovery 
at DOE laboratories of methods to make ``second generation'' 
superconducting wire, able to achieve program cost and performance 
goals, which are based on advancing the technology to the point where 
commercial success is possible. We believe we can reach the end of the 
current research agenda by 2010, if we are able to focus our funding on 
achieving the goals and avoid directed projects that do not contribute 
to the goals.

                         DEMONSTRATION PROJECTS

    Question. Mr. Garman, the Department did not propose to continue 
funding for a number of demonstration projects that have been initiated 
over the last several years. I understand you are attempting to get 
more from your R&D dollars, and you are not interested in duplicative 
demonstrations or funding projects that should properly be financed by 
the private sector. At the same time, this committee is well aware of 
unique cases where it is preferable to use appropriated dollars to 
demonstrate technologies before they become commercially attractive. 
Given these considerations, what criteria would you suggest to this 
subcommittee in evaluating the many requests for demonstration projects 
from Senators?
    Answer. As you point out, there are unique cases in which it is 
appropriate to demonstrate technologies before they become commercially 
attractive. We strive to use the Administration's R&D investment 
criteria to guide all of our activities, including demonstrations. One 
criterion useful for evaluating demonstration proposals is the 
existence of significant market barriers to commercialization. These 
market barriers are conditions that do not satisfy the needs of a fully 
competitive market. Such a determination can only be made on a case-by-
case basis, depending upon the market the technology faces. If the 
analysis indicates that we can reduce the market barriers, or validate 
the technology, we may propose a demonstration. Conversely, if we 
cannot show that there are market barriers forcing underinvestment by 
industry, we will not pursue the demonstration.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

            DIAGNOSTIC AND INSTRUMENTATION LABORATORY (DIAL)

    Question. Mr. Chairman, I'd like to thank the Undersecretary and 
Directors for testifying before this committee today. The work you do 
is very important to my State and to me. I'd like to commend David 
Garman, the Director of the Office of Energy Efficiency and Renewable 
Energy, for the work he does with biomass research.
    This scientific research is so important to a rural, agricultural 
State like Mississippi. Biomass energy is estimated to contribute over 
7 percent of Mississippi's total energy consumption--that amount is 
double the national average. The majority of our lumber facilities burn 
wood waste to generate steam for industrial processes. Biomass offers 
special opportunities for benefiting Mississippi's economy by keeping 
energy dollars in our State and by providing jobs in rural areas where 
biomass is produced. By using their wastes for energy, disposal costs 
are avoided, and industries are better able to compete.
    The principal biomass waste streams that occur in Mississippi are 
generated by agriculture (e.g., cotton gin waste), wood products 
manufacturing (e.g., sawdust and wood scraps), animal wastes from 
confined feeding operations, and municipal solid waste collections 
(e.g., paper and cardboard, demolition waste, lawn and tree trimmings).
    Last year, I visited a biomass plant in Winona, Mississippi and 
inquired about plans for using Federal funds that were appropriated in 
the fiscal year 2003 omnibus bill. I learned that the Winona biomass 
project can enter its final stages of discovering the organism which 
will cause the heated biomass to turn into gas. Once that organism or 
``bug'' is discovered, the plant can operate from start to finish where 
chips of wood can be input, burned and then gasified into ethanol. In a 
town like Winona, that sort of success has great economic development 
potential.
    I am pleased to learn that the Department is concentrating its 
biomass research efforts on the catalysts needed for biomass gasifiers. 
Many communities, beyond the scientific community, will benefit from 
this work.
    I would also like to commend the Mississippi Diagnostic 
Instrumentation and Analysis Laboratory at Mississippi State 
University. I am pleased to see that you're funding good science, like 
the joint Los Alamos-Mississippi State project that we hope will be 
useful for both DOE and Homeland Security. A continuing concern is how 
do we take this magnificent science and turn it into the new 
technologies DOE needs to accelerate cleanup. I am hopeful that you 
consider using organizations such as DIAL at Mississippi State to turn 
your science into technologies that will be used at the DOE sites. Mr. 
Chairman, with your permission I have a question I'd like to submit for 
the record.
    I am pleased to see that you're funding good science, like the 
joint Los Alamos-Mississippi State project that we hope will be useful 
for both DOE and Homeland Security. A continuing concern however is how 
do we take this magnificent science and turn it into the new 
technologies DOE needs to accelerate cleanup? Have you considered using 
organizations such as DIAL at Mississippi State to help bridge the 
``valley of death'' to turn your science into technologies that will be 
used at the DOE sites?
    Answer. The ``valley of death'' issue is a major concern of ours 
and we have been developing strategies to efficiently transfer 
scientific results to cleanup applications. First, we will work 
directly with site cleanup personnel to identify problem areas where 
science can make a significant impact and to further collaborate with 
the site on these specific issues. This will ensure that our scientific 
results are directly transferred to the sites for further development. 
We regularly conduct technical exchange workshops and find these 
invaluable, and will expand these at major cleanup sites. In addition, 
we have found that frequently, scientists want to take their work to 
the next stage themselves or at least provide technical support 
throughout the development. We encourage appropriate Environmental 
Management Science program researchers to develop partnerships with 
applied organizations, such as DIAL.
    Question. What future plans do you have to work with DIAL?
    Answer. The Environmental Management Science program will continue 
to select projects through competitive peer review that focus on the 
Department's cleanup problems. A key research area continues to be 
techniques to characterize and monitor contaminated sites. In 
partnership with the national laboratories and universities, DIAL is 
likely to be competitive in this area.

                                 ______
                                 
               Questions Submitted by Senator Harry Reid

                                SCIENCE

    Question. In the fiscal year 2003 Conference Report, we instructed 
you to reprogram funds, if necessary, to respond to the challenge of 
the Japanese Earth Simulator Computer. I believe the Earth Simulator is 
a warning shot across the bow for American computing companies and 
research. Does your advanced computing strategy adequately address the 
need for a robust investment in American supercomputing to maintain 
American competitiveness?
    Answer. The fiscal year 2004 budget request for Advanced Scientific 
Computing Research includes $14 million for research in next generation 
computer architectures (NGA) for scientific simulation. The NGA allows 
us to embark on an R&D investment strategy to provide future high 
performance computing resources that are optimized for scientific 
simulations in areas of strategic importance to the Department.
    Question. Given the remarkable successes of the Human Genome 
Project, can you help the Committee understand the new science drivers 
behind the Genomes to Life program?
    Answer. The Human Genome Project, and DOE's associated Microbial 
Genome Program, determined a representative human DNA sequence and the 
DNA sequences of a rapidly growing number of microbes (nearly 100), 
most with direct relevance to DOE mission needs in energy and the 
environment. While the availability of genomic DNA sequence information 
has revolutionized the way scientists think about and do biology it is 
only a first of what will certainly be many very large steps. An 
organism's DNA sequence is the blueprint, the complete set of genetic 
instructions, which biology uses to create a living, working organism. 
It gives scientists a complete list of all the parts (proteins for 
example) along with the genetic on/off switches and rheostats that the 
organism uses to make sure that all of its genes are active only at the 
right time and place. However, the DNA sequence doesn't tell us what 
all those parts do, how they actually work, how they interact with each 
other, how they are regulated, and how different organisms, microbes in 
the case of the Genomes to Life program, interact with each other. 
These uncertainties are the scientific drivers for the Genomes to Life 
program. In the end, we want to understand microbes of interest to DOE 
so well that we have computational models that accurately predict their 
behavior in response, for example, to environmental contaminants, 
elevated atmospheric carbon dioxide. With this understanding we can use 
those microbes to develop biology-based solutions to DOE needs--
abundant sources of clean energy, new solutions for cleaning up DOE 
waste sites, removal of excess carbon dioxide from the atmosphere.
    Question. We have a large capital investment in the Office of 
Science user facilities that serve many users at universities and 
laboratories. Are we operating these facilities at maximum capacity in 
the fiscal year 2004 budget to meet the needs of these scientists?
    Answer. The science user facilities are operating in the fiscal 
year 2004 request between 83 and 100 percent of maximum capacity. It is 
always difficult to find the right balance among completing priorities 
for facility operations, research, construction, etc. We are satisfied 
that we have allocated the funding in the request to achieve the best 
balance possible.
    Question. As I mentioned in my opening statement, I am pleased that 
the United States has resumed its participation in the ITER project. 
However, the dollar levels look very low for our first year 
participation. Are the funds in the budget adequate to fulfill our 
international requirements?
    Answer. The proposed fiscal year 2004 participation is of a 
preparatory nature, 2 years in advance of the start of construction, 
planned for fiscal year 2006. In this sense, the $12 million request is 
sufficient to begin our involvement.
    Question. As a follow-up, the U.S. participation seems fairly 
modest compared to that of several of the international partners. Are 
you satisfied that it appears that the United States will be just a 
junior partner in ITER? Is a larger role something we should aspire to?
    Answer. As just noted, the proposed fiscal year 2004 level of 
funding does not necessarily presage the level of U.S. participation 
during construction. With regard to that participation, the 
Administration wishes to make a significant contribution to this 
project. The ultimate answer to your question of participation levels 
will depend on the final number of interested parties, and I will note 
that South Korea has recently expressed interest in joining the 
negotiations.
    Question. Are you having any problems attracting top flight 
scientists to your labs given the deteriorating condition of many of 
these facilities? If so, what can Congress do to address the situation?
    Answer. Recruitment of new staff is particularly critical at this 
time as the generation that helped build the labs retires and the labs 
compete in the job market to replace them. While it is always difficult 
in hot new areas like genomics and nanoscience, decaying facilities and 
sites, lack of adequate housing for post-doc and graduate students, and 
salary gaps are making recruitment even more difficult. I should add 
that retaining the current staff is not easy either.
    We have anecdotal comments from Lawrence Berkeley, Brookhaven and 
Oak Ridge National Laboratories that scientists are, in fact, declining 
job offers based on the condition of working space offered them. Their 
concerns range from quality of facilities and equipment and appearance 
to location and amenities.
    Berkeley, Brookhaven and Oak Ridge are our oldest laboratories. 
Overall, 24 percent of the building space at our laboratories is more 
than 50 years old. We have identified over $1.5 billion, $1.2 billion 
of this total is for buildings, of line item projects to renovate, 
modernize and replace our existing buildings to better support our 
research missions. A complete listing and description of the projects 
can be found at the SC web site: http://www.science.doe.gov/SC-80/sc-82 
under ``Infrastructure Needs Assessment.'' We appreciate the support 
from Congress of the President's funding requests to modernize the 
Science laboratories.
    Question. A few years ago you office supported an education 
program. I see that your fiscal year 2004 budget proposes a new 
workforce development program. Does this program address the workforce 
development needs of the scientific community?
    Answer. Our approach to science workforce development is to have a 
comprehensive plan to expand the pipeline of students interested in, 
attracted to, and retained into science and technology careers. To do 
so, we have a major effort in offering mentor-intensive internships to 
undergraduate students at our national laboratories drawn not only from 
the typical 4-year research institutions but also from non-research 
institutions and community colleges. We also have a Faculty and Student 
Teams program that is aimed at developing long-term relationships 
between the faculty of small non-research institutions and the 
scientists at our national laboratories.
    Of particular interest to us, is the proposed Laboratory Science 
Teacher Professional Development program. If our Nation is to have a 
sufficient number of physical scientists and engineers, we need to 
address the serious declines in these majors among U.S. citizens. A 
number of commissions and studies have shown that the best route to 
stimulating student interest is through qualified and exciting teachers 
especially in the middle school years. Our teacher professional 
development program is aimed at attacking this problem through mentor-
intensive research and focused science-discovery experiences for K-14 
teachers. It will forge long-term relationships between the national 
laboratory scientists and our Nation's science teachers. Through this 
approach we believe we can produce a group of teachers who will be 
agents of change and inspiration to their students and local 
educational communities. We believe this comprehensive plan will 
utilize the unique human and scientific resources of the national 
laboratories to help support the future science workforce development 
of the Nation.
    Question. What is so different about your office's approach to High 
End Computing? What are you doing to develop this important area and 
what are the benefits?
    Answer. There are three major differences to our office's approach 
to High End Computing. First, we will conduct this effort within the 
context of an inter-agency strategy in High End Computing, to leverage 
resources and to provide the strong, broad commitment needed to sustain 
this long-term strategy. Second, we will engage our scientists with 
computer design researchers and with U.S. computer vendors through 
research collaborations, to evaluate computer system bottlenecks and to 
identify cost-effective solutions. Third, we will support research in 
the software programming environment to ensure that future 
supercomputer platforms are easy to use as soon as they become 
available.
    Question. What actions have you taken in the last year to assure 
the integrity of the Lab Directed Research and Development process?
    Answer. The Office of Science implemented the following policy 
changes to ensure that the LDRD program at its laboratories is executed 
in full compliance with all Congressional and DOE regulations.
  --My office issued detailed guidance on the roles and 
        responsibilities for Headquarters, DOE Site Offices/Operations 
        Offices and the Laboratories regarding adequate reporting and 
        effective oversight of the LDRD program.
  --For the first time in the Office of Science, I can personally 
        assure you that a single Federal official--the site office 
        manager--will carry out a prospective review of the 
        laboratories' proposed LDRD projects, ensure their relevance to 
        DOE missions and concur in each project.
  --Also, my office developed supplemental implementation guidance for 
        reporting LDRD charges on other Federal agency funded work for 
        others (WFO) projects and it is being implemented by each Site 
        Office.
  --The Office of Science provided the necessary data to the CFO's 
        office for the annual LDRD financial report to Congress. This 
        report provides information and analyses to comply with 
        congressional requirements, and supports the conclusion that 
        the LDRD funds clearly benefit the national security missions 
        of the Department by providing innovative new research to 
        underpin future mission capabilities.
  --In addition, each year the Science laboratories analyze and report 
        the benefits provided to defense and non-defense customer 
        categories as a percentage of total LDRD project dollars. They 
        demonstrate that LDRD benefits are commensurate with the 
        percentage of funds received.
    I have made a personal commitment to ensure that we are fully 
responsive to Congressional guidance on LDRD and will strive to make 
our improved processes work efficiently and effectively.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    Question. I see that you have zeroed out funding for the 
Concentrating Solar Power portion of the solar energy budget. I have 
been told by many energy scientists, including researchers at the 
National Renewable Energy Lab (NREL), that CSP holds significant 
promise for long-term energy potential. Why have you given up on 
Concentrating Solar Power and what is it going to take to get you to 
focus on it again?
    Answer. EERE's budget reflects numerous factors: Administration 
priorities, alignment with the Administration's R&D investment 
criteria, program performance, expected public benefits, and bringing 
to completion research on some technology applications that are ready 
to be commercialized. Concentrating Solar Power was identified as a low 
priority area because of a study by the National Academy of Sciences in 
2000 that recommended: ``[The Department] should limit or halt its 
research and development on power-tower and power-trough technologies 
because further refinements would not lead to deployment.'' The study 
also suggested that the Department reassess market prospects for solar 
dish/engine technologies. Based on these recommendations, the fiscal 
year 2003 budget began phasing out the CSP program, and the fiscal year 
2004 budget terminates it.
    In 2002, the Department sponsored two independent technical reviews 
of Concentrating Solar Power: the first by Sargent & Lundy (S&L), an 
engineering firm that conducts due-diligence studies in the power 
sector; the second a review by the National Research Council (NRC) of 
the S&L study. In November 2002, the NRC submitted its review of the 
initial S&L study. The NRC found that many of the conclusions from the 
S&L study were reasonable, but also identified several limitations and 
deficiencies in the S&L analysis, which S&L has agreed to address. We 
are awaiting the final report from Sargent & Lundy, and based on our 
review of that and the NRC review DOE will reevaluate the possibility 
of future Federal support for CSP.
    Question. In the last two conference reports we have carried 
language directing the National Renewable Energy Laboratory (NREL) to 
deploy some of their technologies in Nevada in partnership with 
industrial and university partners. It is my understanding that this 
effort is working out well for everyone involved, but I would be 
interested in your thoughts.
    Answer. Within the scope of this Congressionally-directed activity, 
DOE and NREL staff identified a variety of RDD&D opportunities in 
fiscal year 2002 that the indicated Nevada constituencies might conduct 
to complement existing renewable program efforts and provide benefits 
to Nevada and the U.S. Southwest. In response to a targeted 
solicitation, nine proposals were selected for award from among 36 
proposals. Work on eight of the nine projects commenced in October 
2002. The ninth project with Pulte Homes for a Zero Energy Home 
demonstration project/information center has been delayed due to the 
departure of Pulte's project lead. Alternate builders are being sought 
to support Pulte's end of the project and complete the award 
negotiations. With the fiscal year 2003 appropriations only recently 
concluded, no new awards have been made. In general, the implementation 
process is proceeding smoothly but it is too early to characterize the 
possible program technology and regional energy benefits that may 
result from this funding.
    Question. Biomass seems to have taken a substantial cut in the 
fiscal year 2004 request. By all accounts this program has been very 
successful. Why are you cutting back at this time?
    Answer. The Department recognizes the tremendous potential of a 
well-focused biomass R&D program to develop biorefinery technologies 
that can produce fuels, power, and high-value chemicals and other 
products. Nevertheless, Congressionally-directed activities reduced the 
coherence of this program and significantly constrained the ability of 
our scientists and engineers to move these important technologies 
forward. Thus, when we made the tough choices about funding the most 
important research for our Nation's energy security, environmental, and 
economic goals, we decided to shift funds from the biomass program 
where the effectiveness of our R&D work was already reduced into other 
areas, particularly our longer-term hydrogen and fuel cell R&D.
    EERE's budget reflects numerous factors: Administration priorities, 
efficiencies realized by combining all biomass research under one 
program, alignment with the Administration's R&D investment criteria, 
program performance, expected public benefits, and bringing to 
completion research on some technology applications that are ready to 
be commercialized. It is also important to recognize that in fiscal 
year 2004, DOE will continue collaborating with USDA in order to 
leverage both agencies' resources as we are doing in fiscal year 2003. 
In fiscal year 2003, under a joint solicitation required by the Biomass 
R&D Act of 2000, USDA will award $14 million and DOE $5 million for 
cost-shared R&D work identified in the Act.
    Question. When you took over as Assistant Secretary 2 years ago, 
you expended a substantial amount of time and effort in reorganizing 
the Energy Efficiency and Renewable Energy office. One of the unique 
features of the final organization chart was the creation of a Board of 
Directors for EERE. You assured us at the time that the Board of 
Directors was going to be a panel of your brightest minds and was going 
to be afforded the opportunity to think big thoughts and advise you 
directly. More to the point, you assured us that it was not a burial 
ground for unwanted Deputy Assistant Secretaries. However, in the year 
since the reorganization went into place, two of your five Directors 
have left and the other three seem to be engaged in activities not 
always directly related to your office's mission. Do you still stand by 
the concept of a Board of Directors?
    Answer. One of the innovations of the new EERE business model has 
been the creation of the Board of Directors. It has also been one of 
the early successes. Board members have represented EERE and the 
Department in international climate change deliberations, formed 
corporate strategies related to the FreedomCAR partnership and Hydrogen 
Fuel Initiative, and advised on how to reshape the budget to comport 
with new, emerging priorities. Proof positive of the importance of this 
unique governmental entity is that we are conducting a national search 
to replace the recently departing Board members and hope to have an 
announcement as to their replacement in the coming weeks.

                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                                SCIENCE

    Question. Dr. Orbach, the Pacific Northwest National Lab (PNNL) and 
major Universities and research institutes in my State are valuable 
resources for the Genomes to Life program and I urge you to expand the 
use of those world class facilities. However, I also realize the Office 
of Science's Biological and Environmental Research program sustained 
real cuts into the base budget in the fiscal year 2003 Omnibus budget. 
For this budget year, I would like to work with the Chairman to include 
significant increases for the Genomes to Life program in the BER 
budget. Dr. Orbach, what would the Office of Science be able to do with 
additional funds for the Genomes to Life program?
    Answer. Senator Murray, I believe that the fiscal year 2004 
President's request for the Genomes to Life program provides robust 
funding, while balancing the needs of this exciting new program with 
other equally compelling programs being carried out within the Office 
of Science. In these very early days of research in the Genomes to Life 
(GTL) program we have three types of research needs. First, we need to 
fund large, multi investigator, multi institutional, multidisciplinary 
research teams to do the kinds of science required by a program whose 
technology, computational, and experimental challenges are as complex 
and diverse as those of the GTL program. We have already funded 5 large 
scientific teams ($5-7 million per year) whose research spans the four 
core goals of the GTL program (approximately one team per goal): (1) 
understand all the multi protein molecular machines in DOE-relevant 
microbes, (2) identify the genetic regulatory machinery that controls 
these machines, (3) understand complex, DOE-relevant communities of 
microbes since microbes generally work in communities and not alone, 
and (4) develop the computational resources needed to make all of this 
happen. To ensure a diversity of research approaches that is so 
important for fundamental discovery in science, we need at least two or 
more teams of scientists addressing each of these large, challenging 
goals. The fiscal year 2004 President's request includes an additional 
$29.2 million for GTL. These additional funds could, for example, 
support an additional large team of scientists focused on each of the 
four core GTL goals. Second, we need to fund a wide variety of cutting 
edge research projects that will help us develop many of the specific 
technologies and research tools that will be needed by our large GTL 
research teams, by planned GTL user facilities (see below), and, 
indeed, by tomorrow's scientists across all areas of biology. These 
individual investigator type projects are analogous to the many 
projects funded in the Human Genome Project that led to the development 
of the resources and technologies eventually used to actually sequence 
the human genome. Third, the proposed GTL plan calls for cost-
effective, high throughput user facilities for carrying out much of the 
routine biology and generating the necessary resources of GTL (and for 
other areas of biology outside of GTL) just as the Human Genome project 
needed DNA sequencing factories. Four high throughput facilities are 
planned for (1) protein production, (2) imaging of microbial proteins, 
molecular machines, and communities, (3) proteomics, and (4) whole 
systems analysis.
    Question. Dr. Orbach, does the fiscal year 2004 budget request have 
enough funds to have full utilization of EMSL including computer 
equipment?
    Answer. The fiscal year 2004 budget request for the Environmental 
Molecular Sciences Laboratory (EMSL) includes $35,149,000 for operating 
expenses and $1,989,000 for capital equipment. The EMSL is expected to 
have sufficient funding to allow full utilization of the EMSL, 
including the new high performance computer.

                          SUBCOMMITTEE RECESS

    Senator Domenici. And for all of you who came from the 
Department and others, thank you for being here.
    Thank you.
    [Whereupon, at 3:31 p.m., Wednesday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
